<html>
<title> - THE INVESTIGATION OF THE WORLD TRADE CENTER COLLAPSE: FINDINGS, RECOMMENDATIONS, AND NEXT STEPS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                  THE INVESTIGATION OF THE WORLD TRADE
                       CENTER COLLAPSE: FINDINGS,
                    RECOMMENDATIONS, AND NEXT STEPS

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 26, 2005

                               __________

                           Serial No. 109-28

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
24-133                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  DENNIS MOORE, Kansas
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                            October 26, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    21
    Written Statement............................................    22

Statement by Representative Brad Miller, Member, Committee on 
  Science, U.S. House of Representatives.........................    23
    Written Statement............................................    23

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    25
    Written Statement............................................    26

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    27

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    27

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science, U.S. House of Representatives............    28

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    28

Prepared Statement by Representative Dennis Moore, Member, 
  Committee on Science, U.S. House of Representatives............    29

                                Panel I:

Ms. Sally Regenhard, Chairperson, Skyscraper Safety Campaign
    Oral Statement...............................................    29
    Written Statement............................................    31

                               Panel II:

Dr. William Jeffrey, Director, National Institute of Standards 
  and Technology (NIST)
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    48

Ms. Nancy McNabb, Director, Government Affairs, National Fire 
  Protection Association
    Oral Statement...............................................    49
    Written Statement............................................    51
    Biography....................................................    55

Dr. James R. Harris, President, J.R. Harris and Company; Member, 
  American Society of Civil Engineers
    Oral Statement...............................................    55
    Written Statement............................................    56
    Biography....................................................    60

Mr. Glenn Corbett, Assistant Professor of Fire Science, John Jay 
  College of Criminal Justice; Member, NIST National Construction 
  Safety Team Advisory Board
    Oral Statement...............................................    62
    Written Statement............................................    64
    Biography....................................................    65

Mr. Henry L. Green, President, International Code Council
    Oral Statement...............................................    66
    Written Statement............................................    69
    Biography....................................................    75

Discussion.......................................................    75

             Appendix 1: Answers to Post-Hearing Questions

Dr. William Jeffrey, Director, National Institute of Standards 
  and Technology (NIST)..........................................    96

Ms. Nancy McNabb, Director, Government Affairs, National Fire 
  Protection Association.........................................   113

Dr. James R. Harris, President, J.R. Harris and Company; Member, 
  American Society of Civil Engineers............................   116

Mr. Glenn Corbett, Assistant Professor of Fire Science, John Jay 
  College of Criminal Justice; Member, NIST National Construction 
  Safety Team Advisory Board.....................................   121

Mr. Henry L. Green, President, International Code Council........   124

             Appendix 2: Additional Material for the Record

Statement by The American Institute of Architects................   138

Letter to Chairman Boehlert from James A. Thomas, President, ASTM 
  International, dated January 11, 2006..........................   149

An Analysis of the NIST Report on the Collapse of the World Trade 
  Center Towers for potential recommendations and impacts on ASTM 
  standards, prepared on behalf of ASTM International by Vytenis 
  Babrauskas, Fire Science and Technology Inc....................   151

Letter to Chairman Boehlert from Ron Burton, Vice President for 
  Advocacy and Research, Building Owners and Managers Association 
  International (BOMA), dated October 26, 2005...................   184

BOMA Comments on NIST Recommendations Contained in the Report on 
  the WTC Disaster...............................................   186

Statement by James G. Quintiere, Professor, Department of Fire 
  Protection Engineering, University of Maryland.................   191

Statement by Jake Pauls, CPE, Consulting Services in Building Use 
  and Safety, dated October 26, 2005.............................   193

Fireproofing Blown Off Twin Towers, article by Michelle Garcia, 
  The Washington Post, Wednesday, April 6, 2005..................   194

Staircases in Twin Towers Are Faulted, article by Jim Dwyer, The 
  New York Times, April 6, 2005..................................   195

3-Year Federal Study of 9/11 Urges Rules for Safer Towers, 
  article by Jim Dwyer and Eric Lipton, The New York Times, 
  Wednesday, June 22, 2005.......................................   197

9/11 Firefighters Told of Isolation Amid Disaster, article by Jim 
  Dwyer and Michelle O'Donnell, The New York Times, September 9, 
  2005...........................................................   200

BUILDING SAFETY: Directing the Herd: Crowds and the Science of 
  Evacuation, article by John Bohannon, Science, October 14, 2005   204


    THE INVESTIGATION OF THE WORLD TRADE CENTER COLLAPSE: FINDINGS, 
                    RECOMMENDATIONS, AND NEXT STEPS

                              ----------                              


                      WEDNESDAY, OCTOBER 26, 2005

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 11:09 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood 
Boehlert [Chairman] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                  The Investigation of the World Trade

                       Center Collapse: Findings,

                    Recommendations, and Next Steps

                      wednesday, october 26, 2005
                          11:00 a.m.-1:00 p.m.
                   2318 rayburn house office building

Purpose

    On October 26, 2005, at 11 a.m., the House Committee on Science 
will hold a hearing on the key findings and recommendations of the 
National Institute of Standard and Technology's (NIST) investigation 
into the collapse of the World Trade Center (WTC), how building and 
fire code organizations plan to implement the recommendations contained 
in that report, and what barriers exist to the development and adoption 
of stronger building and fire codes.

Witnesses

    The following witnesses will address the Committee:
Panel I:

Ms. Sally Regenhard, Skyscraper Safety Campaign (SSC), New York, NY. 
The SSC represents families and survivors of the WTC disaster and 
supports stronger codes and practices for buildings and first 
responders.

Panel II:

Dr. William Jeffrey, Director, National Institute of Standards and 
Technology.

Ms. Nancy McNabb, Director of Government Affairs, National Fire 
Protection Association (NFPA). NFPA standards are extensively 
referenced in the NIST recommendations on the WTC collapse.

Dr. James R. Harris, American Society of Civil Engineers (ASCE). ASCE 
standards are extensively referenced in the NIST recommendations on the 
WTC collapse.

Mr. Henry L. Green, President, International Code Council (ICC). The 
ICC is an association of State and local code officials, building 
mangers, and other parties that collectively maintain the International 
Building Code (IBC), the most widely used model building code in the 
U.S. Many of NIST's recommendations reference the IBC.

Mr. Glenn Corbett, Assistant Professor of Fire Science, John Jay 
College of Criminal Justice, New York, NY. Mr. Corbett is a member of 
NIST's National Construction Safety Team Advisory Board.

Overarching Questions

    The hearing will address the following overarching questions:

        1.  What are the most important findings and recommendations of 
        the World Trade Center Investigation report?

        2.  Are the NIST recommendations framed appropriately so that 
        they can be adopted into national model building codes?

        3.  What are the prospects for the adoption of the 
        recommendations by the code organizations? What is NIST doing 
        to promote this process? What are the possible impediments to 
        their adoption?

        4.  What lessons were learned from this investigation that 
        could be applied to improve future investigations of building 
        failures?

Background

    On September 11, 2001, terrorists crashed two fuel-laden Boeing 
767s into World Trade Center (WTC) Tower 1 and Tower 2. While both 110-
story buildings withstood the initial impact, the subsequent fires 
weakened the already damaged columns at the periphery and core of the 
towers, both of which collapsed. More than 25,000 people were safely 
evacuated from the towers, however 2,749 people were killed in the 
disaster. World Trade Center 7, a 47-story office building located 
adjacent to WTC 1 and 2, was damaged during the disaster and collapsed 
later that same day.
    Immediately following the attack, the Federal Emergency Management 
Agency (FEMA) and the American Society of Civil Engineers (ASCE) began 
planning a building performance study of the WTC. The week of October 
7, as soon as the rescue and search efforts ceased, an ASCE team under 
contract with FEMA known as the Building Performance Assessment Team 
(BPAT) went to the site and began their assessment of why the buildings 
had failed. This was to be a brief effort, as the study team consisted 
of experts who generally had volunteered their time. In January 2002, 
FEMA asked the National Institute of Standards and Technology (NIST) to 
take over the next phase of the investigation of the collapse 
essentially to build upon the BPAT recommendations and conduct a more 
thorough investigation of the events leading to the collapse.
    The Science Committee held two hearings in 2002 on the WTC 
collapse, one on March 6 and the other on May 1. The March 6, 2002, 
hearing focused on how the Federal Government investigates catastrophic 
building failures, and what had been learned from the collapse of the 
WTC 1, 2 and 7. Concerns raised at the hearing included the lack of any 
specific federal authority, protocols, or funding for investigations of 
this kind. Concerns were also raised regarding the timing of the BPAT 
deployment (almost a month after the towers fell), its access to the 
site and building records, premature disposal of evidence, and FEMA's 
lack of regular communication with the public about the investigation.
    The BPAT released its report at the May 2002 hearing. The hearing 
also reviewed plans for NIST to begin a more comprehensive 
investigation in view of the criticisms of FEMA, and provided a forum 
to discuss proposed legislation to give NIST the authorities necessary 
to conduct such an investigation. The BPAT report highlighted potential 
reasons for why the two towers, almost identical in design, performed 
differently under the stresses of the disaster. It also identified 
critical features that enabled so many to evacuate, and the design 
elements that may have played a role in the collapse and prevented 
people above the impacts from being able to exit the buildings. 
However, witnesses commented that, without a more sophisticated 
analysis of the evidence, no conclusions could be drawn that could be 
used to recommend improvements in building and fire codes to prevent 
future loss of life.
    Also at the May 2002 hearing, the witnesses commented favorably on 
draft legislation being prepared by the Science Committee, based on the 
authorizing legislation for the National Transportation Safety Board 
(NTSB) to enhance NIST's existing authority to investigate building 
failures. On May 9, 2002, the National Construction Safety Team Act 
(NCST--H.R. 4687) was introduced by Congressman Sherwood Boehlert and 
Congressman Anthony Weiner. The NCST was signed into law on October 1, 
2002. Under the Act, NIST is authorized to appoint a national 
construction safety team to determine the causes of a building's 
failure, evaluate the technical aspects of evacuation and emergency 
response, and ``recommend, as necessary, specific improvements to 
building standards, codes, and practices based on the findings,'' and 
propose any research needed to improve building safety and emergency 
response procedures.'' The law gives NIST subpoena power to ensure that 
it has access to all evidence to support an investigation, but the 
results of such investigations cannot be used as evidence in any 
subsequent litigation.
    On August 21, 2002, NIST announced the appointment of a national 
construction safety team to investigate building and fire safety in WTC 
1, 2, and 7. The project was funded through FEMA, and cost $16 million.
Building and Fire Codes
    Building and fire codes are established and enforced by State and 
local governments, which generally base their codes on national model 
codes that are written by private non-profit standards development 
organizations (SDOs). These organizations are generally are made up of 
members--individuals and groups--that have an interest in construction. 
Generally make their money through membership payments and selling 
their codes.
    Building and fire codes and standards are technical descriptions of 
constructions, materials, installations, equipment, or practices 
designed to achieve specific results, such as safety or strength. 
Standards are very specific guidelines that describe single elements of 
construction or safety. For example, a ``fire rating'' is a standard 
that describes the amount of time a construction element such as a beam 
can be exposed to a typical fire before it breaks or fails. Other 
examples of building standards include hallway or stairwell widths 
deemed necessary to evacuate a certain number of people in a certain 
amount of time, or the type of steel needed for a beam to support a 
certain amount of weight. NIST does not write building or fire codes, 
but does participate in the discussions and provides technical guidance 
to the standards development organizations.
    The most widely-used model building code in the U.S. is the 
International Building Code (IBC). It is currently the basis of the 
codes in 45 states and the District of Columbia. The IBC is developed 
and owned by the International Code Council (ICC). The ICC's members 
consist of State and local building code officials, building owners and 
managers, and private sector participants from construction and other 
industries. ICC's members are concerned with safety, but also with cost 
and other economic considerations, and these are reflected in the 
outcomes of the code meetings. The IBC is regularly updated in a 
deliberative, committee-driven process that takes about eighteen 
months. The deadline for submitting proposed changes to the IBC, which 
begins the next eighteen-month cycle, is March 24th, 2006.
    The National Fire Protection Association (NFPA), which develops 
many standards related to fire safety, recently produced an alternative 
model building code, NFPA 5000. Experts say that implementing NFPA 5000 
may be more expensive than the IBC but may result in a greater level of 
safety. NFPA's membership is different from that of the ICC, with 
strong representation by fire protection officials and fire equipment 
manufacturers. NFPA 5000 has not been widely adopted, but individual 
NFPA standards are widely used in fire codes.
The NIST Investigation
    NIST's Building and Fire Research Laboratory (BFRL) carries out 
research in fire science, fire safety, structural, mechanical, and 
environmental engineering. It is the only federal laboratory dedicated 
to research on building design and fire safety.
    The goals of the NIST WTC investigation of the WTC disaster were to 
investigate the building construction, the materials used, and the 
technical conditions that contributed to the outcome of the WTC 
disaster to serve as the basis for:

        <bullet>  Improvements in the way buildings are designed, 
        constructed, maintained, and used;

        <bullet>  Improved tools and guidance for industry and safety 
        officials for safer buildings and better coordination in 
        emergencies;

        <bullet>  Recommended revisions to current building codes, 
        standards, and practices, and

        <bullet>  Improved public safety.

    The specific objectives were to:

        1)  Determine why and how WTC 1 and WTC 2 collapsed following 
        the initial impacts of the aircraft;

        2)  Determine why the injuries and fatalities were so high or 
        low depending on location, including all technical aspects of 
        fire protection, occupant behavior, evacuation, and emergency 
        response;

        3)  Assess what procedures and practices were used in the 
        design, construction, operation, and maintenance of WTC 1, 2; 
        and

        4)  Identify areas in current building and fire codes, 
        standards, and practices that warrant revision.

    To meet these goals, NIST assembled a team of in-house experts and 
outside specialists, totaling about 200 people. The team compiled and 
reviewed tens of thousands of documents, photographs, and films, 
interviewed over a thousand people who had been on the scene or who had 
been involved with the design, construction, and maintenance of the 
WTC; analyzed 236 pieces of steel taken from the wreckage; performed 
laboratory tests, and performed computer simulations of the sequence of 
events that happened from the instant of the aircraft impact to the 
initiation of collapse for each tower. In addition, NIST held several 
public meetings in New York City to report on the status of the 
investigation and solicit comments and additional information that 
might further the investigation.
    In September, 2005, NIST released its draft Final Report of the 
National Construction Safety Team on the Collapse of the World Trade 
Center Towers for public comment. A copy of the executive summary of 
the report is attached. This report summarizes the findings of the 
investigation and includes thirty recommendations to improve the safety 
of tall buildings, occupants, and emergency responders. NIST will 
publish its final report within the next two weeks.
NIST Findings
    The NIST investigation confirmed and expanded upon several of the 
findings by the initial FEMA BPAT study. When built, WTC 1 and WTC 2 
were unlike any other skyscrapers in existence at the time, both in 
terms of their height and innovative structural features. These 
consisted of a ``frame-tube'' system of exterior columns on the four 
faces of the towers, linked to a core of columns by light-weight 
trusses that supported the floors. In spite of their innovative design, 
WTC 1 and 2 met or exceeded the requirements of the New York City 
building codes.
    The NIST investigation determined that although the aircraft did 
considerable damage to the principal structural components of WTC 1 and 
2, the towers were inherently robust, and would have remained standing 
were it not for the dislodged fireproofing which exposed the central 
columns to the multi-floor fires. In each tower, a different 
combination of impact damage and heat-weakened structural components 
contributed to the abrupt structural collapse. The fire safety systems 
in WTC 1 and 2 met or exceeded current practice at the time the towers 
fell, but played no safety role on September 11th because the water 
supplies and electrical systems were damaged by the aircraft impact. In 
WTC 1, the aircraft destroyed all escape routes, and 1,355 people were 
trapped in the upper floors when the building collapsed. In WTC 2 where 
evacuation had already commenced, about 3,000 got below the impact zone 
before the second plane crashed. One stairwell remained passable for a 
short period of time and eighteen people evacuated through the impact 
zone. The remaining 619 people perished. WTC 2 collapsed before WTC 1 
because the aircraft did significantly more damage to the central 
columns and the fires were concentrated on the East side of the 
building, rather than moving around as they did in WTC 1.
Major Issues Addressed in the NIST WTC Recommendations
    NIST's recommendations fall into eight groups:

        <bullet>  Increased Structural Integrity,

        <bullet>  Enhanced Fire Resistance of Structures

        <bullet>  New Methods for Fire Resistance Design of Structures

        <bullet>  Improved Active Fire Protection

        <bullet>  Improved Building Evacuation

        <bullet>  Improved Emergency Response

        <bullet>  Improved Procedures and Practices, and Education and 
        Training.

    These recommendations include many references to specific SDOs to 
modify or, in some cases, completely overhaul those standards that 
apply to building construction, evacuation, testing, and fire safety. 
NIST's recommendations also refer to less specific audiences such as 
building managers, building occupants, property developers, and first 
responders to develop procedures and best practices to protect building 
occupants.
    The following highlights some of the key issues referenced by NIST 
in its recommendations:

<bullet>  Increased Structural Integrity

    The NIST investigators found that the existing methods of 
calculating the effect of wind and other stressors on tall towers 
produced markedly different results among the different tests, leading 
them to question whether these tests had a basis in fact and needed to 
be re-designed. NIST's report also focuses on the concept of 
``progressive collapse,'' where the weakening of one structural element 
contributes to the weakening of others. NIST raises the question of 
whether the current practice of testing individual building components 
such as columns and floor trusses gives an accurate estimate of the 
resilience of an entire building assembly to fire, wind, and other 
stressors. NIST recommends that a ``structural frame'' approach to fire 
resistance ratings be developed by the structural standards groups such 
as ASCE. However, progressive collapse is not well understood, and it 
may take time for these groups to produce a standard and describe the 
appropriate tests against which to judge whether structures are prone 
to progressive collapse.
    The recommendations pertaining to structural integrity and design 
are directed largely at ASCE-7, and specifications developed by the 
American Concrete Institute (ACI) and the American Institute of Steel 
Construction (AISC), as well as NFPA, and urge that the latest version 
of these standards and specifications be adopted by the ICC and NFPA 
into their model building codes.

<bullet>  Improved Fire Resistance of Structures and Fire Protection

    Over the years, across the United States, there has been a gradual 
reduction in rigor of building codes of fire rating requirements, i.e., 
how long something such as a steel column can remain exposed to a fire 
before breaking or deforming. There has also been a decrease in the 
compartmentalizing requirements for working and living spaces. Large 
compartments in buildings allow more air to flow to fires and allow 
fires to spread faster. Large compartments, however, means more floor 
area, more tenants, and more rent for the building owner. A lower fire 
rating requirement allows the use of lighter and less material in 
construction. The loosening of these restrictions has been compensated 
for by increasing requirements for sprinkler systems, which have been 
shown to be effective in quenching typical office fires. On September 
11th however, the sprinkler systems were disabled, and even in typical 
fires, sprinkler systems do not always work. NIST recommends greater 
redundancy in sprinkler systems, and more compartmentalization to 
restrict air flow to fires. These recommendations apply to several 
standards developed by NFPA.
    The reduction in fire ratings has also been compensated by the use 
of spray-applied fire resistive materials (SFRM) on structural 
components. This was the foam that was applied to the columns and 
trusses of WTC 1 and 2 as fireproofing. After the 1993 WTC terrorist 
bombing, it was recommended that the spray-on fire protection on the 
steel components of the towers be thickened. NIST emphasizes that, were 
it not for the dislodging of the fireproofing from the structural steel 
when the aircraft flew into the towers, WTC 1 and 2 would likely have 
withstood the subsequent fires. The foam on WTC 1 and 2 was shaken or 
blown off around the cores and peripheral columns on several floors in 
both Towers on September 11th, meaning the columns reached critical 
temperatures much faster then they would have normally. NIST recommends 
that the performance of this type of fireproofing needs to be better 
understood, particularly its response to shock, aging, and method of 
application, and new coatings should be developed.
    NIST notes in its report that both the IBC and NFPA 5000 model 
building codes have since changed their fire rating requirements for 
buildings over 420 feet from two hours to four. The report also says, 
however, that the technical basis for fire ratings is not strong, 
particularly since the typical contents of offices, and construction 
materials, have changed in the last 100 years. NIST recommends a 
comprehensive review by all fire-related SDOs of fire testing 
procedures to ensure that fire ratings are meaningful. Structural fire 
resistance is closely tied to the outcomes of work on the structural 
frame approach for large buildings, which NIST advocates in its report 
while recommending an extensive re-evaluation by national building code 
committees (ICC and NFPA) of the dynamics of fire, evacuation, and 
emergency response for skyscrapers to determine what fire ratings are 
needed for tall buildings. In the case of re-evaluating the tests steel 
and concrete assemblies, this could be an expensive proposition. A 
typical full-scale fire test costs $30,000 or more per test, and to 
validate a new test, experimental tests must to be run several times. 
It is not clear who should be conducting these tests.

<bullet>  Full Evacuation of Large Buildings

    After the 1993 terrorist bombing of the WTC site, it took four 
hours to evacuate everyone from WTC 1 and WTC 2. The standard 
evacuation plan for skyscrapers does not usually anticipate such a mass 
egress: fire-related evacuation plans assume that occupants ``evacuate 
in place'' to higher and lower floors while first responders fight the 
fire. Although this approach may change as a result of the events of 
September 11th, it may still be the most practical and safe procedure 
for typical skyscraper fires. Skyscraper elevators in the U.S. are not 
generally fireproof, nor are they intended to be used for mass 
evacuation. Full evacuation via stairwells takes a long time. On 
September 11th, with all elevators out of commission, it would have 
taken hours for firefighters to ascend to the affected floors to fight 
the fires, or assist survivors down the stairs. This fact has provoked 
some re-thinking of how elevators should be designed and used for 
emergency purposes.
    WTC 1 and 2 had three stairwells each, centered at the core of the 
buildings. When the aircraft crashed, these stairs were destroyed. The 
NIST investigation found that about six percent of the people in the 
towers had health problems or disabilities that made taking the stairs 
difficult. Overall, it was found, people evacuate buildings twice as 
slowly as generally thought. NIST recommends structural hardening of 
elevators for use in large-scale emergencies, and that stairwells be 
spaced further apart, although it does not say by how much. NIST also 
recommends that stairwells should be widened to allow more people to 
descend as well as to allow counter flow from first responders going up 
the stairs. Most of the recommendations apply to NFPA 101, and the 
National Model Building and Fire Codes of the ICC.

<bullet>  Communications and Emergency Response

    For the approximately 1,000 emergency responders on the site on 
September 11th, this was the largest disaster they had ever 
experienced. Communications networks at the site were destroyed, and 
portable communications devices such as walkie-talkies and cellular 
phones were overwhelmed as dozens of first responders attempted to talk 
at the same time. Walkie-talkies performed inadequately, or otherwise 
failed to function inside the steel-concrete construction of the 
towers. There was no inter-operability between the New York Police 
Department and the New York Fire Department equipment. Although there 
had been significant upgrades to the fire monitoring and communications 
infrastructure in the WTC Complex after the 1993 terrorist bombing, 
incident command centers established inside the two towers by first 
responders were still unable to provide a sufficient assessment of the 
situation, or monitor and relay information to other first responders 
at the site for proper coordination of their activities. First 
responders commented later that viewers watching the disaster on 
television had a better grasp of the scope and nature of the crisis 
than did anyone at the WTC site.
    NIST's recommendations on improved emergency response apply mostly 
to NFPA standards, but also extend to the Department of Homeland 
Security, and state and local jurisdictions, and first responders. NIST 
emphasizes that systems need to be effective for large-scale 
emergencies and able to function in ``challenging radio frequency 
environments.'' NIST also states that better procedures are needed for 
integrating information from multiple sources and coordinating a 
unified response among different agencies and departments.

Additional Issues

        <bullet>  Follow-up funding is limited

    In many instances, NIST has recommended research and testing to 
determine whether and how changes in building codes should be made. It 
is not clear this effort will receive the commitment for funding it 
requires. In order to implement many of NIST's recommendations, a lot 
of research and collaboration with SDOs and stakeholders will have to 
be done to provide a scientific and technical basis for the standards 
changes needed to meet those recommendations. NIST requested $2 million 
in additional funds for FY 2006 for codes and practices for buildings 
and first responders, but the FY 2006 appropriation has not yet been 
finalized. If adequate funding for NIST's research efforts is not 
provided, it is unclear what progress will be made on implementing 
those recommendations that need scientific research to be implemented.

        <bullet>  Future building investigations

    It is unclear what role NIST will play in investigating future 
building failures. FEMA received heavy criticism at the Science 
Committee hearing March 6, 2002, for shortcomings in the way in which 
it conducted the investigation of the collapse of the World Trade 
Center. The passage of the National Construction Safety Team Act was 
supposed to address these shortcomings by creating the authority to 
investigate building failures at NIST and providing NIST with subpoena 
power to obtain whatever evidence it needed to complete investigations. 
However, in the years since September 11th, although several building 
failures have occurred, Hurricane Katrina being the most recent event 
causing structural failures, NIST has not invoked the NSTC Act to 
launch investigations, but rather has been called in under another 
agency: FEMA in the case of Katrina. NIST does not have a source of 
funding dedicated to pay for such activities and is apparently 
reluctant to act independently. Outside observers note that NIST is a 
research institution and may not be culturally suited to conduct 
investigations as does the NTSB, upon which the NCST Act was based, or 
the Chemical Safety and Hazards Investigation Board.

Questions for the Witnesses

Ms. Sally Regenhard, Skyscraper Safety Campaign
    I invite you to open the hearing with a five-minute statement that 
outlines the views of the Skyscraper Safety Campaign on the 
investigation, its findings and the next steps that should be taken.
Dr. William Jeffrey, Director, National Institute of Standards and 
        Technology
    In your testimony, please briefly describe the most important 
findings and recommendations of the NIST investigation of the World 
Trade Center collapse and answer the following questions:

        1)  What specific steps is NIST taking to ensure that its 
        recommendations are incorporated into model and local codes? 
        What barriers has NIST confronted or does it expect to confront 
        as part of that process and how do you plan to overcome those 
        barriers? What past successes can NIST draw on as part of this 
        effort?

        2)  Some experts have criticized the recommendations--some 
        arguing that they are too general and therefore hard to 
        translate into codes, and others arguing that they are too 
        detailed and will needlessly increase building costs. How do 
        you respond to these criticisms?

        3)  What lessons have you learned in carrying out this 
        investigation that could be applied to future investigations, 
        including the ones being undertaken in the wake of Hurricane 
        Katrina?

Ms. Nancy McNabb, Director of Government Affairs, National Fire 
        Protection Association (NFPA)
    In your testimony, please briefly describe the process by which 
NFPA writes codes and answer the following questions:

        1)  Does NFPA support the recommendations of the NIST study? 
        Why or why not?

        2)  What specific steps will NFPA be undertaking to determine 
        whether and how to incorporate the NIST recommendations into 
        its codes? How long should that process take? What will be the 
        greatest barriers in the process?

        3)  What specific actions should NIST be taking to help code 
        organizations incorporate its recommendations? Are the 
        recommendations framed in a way that facilitates their adoption 
        by code organizations or are they too general or too specific?

Dr. James R. Harris, American Society of Civil Engineers (ASCE)
    In your testimony, please briefly describe the process by which 
ASCE writes codes and answer the following questions:

        1)  Does ASCE support the recommendations of the NIST study? 
        Why or why not?

        2)  What specific steps will ASCE be undertaking to determine 
        whether and how to incorporate the NIST recommendations into 
        its codes? How long should that process take? What will be the 
        greatest barriers in the process?

        3)  What specific actions should NIST be taking to help code 
        organizations incorporate its recommendations? Are the 
        recommendations framed in a way that facilitates their adoption 
        by code organizations or are they too general or too specific?

Mr. Henry L. Green, President, International Code Council (ICC)
    In your testimony, please briefly describe the process by which ICC 
writes codes and answer the following questions:

        1)  Does ICC support the recommendations of the NIST study? Why 
        or why not?

        2)  What specific steps will ICC be undertaking to determine 
        whether and how to incorporate the NIST recommendations into 
        its codes? How long should that process take? What will be the 
        greatest barriers in the process?

        3)  What specific actions should NIST be taking to help code 
        organizations incorporate its recommendations? Are the 
        recommendations framed in a way that facilitates their adoption 
        by code organizations or are they too general or too specific?

Mr. Glenn Corbett, Assistant Professor of Fire Science, John Jay 
        College of Criminal Justice, New York, NY

        1)  What are the most important findings and recommendations of 
        the NIST World Trade Center Investigation report?

        2)  Some experts have criticized the recommendations--some 
        arguing that they are too general and therefore hard to 
        translate into codes, and others arguing that they are too 
        detailed and will needlessly increase building costs. What is 
        your view of these criticisms?

        3)  What are the prospects for the adoption of the 
        recommendations by the code organizations? What should NIST and 
        the code and standards groups be doing to promote this process?

        4)  What lessons were learned from this investigation that 
        could be applied to improve future investigations of building 
        failures?

Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Good morning. This hearing is open, and 
we are pleased to welcome back one who strayed from the fold, 
Mr. Weiner of New York, who was a very valued Member of this 
committee, and has gone onto other pursuits, but still, 
fortunately, within the Congress of the United States. Mr. 
Weiner, welcome back.
    I want to welcome everyone to this important hearing, the 
Committee's third on the tragic collapse of the World Trade 
Center. But it won't be our last. I want to promise and perhaps 
warn everyone at the outset that this committee will be closely 
monitoring the followup to the National Institute of Standards 
and Technology report on the events of September 11.
    That means we will be watching what NIST does, what other 
federal agencies do, and what the code writing organizations 
do. We are obviously not technical experts, but we will be 
making sure that their recommendations are considered fully and 
thoroughly, that NIST is doing everything necessary to back up 
those recommendations, and that any decisions are fully 
justified by the facts.
    The issues raised in NIST's report go far beyond a single 
horrific terrorist incident, and indeed, beyond terrorism as a 
phenomenon. The report raises fundamental questions about what 
we know about the behavior of buildings and their contents, 
what we know about the behavior of individuals in emergencies, 
and about whether buildings are well enough designed for any 
large emergency. This is not about making every building strong 
enough to survive a plane crash.
    That said, NIST's conclusion that the Trade Center 
buildings could have survived even the massive insult of a 
plane crash if the fireproofing had remained in place, is at 
once both chilling and promising, chilling because the massive 
loss of life was not inevitable, promising because it is an 
indication we can do more to protect lives in the future.
    This committee will be asking hard questions of all of our 
witnesses today, to make sure we do take all reasonable steps 
to protect lives. We will be looking into whether NIST's 
recommendations are written in a way that will facilitate the 
adoption by code groups. It appears that they do not. We will 
be probing whether code groups are prepared to fully and fairly 
review the recommendations. On that, while the initial 
indications in today's testimony are promising, the jury 
necessarily is still out.
    But our tough questions should not obscure the debt of 
gratitude we owe to NIST. NIST took seriously the mandate from 
this committee, and Mr. Weiner, I want to thank you for your 
assistance in that, and the Nation gave it in the National 
Construction Safety Team Act, and assembled an impressive group 
of experts that produced a comprehensive and impressive report. 
But our focus now has to be on whether everyone is doing enough 
to translate the report into specific, concrete steps that will 
prevent future tragedies.
    The protection of life is the highest responsibility of 
public officials, and our hearing today is about that 
responsibility, just as much as any hearing on the military or 
homeland security would be. But the process in this case is far 
more complex, because of the way it involves the private sector 
and every level of government. But complexity is not an excuse 
for inaction.
    Before I turn to the minority, I want to give a special 
welcome to Bill Jeffrey, who is making his first appearance 
before this committee. I say first public appearance, because 
Dr. Jeffrey has long been a valued advisor to this committee in 
his work at the Office of Science and Technology Policy, 
someone we have admired for his intelligence, open-mindedness, 
and candor.
    We could not be more delighted with his appointment as the 
Director of NIST, and we very much look forward to continuing 
to work with him. Hopefully, after today, he will still feel 
that way about us. This isn't, perhaps, the topic any of us 
would have chosen for his maiden hearing, but there is none of 
greater importance, and this hearing underscores the importance 
of NIST and its need for greater funding. But I won't get 
started on that subject now; we have more than enough to deal 
with today.
    And I also want to welcome back someone who has been so 
invaluable to this committee as counsel, Sally Regenhard, 
Chairperson of the Skyscraper Safety Committee. She is 
emotionally and intellectually involved in our proceedings in 
so many different ways, and she has been a source of strength 
and inspiration to us, and she is dogged in her determination, 
and I commend her for that. People will often ask me, ``When 
you go to Washington, I bet you meet with lobbyists.'' And I 
say ``Sure, I meet with lobbyists. Every single day. Lobbyists 
are people who advocate for something.'' And there is one of 
the best lobbyists in this town today in Sally Regenhard. What 
she is advocating for involves the protection of life.
    So, with that, let me turn to Mr. Miller for any statement 
he might care to make, and then we will have our first panel of 
one, Ms. Regenhard.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome everyone to this important hearing, this 
committee's third on the tragic collapse of the World Trade Center, but 
probably not our last. I want to promise (and perhaps warn) everyone at 
the outset that this committee will be closely monitoring the follow-up 
to the National Institute of Standards and Technology (NIST) report on 
the events of September 11.
    That means we will be watching what NIST does, what other federal 
agencies do, and what the code writing organizations do. We are 
obviously not technical experts, but we will be making sure that the 
recommendations are considered fully and thoroughly, that NIST is doing 
everything necessary to back up those recommendations, and that any 
decisions are fully justified by the facts.
    The issues raised in NIST's report go far beyond a single, horrific 
terrorist incident, and indeed beyond terrorism as a phenomenon. The 
report raises fundamental questions about what we know about the 
behavior of buildings and their contents, what we know about the 
behavior of individuals in emergencies, and about whether buildings are 
well enough designed for any large emergency. This is not about making 
every building strong enough to survive a plane crash.
    That said, NIST's conclusion that the Trade Center buildings could 
have survived even the massive insult of a plane crash if the 
fireproofing had remained in place is at once both chilling and 
promising--chilling because the massive loss of life was not 
inevitable; promising because it is an indication we can do more to 
protect lives in the future.
    We could not be more delighted with his appointment as the Director 
of NIST, and we very much look forward to continuing to work with him. 
Hopefully, after today, he will still feel that way about us. This 
isn't perhaps the topic any of us would have chosen for his ``maiden'' 
hearing, but there is none of greater importance. And this hearing 
underscores the importance of NIST, and its need for greater funding. 
But I won't get started on that subject now; we have more than enough 
to deal with today. Mr. Gordon.

    Mr. Miller. Thank you, Mr. Chairman. I want to join 
Chairman Boehlert in welcoming everyone to this morning's 
hearing.
    On the surface, today's topic may sound dry and technical. 
However, what we are talking about here really is saving lives. 
The sole purpose of the National Construction Safety Team Act 
is to save lives by investigating and understanding building 
collapses, and then improve building codes, emergency response, 
and evacuation procedures.
    The National Institute of Standards and Technology's, 
NIST's, World Trade Center investigation and their 
recommendations are the first real result of the Act. The NIST 
report is a good first step, but really a lot remains to be 
done. We need to know what is required to translate these NIST 
recommendations into improved buildings and emergency response 
and evacuation procedures. Those changes will improve public 
safety, and otherwise, we would have nothing to show, except 
another government report sitting on a shelf. That is going to 
require continued oversight by this committee as the process 
moves forward.
    I also encourage the witnesses to give us their assessment 
of the work that NIST has done during the last two years, and 
what they think could be improved. And I want to mention that I 
am not only interested in the subject from the Science 
Committee perspective, but also how it relates to the Terrorism 
Risk Insurance Act, TRIA, which is now pending before the 
Financial Services Committee, and whether we should consider 
the NIST recommendations as part of private sector 
preparedness, and how that affects TRIA.
    Now, I would like to yield the balance of my time to a 
former Member of the Science Committee, Anthony Weiner. Mr. 
Weiner has no small interest in NIST's work on the World Trade 
Center investigation, both as a Member from New York City, but 
also, he was the co-author, along with Chairman Boehlert, of 
the National Construction Safety Team Act.
    Mr. Weiner, welcome back.
    [The prepared statement of Mr. Miller follows:]

            Prepared Statement of Representative Brad Miller

    I want to join Chairman Boehlert in welcoming everyone to this 
morning's hearing.
    On the surface, today's hearing topic may sound dry and technical. 
However, what we're really talking about is saving lives. The sole 
purpose of the National Construction Safety Team Act is to save lives 
by investigating and understanding building collapses and then improve 
building codes, emergency response and evacuation procedures.
    The National Institute of Standards and Technology's (NIST) World 
Trade Center (WTC) investigation and recommendations are the first case 
of implementation of the Act. The NIST report is a good first step, but 
much work remains to be done. We need to know what is required to 
translate the NIST recommendations into improved building codes, and 
emergency response and evacuation procedures. It is these changes that 
will improve public safety, otherwise we will have nothing more than 
another government report sitting on a shelf. This will also require 
continued oversight by the Science Committee as the process moves 
forward.
    I'm also encourage the witnesses to give us their assessment of 
what NIST has done during the past two years and what they feel could 
be improved. I also want to mention that I'm not only interested in 
this subject from a Science Committee perspective, but also how it 
relates to Terrorism Risk Insurance from my work on the Financial 
Services Committee.
    Now I would like to yield the balance of my time to a former Member 
of the Science Committee, Anthony Weiner. Rep. Weiner not only has a 
parochial interest in the NIST's WTC investigation, but he was a co-
author, with Chairman Boehlert, of the National Construction Safety 
Team Act.

    Mr. Weiner. Thank you, Mr. Miller. I appreciate it, and 
thank you, Mr. Chairman, for continuing to keep the effort 
alive that was one of the ones that emerged after September 11 
that truly drew consensus in this Congress. I want to welcome 
back, also, Sally Regenhard, who if it was the Boehlert-Weiner 
Bill, it really should have been the Boehlert-Weiner-Regenhard 
Bill, because she acknowledged and called all of our attention 
to the notion that we all agree upon now, that before September 
11 and until the passage of this legislation, there was no 
effort by government to do any kind of forensic examination of 
why buildings collapse, how we make them stronger, and how we 
make sure that they never happen again.
    That is just one of the things I think we agree upon at 
this point. We also agree, and from learning, from reading the 
report and from hearing the stories of those that were inside, 
and those that were engaged in the largest civic rescue in our 
nation's history, there were some tragic flaws in the design of 
the World Trade Center. There were also some remarkable design 
achievements that allowed the buildings to stand despite 
remarkable stress.
    But we also, after getting the report back now, I think 
there is an emerging consensus on a couple of other issues as 
well. One is that the study doesn't go far enough. The study 
doesn't include the level of specificity that would truly make 
the report a handbook for those seeking to come up with 
building codes in the future. The City of New York is involved 
in something it hasn't done in a generation, which is rewriting 
its building codes. If I were to send this report to the City 
of New York, and they wanted to go to a reference and say, 
well, how do we follow up on the NIST recommendation that we 
improve standards for fire resistance testing. Is there a 
standard in this report? And the answer is no. If they want to 
follow up on the NIST recommendation that fire protection and 
suppression redundancy be built into buildings, is there a 
specific standard that they can take from this report? The 
answer is no. So, I think that we have fallen short, NIST has 
fallen short of making this a true reference manual for future 
protection of big buildings. And for those of us in New York 
City and other big cities, and frankly, even medium sized 
cities that are building buildings of greater than twenty 
stories, it falls short.
    And I also think something else. You know, we in government 
have a certain tolerance for the slow pace of things. This took 
too long. It took too long for NIST to produce a report that 
really doesn't get us anywhere past the 50 yard line here. We 
are not in the Red Zone. We are not getting close to the place 
that we need to be. And I am prepared to introduce legislation, 
hopefully with the support of this committee and its great 
chairman, to say okay, let us take the next step. Let us take 
these general recommendations. Let us take the general forensic 
examination that was done on the World Trade Center. Let us 
take the general propositions that are suggested herein. Let us 
assume they are correct, but let us take the next step. Let us 
produce a document that truly has some fairly specific 
standards. Let us incentivize, but not require--I don't believe 
we should have a Federal Buildings Department--that 
incentivizes cities, states, and localities to adopt these 
things, and also, allows families, allow legislators when 
considering things like TRIA or building codes in Skokie, 
Illinois or Brooklyn, New York, to have a reference guide that 
they can use. Only then will the true goals of our original 
legislation have been fulfilled, and I think that that is 
something that we should point towards in the future.
    And I thank you again, Mr. Chairman, for allowing me to sit 
in. I want to thank all of the professionals at NIST. Mr. 
Jeffrey, I am sure by now you have gotten to know the Chairman. 
You and I haven't gotten to know one another. I am sure you 
have gotten to know Members of this committee. You would be 
wise to get to know Sally Regenhard very well, because whether 
you would like to or not, you are going to have a very big file 
with her name on it, and she has shown us one thing, you know, 
for those of us that have lost loved ones, there are many ways 
that people express their grief. The way Sally Regenhard and 
many of her friends and neighbors have expressed their grief is 
by making sure that there are no such disasters like this again 
in the future, and doing everything we can to prevent it. That 
is something that Chairman Boehlert and I are committed to. I 
know the professionals at NIST are committed to that. Now we 
have to go and finally get that job done.
    And I thank you, Mr. Chairman.
    Chairman Boehlert. Well, welcome back, and just let me say 
how pleased I am that you are finally getting to meet Dr. 
Jeffrey, because to know him is to like him, but more 
importantly, to know what he is all about and his mission and 
his approach to the job is to know he is determined to follow 
through, as we are.
    This is just another hearing. This is not the final chapter 
in a drama about a horrific incident. We are determined to 
follow through, as is Dr. Jeffrey and the people at NIST 
working with the National Institute of Building Sciences. This 
is, by no means, the final chapter. This is another chapter, 
but we are determined to go forward working together, and we 
welcome you back as part of the team.
    With that, let me present the first witness, and I--Dr. 
Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I appreciate you 
calling this hearing, and am very pleased to see the results 
that have been achieved. It is a little known facet of NIST 
responsibilities to do this sort of thing, and I am very 
pleased with the work they have done. And I think is providing 
a very strong base on which to build for the future.
    I want to thank all our witnesses for coming here today. In 
particular, I want to congratulate Dr. Jeffrey, the new NIST 
Director, on his first appearance before this committee, and on 
NIST's latest Nobel Prize for Physics, announced this month to 
Dr. Jan Hall, a former colleague from my days as a researcher 
at NIST's Joint Institute for Laboratory Astrophysics, better 
known as JILA at the University of Colorado. And I have known 
Dr. Hall for years, and he is certainly deserving of this 
honor. This increases Nobel Prizes to three, demonstrating that 
NIST continues to be a world leader in research and theoretical 
work. I might also add that now that a physicist is heading the 
organization, I expect the output of Nobel Prizes will 
increase, and so, I will leave that to you as a challenge. I 
also wanted to congratulate Mr. Henry Green, a resident of my 
home State of Michigan, on his prestigious new position as 
President of the International Code Council, and I have had the 
pleasure of meeting with Mr. Green, and I am very impressed 
with him and his ability. I look forward to great things from 
him and his work on that Council.
    The National Construction Safety Team Act, which originated 
in this committee, gave NIST specific authorities necessary to 
complete the monumental task of understanding the collapse of 
the World Trade Center towers. Today's hearing will give the 
Science Committee the chance to learn about NIST's findings and 
recommendations, and obtain comments from the witnesses about 
these recommendations and the process by which they will be 
implemented.
    The publication of the NIST report may signal the end of 
the investigation itself, but it launches a new phase in that 
process which I hope will result in safer buildings. NIST's 
recommendations indicate that there are opportunities to make 
buildings safer and more resilient to fires and other 
incidents, to improve evacuation routes and procedures, and to 
improve emergency response. However, the task of amending the 
building codes is in the hands of the private sector and the 
State and local officials. NIST's role now becomes technical 
advisor to the code development process. Congress needs to 
understand this process, and must support the research and 
testing required if any of NIST's recommendations are to become 
common practice. Congress also needs to understand what 
challenges may exist in implementing NIST's recommendations. 
Finally, I hope we hear from NIST about how it plans to use the 
National Construction Safety Team Act in the future, because I 
am certain we will have other occasions that this has to be 
called into action.
    I want to thank NIST for the good work that you have done. 
Keep this up as we continue to work together to make buildings 
safer, both during and after disasters. I will have to 
apologize, because I will be in and out of this committee 
meeting, mostly out, because I have two other committee 
meetings simultaneously, and we are marking up bills, so my 
presence is required for votes. And I apologize to the Members 
testifying, the witnesses testifying, and also to the Chairman, 
but I will be here as much as I can.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Thank you, Chairman Boehlert.
    I want to thank all our witnesses for coming here today. In 
particular, I want to congratulate Dr. William Jeffrey, the new NIST 
Director, on his first appearance before this Committee, and on NIST's 
latest Nobel Prize for Physics, announced this month to Dr. Jan Hall, a 
former colleague from my days as a researcher at NIST's Joint Institute 
for Laboratory Astrophysics (JILA) at the University of Colorado. This 
increases NIST's Nobel Prizes to three, demonstrating that NIST 
continues to be a world leader in research and theoretical work. I also 
want to congratulate Mr. Henry Green, a resident of my home State of 
Michigan, on his prestigious new position as President of the 
International Code Council (ICC).
    The National Construction Safety Team Act (NCST), which originated 
in this committee, gave NIST specific authorities necessary to complete 
the monumental task of understanding the collapse of the World Trade 
Center Towers. Today's hearing will give the Science Committee the 
chance to learn about NIST's findings and recommendations, and obtain 
comments from the witnesses about these recommendations and the process 
by which they will be implemented.
    The publication of the NIST report may signal the end of the 
investigation itself, but it launches a new phase in a process that I 
hope will result in safer buildings. NIST's recommendations indicate 
that there are opportunities to make buildings safer and more resilient 
to fires and other incidents, to improve evacuation routes and 
procedures, and to improve emergency response. However, the task of 
amending the building codes is in the hands of the private sector and 
state and local officials. NIST's role now becomes technical advisor to 
the code development process. Congress needs to understand this 
process, and must support the research and testing required if any of 
NIST's recommendations are to become common practice. Congress also 
needs to understand what challenges may exist in implementing NIST's 
recommendations. Finally, I hope we hear from NIST about how it plans 
to use the National Construction Safety Team Act in the future.
    Thank you to NIST for the good work you've done. Keep this up as we 
continue to work together to make buildings safer both during and after 
disasters.

    Chairman Boehlert. Well, now that you are making some 
admissions, in the interest of full disclosure, while we are 
all very proud of that Nobel Prize in physics for NIST, in the 
interest of full disclosure, Dr. Ehlers is a physicist, and so, 
he is particularly proud.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss the findings and recommendations of the 
National Institute of Standard and Technology's (NIST) investigation 
into the collapse of the World Trade Center (WTC).
    This committee has held two hearings in 2002 on the WTC collapse 
that focused on how the Federal Government investigates catastrophic 
building failures and the lessons learned from the collapse. Concerns 
raised at the hearing included the lack of any specific federal 
authority, protocols, or funding for investigations of any kind. As we 
have learned from the catastrophic damages of Hurricane Katrina, 
coordination among federal agencies is critical for gauging our 
preparedness and responding to national disasters. In order to address 
these concerns, it is my understanding that NIST issued a draft report 
for public comment that summarizes the findings of the investigation 
and includes thirty recommendations to improve the safety of tall 
buildings, occupants, and emergency responders. However, for NIST's 
plans to be effective, they must be implemented by standards organized 
and adopted by State and local authorities that set building codes and 
standards. I want to know how NIST intends to implement its research 
and recommendations for improved building codes, emergency response and 
evacuation procedures.
    I welcome our witnesses and look forward to their testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman and Ranking Member.
    The events of September 11, 2001, changed our lives forever. That 
day changed how we Americans prepare ourselves against terrorism.
    Building codes and safety regulations play a critical role during a 
disaster--natural or otherwise. Smart construction can mean the 
difference between life and death.
    During an attack, the weight of collapsing building materials and 
heat of fire challenge even the best building designs.
    The National Institute of Standards and Technology has come today 
to report on its findings and recommendations following its 
investigation into the collapse of the World Trade Center.
    I hope today's discussion will underscore this key report and help 
the Committee understand how building and fire code organizations plan 
to implement the recommendations contained in that report.
    I would like to extend a warm welcome to our witnesses today. Thank 
you, Mr. Chairman.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman and Mr. Ranking Member, thank you for hosting this 
important hearing.
    I am eager to learn more about the National Institute of Standards 
and Technology report recommendations. The World Trade Center collapse 
was a horrific episode for our nation and this report is another 
appropriate measure that revisits the events and permits us to learn 
from the tragedy.
    Building safety and emergency evacuation are issues that go well 
beyond the subject of terrorism. This terrible hurricane season is 
demonstrating all too well the effect natural disasters have on man-
made structures and our communities.
    I represent a congressional district in St. Louis City that runs 
south along the Mississippi river. Our region is near the New Madrid 
earthquake center, which struck the area from 1811 to 1812. These 
sequences are the most powerful earthquakes ever to have been felt on 
the North American continent. The New Madrid Fault System remains a 
threat to our region, and thus, I am eager to learn more about the 
steps our community needs to take to better prepare our structures for 
a possible earthquake.
    To the multiple witnesses that appear before us today, thank you 
for your time and your efforts. I look forward to hearing your 
testimony.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

    In looking at what are the next steps in terms of building codes 
and building structures and integrity, we must unfortunately review 
what took place on that dreadful day know as September 11th. Like most 
building collapses, these events were the result of a combination of 
factors. While the buildings were able to withstand the initial impact 
of the aircraft, the resulting fires that spread through the towers 
weakened support columns and floors that had fireproofing dislodged by 
the impacts. This eventually led to collapse as the perimeter columns 
were pulled inward by the sagging floors and buckled. According to 
reports, each aircraft severed perimeter columns, damaged interior core 
columns and knocked off fireproofing from steel as the planes 
penetrated the buildings. The weight carried by the severed columns was 
distributed to other columns. Subsequently, fires began that were 
initiated by the aircraft's jet fuel but were fed for the most part by 
the building contents and the air supply resulting from breached walls 
and fire-induced window breakage. These fires, in combination with the 
dislodged fireproofing, were responsible for a chain of events in which 
the building core weakened and began losing its ability to carry loads. 
The floors weakened and sagged from the fires, pulling inward on the 
perimeter columns. Floor sagging and exposure to high temperatures 
caused the perimeter columns to bow inward and buckle--a process that 
spread across the faces of the buildings which as a result caused the 
entire structure to collapse.
    As a Member of the Committee on Homeland Security, I am very 
interested in hearing the testimony of our witnesses today. While there 
have been many theories, no one really knows when, where and if another 
terrorist attack will take place. It is due to this uncertainty that we 
must do our best to be prepared in all possible aspects of homeland 
security. It is my understanding that the September 20, 2005 report 
released by NIST includes a detailed technical analysis of the root 
causes of the building failures as well recommendations to improve the 
safety of tall buildings, occupants and emergency responders. I believe 
these recommendations fall into eight categories of thirty 
recommendations. Loosely categorized these are: 1) increased structural 
integrity, 2) enhanced fire resistance of structures, 3) new methods 
for fire resistance design, 4) improved active fire protection, 5) 
improved building evacuation procedures, 6) improved emergency 
response, 7) improved procedures and practices in the design, 
construction and operation of buildings; and 8) upgrading the 
education/training of building and fire safety professionals. In 
closing, I look forward to the statements and recommendations of our 
witnesses as they lay out a road map as to how to protect our nation's 
structures.

    [The prepared statement of Mr. Moore follows:]

           Prepared Statement of Representative Dennis Moore

    More than four years after the devastating terrorist attacks of 
September 11, 2001, we still remember too well the horrible images of 
that morning: the citizens of New York and Washington D.C. running in 
fear and confusion from the site of the attacks, firemen and other 
safety personnel bravely ushering men and women out of harms way, and 
the skeletal remains of the Twin Towers silhouetted against the bright 
September sky.
    Within hours of the attacks themselves, the Twin Towers collapsed, 
killing thousands of individuals trapped inside.
    While there were many factors that contributed to the catastrophic 
loss of human life our country suffered on 9/11, an issue that demands 
careful scrutiny by this committee is the circumstances that 
contributed to the collapse of the Towers themselves.
    As co-chair of the Congressional Hazards Caucus, ensuring that our 
buildings are properly designed and constructed to handle destructive 
forces, whether they are terrorist attacks, hurricanes, or tornadoes is 
of utmost importance to me.
    I appreciate the willingness of the panel to share their opinions 
with the Members of the Science Committee on the findings of the 
National Institute of Standard and Technology's (NIST) report on the 
collapse of the World Trace Center and look forward to working with you 
in the future to ensure the continued safety and security of not only 
our buildings, but of the American people.

    Chairman Boehlert. Now, with that, and no further opening 
statements, let me present, welcome back to the Committee, Ms. 
Sally Regenhard, Chairperson of the Skyscraper Safety 
Committee. Ms. Regenhard, the floor is yours, and she will have 
a very interesting statement, and so much of the commentary in 
her statement will lead us to provide questions to the panel 
that will follow.
    So, Ms. Regenhard, the floor is yours.

                                Panel I:

 STATEMENT OF SALLY REGENHARD, CHAIRPERSON, SKYSCRAPER SAFETY 
                            CAMPAIGN

    Ms. Regenhard. Okay. Thank you. Good morning, Chairman 
Boehlert and Members of the House Science Committee. It is 
truly an honor and a privilege to address you today.
    I must first begin by thanking Chairman Sherwood Boehlert 
and this committee for listening with compassion and concern to 
the families of the victims of 9/11. When we first came here in 
March and May of 2002, we were desperately seeking leadership 
for an investigation of what happened to our loved ones on 9/
11. We had sought this on the local level in New York City, but 
found no one to help us answer the painful questions regarding 
what happened to our loved ones in the World Trade Center on 
that dreaded day of infamy.
    Chairman Boehlert and the Science Committee, you have 
redeemed our belief in the system, and renewed our faith in the 
process of representative government in our beloved country, 
and for this, we profoundly thank you. The families of the 
victims as well as the American public remain in your debt for 
your efforts in authorizing a WTC investigation through the 
National Construction Safety Team Act.
    I must also begin by thanking NIST for interacting with us 
on a regular basis over the past three years, via conference 
calls and meetings, with myself and my SSC co-chair, Monica 
Gabrielle, who is out of the country and cannot be here today. 
I know that it has not always been easy to deal with me and 
with other victims' families, but I appreciate the tolerance 
and respect shown to us by NIST. I also appreciate the vast 
technical research abilities of this organization and the 
enormous task of embarking upon the WTC investigation.
    In totality, however, while some very valuable results were 
achieved, the overall mode and findings of the investigation 
was not what I had hoped for. I had certain hopes regarding 
NIST in the investigation, but I and others were somewhat 
disillusioned regarding what NIST was willing and able to do. I 
had hoped for more specific and comprehensive recommendations 
that could easily be translated into code reform and change, 
but this was not the case. The recommendations, I feel, are 
very general and lack specifics. I feel that the vagueness of 
the language was influenced by a need for political correctness 
and a general reluctance or an inability to investigate, use 
subpoena power, lay blame, or even point out the deadly 
mistakes of 9/11 in the World Trade Center.
    The following are five areas of concern of the Skyscraper 
Safety Campaign, and these concerns have been compiled by input 
from my professional advisors, as well as my own experience 
during the last four years.
    The first area of concern is the role of the Port Authority 
of New York and New Jersey and its exemptions from immunities 
and codes. The failure of the NIST investigation to 
comprehensively examine what role these immunities played in 
the design, construction, maintenance, and ultimate collapse of 
the World Trade Center, is of great concern to me.
    Secondly, the lack of more intense emphasis on the 
fireproofing issues, the premature disposal of the steel 
evidence, the heavy reliance on computer modeling for the fire 
testing, and the reluctance to focus on cause, blame, and 
resultant implications are troubling to us.
    Number three, the reliance on the voluntary cooperation of 
key figures in the investigation to provide needed information, 
putting the WTC chief structural engineer on the payroll to 
facilitate his involvement in the investigation, utilizing 
researchers to the exclusion of true investigators going into 
the field to obtain evidence is also problematic to me. On this 
last point, I want to note that I have been married to an NYPD 
detective sergeant for over 30 years, and I can recognize an 
investigation when I see one. I feel the inherent character of 
the NIST as a research rather than an investigative agency was 
a factor in this situation.
    Number four, the lack of focus on evacuation issues of the 
World Trade Center, such as the remoteness of the exits, the 
behavior of fleeing persons in the stairwells, and the 
avoidance of first person accounts of stairwell evacuation, and 
the length of time it took to evacuate the building was a 
shortcoming.
    Finally, the relative secrecy of the investigation and the 
withholding of all materials and documents used by NIST to 
arrive at the study's conclusions is very disturbing. These 
materials should be made available to professionals to further 
study and to analyze, and to question and verify the findings 
according to the scientific method. And they should not be 
locked away in the National Archives or anywhere else. I 
certainly hope that I could call on the Science Committee to 
help unlock this information for the American public in the 
future.
    In conclusion, for these and for other reasons, I feel that 
government must take a larger role in developing stronger codes 
and standards for building and public safety, by being a true 
resource to the code industry. Government representatives 
should be part of code writing groups, to provide advice and 
guidance, and to help develop standards and practices. As it 
stands now, it is largely a battle of the do-gooders, like me 
and the Skyscraper Safety Advisors, versus the business 
interests, in a never-ending conflict regarding public safety. 
The NIST investigation should not be an end. It should be just 
the beginning of a new era, in which we see the real and 
meaningful role that government must play in the safety and 
wellbeing of the American people. In addition to the laudable 
creation of the National Construction Safety Team Act, this 
participation can be an additional legacy for the innocent 
victims of 9/11, including my beautiful son, Probationary 
Firefighter Christian Michael Otto Regenhard, whose godmother 
is holding his picture here today. He continues to be the 
inspiration for the work and the accomplishments of the 
Skyscraper Safety Campaign.
    I thank you all for this opportunity to speak to you today. 
God bless you all in your work.
    [The prepared statement of Ms. Regenhard follows:]

                 Prepared Statement of Sally Regenhard

    Good morning Chairman Boehlert and Members of the House Science 
Committee. It is truly an honor and a privilege to address you today. I 
must first begin by thanking Chairman Sherwood Boehlert and this 
committee, for listening with compassion and concern to the families of 
the victims of 9/11. When we first came here in March and May of 2002, 
we were desperately seeking leadership for an investigation of what 
happened to our loved ones on 9/11/01. We had sought this on the local 
level in NYC, but found no one to help us answer the painful questions 
regarding what happened to our loved ones in the WTC on that dreaded 
day of infamy.
    Chairman Boehlert and the Science Committee redeemed our belief in 
the system, and renewed our faith in the process of representative 
government in our beloved country, and for this, we profoundly thank 
you. The families of the victims, as well as the American public, 
remain in your debt for your efforts in authorizing a WTC Investigation 
through the National Construction Safety Team Act.
    I must begin by thanking NIST for interacting with us on a regular 
basis over the past three years, via conference calls and meetings, 
with myself and my SSC co-chair, Monica Gabrielle, who is out of the 
country, and cannot be here today. I know it has not always been easy 
to deal with me and other victims' families, but I appreciate the 
tolerance and respect showed by NIST. I also appreciate the vast 
technical research abilities of this organization, and the enormous 
task of embarking upon the WTC Investigation.
    In totality however, while some very valuable results were 
achieved, the overall mode and findings of the investigation was not 
what I had hoped for. I had certain hopes regarding NIST and the 
investigation, but I and others were disillusioned regarding what NIST 
was willing and able to do. I had hoped for more specific and 
comprehensive recommendations that could easily be translated into code 
reform and change, but this is not the case. The recommendations are 
very general and lack specifics. I feel that the vagueness of the 
language was influenced by political correctness and a general 
reluctance or inability to ``investigate,'' use subpoena power, ``lay 
blame,'' or even point out the deadly mistakes of 9/11 in the WTC.
    The following are five areas of concern for the Skyscraper Safety 
Campaign: (While I have an understanding of these issues in concept, 
for answers to specific, technical questions, I would like to confer 
with two of my technical advisors who are with me here today.)

        1)  The role of the Port Authority of NYNJ and its' exemptions 
        from immunities and codes. The failure of the NIST 
        Investigation to comprehensively examine what role these 
        immunities had in the design, construction, maintenance and 
        ultimate collapse of the WTC is of great concern to me.

        2)  The lack of more intense emphasis on fireproofing issues, 
        premature disposal of steel evidence, the heavy reliance on 
        computer modeling for fire testing, and the reluctance to focus 
        on cause, blame, and resultant implications are troubling.

        3)  The reliance on the voluntary cooperation of key figures in 
        the investigation to provide needed information; placing the 
        former WTC chief structural engineer on the payroll to 
        facilitate his involvement in the investigation, utilizing 
        researchers to the exclusion of true investigators going into 
        the field to obtain evidence is problematic to me. On this last 
        point, I have been married to a NYPD detective sergeant for 
        over 30 years, and I can recognize an Investigation when I see 
        one. I feel the inherent character of NIST as a research rather 
        than investigative agency was a factor in this situation.

        4)  The lack of focus on evacuation issues of the WTC such as 
        remoteness of exits, behavior of fleeing persons in the 
        stairwells, and the avoidance of first person accounts of 
        stairwell evacuation, and length of time it took to evacuate 
        the building was a shortcoming.

        5)  The relative secrecy of the investigation, and the 
        withholding of all materials and documents used by NIST to 
        arrive at the study's conclusions is very disturbing. These 
        materials should be made available to professionals for further 
        study and analysis, to question and/or duplicate the findings, 
        according to the scientific method, and should not be locked 
        away in the National Archives or anywhere else. I hope I can 
        call on the Science Committee to unlock this information for 
        the American public.

    In conclusion, for these and other reasons, I feel that government 
must take a larger role in developing stronger codes and standards for 
building and public safety. Government representatives should be part 
of code writing groups, and help to develop standards and practices. As 
is stands now, it is a battle of the ``do-gooders'' like me and the 
Skyscraper Safety Advisors vs. business interests, in a never ending 
conflict regarding public safety. The NIST investigation should not be 
an end; it should be just the beginning of a new era in which we see 
the real and meaningful role that government must play in the safety 
and well being of the American people. In addition to the laudable 
creation of the National Construction Safety Team Act, this 
participation can be an additional legacy for the innocent victims of 
9/11, including my beautiful son, Probationary Firefighter Christian 
Michael Otto Regenhard, who continues to be the inspiration for the 
work and accomplishments of the Skyscraper Safety Campaign. Thank you 
for this opportunity to speak today. God bless you all.

    Chairman Boehlert. Thank you very much, and you continue to 
be an inspiration to this committee.
    Let me point out that now, the witnesses that will follow. 
I hope you are going to be able to remain to listen to their 
testimony, and to listen to the questioning. I think you are 
absolutely correct in pointing out that I think it is a shared 
interest in being more specific, rather than vague, in the 
report, but NIST, I think, has done an outstanding job, and 
NIST correctly, as you identified in your testimony, is not an 
investigative agency. It is a research agency. I have found 
NIST to be most cooperative, but we are going to hold their 
feet to the fire, and we are going to make certain they follow 
through in their recommendations.
    So, I think, hopefully, some measure of comfort will come 
to you from the statement of Dr. Jeffrey and his expressed 
determination to follow through on this. And I think you will 
be interested in what some of other witnesses have to say. 
These are people with whom you are familiar. And finally, I 
just hope it is not the do-gooders versus the business 
interests. I think we have got to have a partnership here. It 
is good business to make buildings safer, and that does good in 
the process. So, we will all work together. Thank you very 
much.
    Ms. Regenhard. Thank you very much.
    Chairman Boehlert. The second panel today consists of Dr. 
William Jeffrey, Director of the National Institute of 
Standards and Technology; Ms. Nancy McNabb, Director of 
Government Affairs, National Fire Protection Association; Dr. 
James R. Harris, President, J.R. Harris and Company, Member, 
American Society of Civil Engineers; and Mr. Glenn Corbett, 
Assistant Professor of Fire Science, John Jay College of 
Criminal Justice, Member of NIST National Construction Safety 
Team Advisory Board; and for the purpose of an introduction of 
our final witness, I call on our distinguished colleague, Mr. 
Schwarz of Michigan.
    Mr. Schwarz. Thank you, Mr. Chairman. It is not frequently 
that I have the opportunity to introduce a constituent to his 
testifying before this committee, but in this case, Mr. Henry 
L. Green not only serves as President of the Board of Directors 
for the International Code Council, but as an expert in his 
field, and as a constituent of mine from Delta Township, which 
is just outside of Lansing, Michigan. In 1989, Mr. Green was 
appointed Executive Director of the Bureau of Construction 
Codes and Fire Safety for the Michigan Department of Labor and 
Economic Growth. Henry, they keep changing the names of the 
departments. That was what it was when I was in the State 
senate. He has worked in the Bureau for more than 20 years, 
serving as Building Inspector, Chief of the Barrier Free Design 
Division, Chief Building Inspector, and as Deputy Director 
before assuming his current role. He also serves on the 
Building Officials Code Administration, BOCA, Board of 
Directors, serving as President in 1997.
    Mr. Chairman, Mr. Green is eminently qualified to testify 
before this committee, and I am equally delighted that he is 
here and a constituent of mine from mid-Michigan, from the 7th 
District. Actually, he is from Spartan Country, not Wolverine 
Country, but we will forgive him for that.
    Chairman Boehlert. Mr. Green would join us at the table, 
and thank you very much for that eloquent introduction. I have 
had the pleasure of meeting Mr. Green, and I want to welcome 
you here. I want to welcome all of you here, and I want to 
thank you for being resources for this committee. I 
particularly want to welcome Dr. Jeffrey in his maiden public 
appearance before the Science Committee, in his present 
capacity.
    Dr. Jeffrey, the floor is yours. And I would say to all our 
witnesses, we would ask that you try to summarize your opening 
statement in five minutes or so. We are not going to be all 
that arbitrary, but that will allow more time for questions and 
interaction between the panel and the Members. Dr. Jeffrey, the 
floor is yours.

                               Panel II:

STATEMENT OF DR. WILLIAM JEFFREY, DIRECTOR, NATIONAL INSTITUTE 
                  OF STANDARDS AND TECHNOLOGY

    Dr. Jeffrey. Thank you, Mr. Chairman, and also thank you 
for your warm welcome remarks.
    Mr. Chairman and Members of the Committee, I am pleased to 
testify on the NIST investigation of the World Trade Center 
disaster. With your permission, I have a written statement for 
the record, along with our final report.
    Chairman Boehlert. Without objection, so ordered. All the 
statements in their entirety will be part of the official 
record.
    Dr. Jeffrey. And I will now summarize our work to date and 
our plans for the future. We announced this investigation 
saying it would be thorough, open, and result in meaningful 
recommendations.
    It was thorough. NIST was able to acquire and test enough 
steel from the buildings to have confidence in our findings. We 
acquired more than 7,000 photos and 150 hours of videotape. We 
interviewed nearly 1,200 survivors and first responders, and we 
gained access to key information about the building's design 
and construction.
    It was also open. We sought public comment on our plans 
even before we began the investigation. We held numerous 
briefings for the public, published reports on our progress, 
and solicited comments. We sought input from an advisory 
committee of outside experts. We established a special liaison 
with the families of victims, and communicated regularly with 
the relevant organizations in New York City. This was no 
academic exercise. We were charged with developing meaningful 
recommendations, and we have done that. Using the 
recommendations from this investigation to make improvements in 
the way people design, maintain, and use buildings has just 
begun. NIST is working vigorously with the relevant communities 
to turn the recommendations into action.
    The direct link between the terrorist-initiated airplane 
attacks, the ensuing fires, and the collapse of the towers was 
established through extensive testing, analyses, and computer 
modeling. Here, you see a model of the aircraft as it enters 
Tower 1, and the damage that was inflicted as debris and jet 
fuel spread over multiple floors. These models helped us to 
estimate the internal damage to the structure and fireproofing 
that was not visible in photos and videos taken from the 
outside.
    The egress capacity required by the current building codes 
is based on evacuating a single floor, not an entire building. 
Fortunately, the towers were only one third to one half of full 
capacity that morning, allowing 87 percent of the occupants to 
evacuate. Had the buildings been full, with about 20,000 
occupants each, roughly 14,000 people may have lost their 
lives. Radio communications were a problem due to three 
factors: first, the challenging radio frequency environment 
posed by buildings; second, the scale of operations that 
overwhelmed the available frequencies and exceeded the limits 
of the communication protocols; and third, the difficulty of 
transmissions between different organizations.
    The recommendations we have made call for specific actions. 
We made our recommendations as specific as we could, 
identifying the parties that need to help take the next steps. 
The recommendations do not prescribe specific systems, 
materials, or technologies. Instead, NIST encourages 
competition among alternatives that can meet performance 
requirements. Within these recommendations, NIST has identified 
37 specific national model codes, standards, practice 
guidelines, or regulations that merit consideration through an 
open and consensus-driven process.
    NIST's response plan consists of three parts. First, the 
building and fire safety investigation. And today, we are 
releasing the final version of 43 reports documenting this 
investigation, and plan to release draft reports in the spring 
documenting our investigation of WTC 7. Second, our research 
and development program, and third, a dissemination and 
technical assistance program to facilitate adoption of the 
proposed changes.
    As part of this effort, NIST is aggressively working with 
the model building code organizations and others representing 
State and local officials to facilitate this process. Among 
other things, NIST has held a major conference to focus 
attention on getting action on these recommendations. We have 
contracted with the National Institute of Building Sciences to 
turn the appropriate recommendations into draft code language 
for submission to the national model code developers, and we 
have assigned a staff member responsibility for following up on 
each and every recommendation.
    Past NIST investigations have resulted in substantive 
improvements in building safety. For example, improvements to 
manufactured homes were made following our work on Hurricanes 
Andrew and Camille. Improvements in construction safety and 
inspection resulted from NIST's investigation of an apartment 
building under construction in Connecticut. There are many more 
examples of NIST's investigations resulting in improvements to 
building safety, and we will do everything possible to add the 
WTC investigation to this list.
    Thank you for your support and this opportunity to update 
the Committee.
    [The prepared statement of Dr. Jeffrey follows:]

                 Prepared Statement of William Jeffrey

    Mr. Chairman, and Members of the Committee, I am William Jeffrey, 
Director of the National Institute of Standards and Technology. I am 
pleased to appear today and testify on the building and fire safety 
investigation of the World Trade Center disaster carried out by the 
National Institute of Standards and Technology (NIST).
    NIST announced its building and fire safety investigation of the 
World Trade Center (WTC) disaster on August 21, 2002.\1\ This WTC 
Investigation was then conducted under the authority of the National 
Construction Safety Team (NCST) Act, which was signed into law on 
October 1, 2002.
---------------------------------------------------------------------------
    \1\ NIST is a nonregulatory agency of the U.S. Department of 
Commerce. The purposes of NIST investigations are to improve the safety 
and structural integrity of buildings in the United States and the 
focus is on fact finding. NIST investigative teams are required to 
assess building performance and emergency response and evacuation 
procedures in the wake of any building failure that has resulted in 
substantial loss of life or that posed significant potential of 
substantial loss of life. NIST does not have the statutory authority to 
make findings of fault or negligence by individuals or organizations. 
Further, no part of any report resulting from a NIST investigation into 
a building failure or from an investigation under the National 
Construction Safety Team Act may be used in any suit or action for 
damages arising out of any matter mentioned in such report (15 USC 
281a, as amended by P.L. 107-231).
---------------------------------------------------------------------------
    The goals of the investigation of the WTC disaster were:

        <bullet>  To investigate the building construction, the 
        materials used, and the technical conditions that contributed 
        to the outcome of the WTC disaster after terrorists flew large 
        jet-fuel laden commercial airliners into the WTC towers.

        <bullet>  To serve as the basis for:

                --  Improvements in the way buildings are designed, 
                constructed, maintained, and used;

                --  Improved tools and guidance for industry and safety 
                officials;

                --  Recommended revisions to current codes, standards, 
                and practices; and

                --  Improved public safety.

    The specific objectives were:

        1.  Determine why and how WTC 1 and WTC 2 collapsed following 
        the initial impacts of the aircraft and why and how WTC 7 
        collapsed;

        2.  Determine why the injuries and fatalities were so high or 
        low depending on location, including all technical aspects of 
        fire protection, occupant behavior, evacuation, and emergency 
        response;

        3.  Determine what procedures and practices were used in the 
        design, construction, operation, and maintenance of WTC 1, 2, 
        and 7.

        4.  Identify, as specifically as possible, areas in current 
        building and fire codes, standards, and practices that warrant 
        revision.

APPROACH

    To meet these goals, NIST complemented its in-house expertise with 
an array of specialists in key technical areas. In all, over 200 staff 
contributed to the investigation. NIST and its contractors compiled and 
reviewed tens of thousand of pages of documents; conducted interviews 
with over a thousand people who had been on the scene or who had been 
involved with the design, construction, and maintenance of the WTC; 
analyzed 236 pieces of steel that were obtained from the wreckage; 
performed laboratory tests that measured material properties, and 
performed computer simulations of the sequence of events that happened 
from the instant of aircraft impact to the initiation of collapse for 
each tower.
    Cooperation in obtaining the resource materials and in interpreting 
the results came from a large number of individuals and organizations, 
including The Port Authority of New York and New Jersey and its 
contractors and consultants, Silverstein Properties and its contractors 
and consultants, the City of New York and its departments, the 
manufacturers and fabricators of the building components, the companies 
that insured the WTC towers, the building tenants, the aircraft 
manufacturers, the airlines, and the media.
    The scarcity of physical evidence that is typically available in 
place for reconstruction of a disaster led to the following approach:

        <bullet>  Accumulation of copious photographic and video 
        material. With the assistance of the media, public agencies and 
        individual photographers, NIST acquired and organized nearly 
        7,000 segments of video footage, totaling in excess of 150 
        hours and nearly 7,000 photographs representing at least 185 
        photographers. This guided the Investigation Team's efforts to 
        determine the condition of the buildings following the aircraft 
        impact, the evolution of the fires, and the subsequent 
        deterioration of the structure.

        <bullet>  Establishment of the baseline performance of the WTC 
        towers, i.e., estimating the expected performance of the towers 
        under normal design loads and conditions. The baseline 
        performance analysis also helped to estimate the ability of the 
        towers to withstand the unexpected events of September 11, 
        2001. Establishing the baseline performance of the towers began 
        with the compilation and analysis of the procedures and 
        practices used in the design, construction, operation, and 
        maintenance of the structural, fire protection, and egress 
        systems of the WTC towers. The additional components of the 
        performance analysis were the standard fire resistance of the 
        WTC truss-framed floor system, the quality and properties of 
        the structural steels used in the towers, and the response of 
        the WTC towers to the design gravity and wind loads.

        <bullet>  Conduct simulations of the behavior of each tower on 
        September 11, 2001, in four steps:

                1.  The aircraft impact into the tower, the resulting 
                distribution of aviation fuel, and the damage to the 
                structure, partitions, thermal insulation materials, 
                and building contents.

                2.  The evolution of multi-floor fires.

                3.  The heating and consequent weakening of the 
                structural elements by the fires.

                4.  The response of the damaged and heated building 
                structure, and the progression of structural component 
                failures leading to the initiation of the collapse of 
                the towers.

    For such complex structures and complex thermal and structural 
processes, each of these steps stretched the state of the technology 
and tested the limits of software tools and computer hardware. For 
example, the investigators advanced the state-of-the-art in the 
measurement of construction material properties and in structural 
finite element modeling. New modeling capability was developed for the 
mapping of fire-generated environmental temperatures onto the building 
structural components.
    The output of the four-step simulations was subject to 
uncertainties in the as-built condition of the towers, the interior 
layout and furnishings, the aircraft impact, the internal damage to the 
towers (especially the thermal insulation for fire protection of the 
structural steel, which is colloquially referred to as fireproofing), 
the redistribution of the combustibles, and the response of the 
building structural components to the heat from the fires. To increase 
confidence in the simulation results, NIST used the visual evidence, 
eyewitness accounts from inside and outside the buildings, laboratory 
tests involving large fires and the heating of structural components, 
and formal statistical methods to identify influential parameters and 
quantify the variability in analysis results.

        <bullet>  Combination of the knowledge gained into probable 
        collapse sequences for each tower,\2\ the identification of 
        factors that contributed to the collapse, and a list of factors 
        that could have improved building performance or otherwise 
        mitigated the loss of life.
---------------------------------------------------------------------------
    \2\ The focus of the Investigation was on the sequence of events 
from the instant of aircraft impact to the initiation of collapse for 
each tower. For brevity, this sequence is referred to as the ``probable 
collapse sequence,'' although it includes little analysis of the 
structural behavior of the tower after the conditions for collapse 
initiation were reached and collapse became inevitable.

        <bullet>  Compilation of a list of findings that respond to the 
        first three objectives and a list of recommendations that 
---------------------------------------------------------------------------
        responds to the fourth objective.

SUMMARY OF FINDINGS

Objective 1: Determine why and how WTC 1 and WTC 2 collapsed following 
the initial impacts of the aircraft.

        <bullet>  The two aircraft hit the towers at high speed and did 
        considerable damage to principal structural components (core 
        columns, floors, and perimeter columns) that were directly 
        impacted by the aircraft or associated debris. However, the 
        towers withstood the impacts and would have remained standing 
        were it not for the dislodged insulation (fireproofing) and the 
        subsequent multi-floor fires. The robustness of the perimeter 
        frame-tube system and the large size of the buildings helped 
        the towers withstand the impact. The structural system 
        redistributed loads from places of aircraft impact, avoiding 
        larger scale damage upon impact. The hat truss, a feature atop 
        each tower which was intended to support a television antenna, 
        prevented earlier collapse of the building core. In each tower, 
        a different combination of impact damage and heat-weakened 
        structural components contributed to the abrupt structural 
        collapse.

        <bullet>  In WTC 1, the fires weakened the core columns and 
        caused the floors on the south side of the building to sag. The 
        floors pulled the heated south perimeter columns inward, 
        reducing their capacity to support the building above. Their 
        neighboring columns quickly became overloaded as columns on the 
        south wall buckled. The top section of the building tilted to 
        the south and began its descent. The time from aircraft impact 
        to collapse initiation was largely determined by how long it 
        took for the fires to weaken the building core and to reach the 
        south side of the building and weaken the perimeter columns and 
        floors.

        <bullet>  In WTC 2, the core was damaged severely at the 
        southeast corner and was restrained by the east and south walls 
        via the hat truss and the floors. The steady burning fires on 
        the east side of the building caused the floors on that side to 
        sag. The floors pulled the heated east perimeter columns 
        inward, reducing their capacity to support the building above. 
        Their neighboring columns quickly became overloaded as columns 
        on the east wall buckled. The top section of the building 
        tilted to the east and to the south and began its descent. The 
        time from aircraft impact to collapse initiation was largely 
        determined by the time needed for the fires to weaken the 
        perimeter columns and floor assemblies on the east and the 
        south sides of the building. WTC 2 collapsed more quickly than 
        WTC 1 because there was more aircraft damage to the building 
        core, including one of the heavily loaded corner columns, and 
        there were early and persistent fires on the east side of the 
        building, where the aircraft had extensively dislodged 
        insulation from the structural steel.

        <bullet>  The WTC towers likely would not have collapsed under 
        the combined effects of aircraft impact damage and the 
        extensive, multi-floor fires that were encountered on September 
        11, 2001 if the thermal insulation had not been widely 
        dislodged or had been only minimally dislodged by aircraft 
        impact.

        <bullet>  NIST found no corroborating evidence for alternative 
        hypotheses suggesting that the WTC towers were brought down by 
        controlled demolition using explosives planted prior to 
        September 11, 2001. NIST also did not find any evidence that 
        missiles were fired at or hit the towers. Instead, photographs 
        and videos from several angles clearly showed that the collapse 
        initiated at the fire and impact floors and that the collapse 
        progressed from the initiating floors downward, until the dust 
        clouds obscured the view.

Objective 2: Determine why the injuries and fatalities were so high or 
low depending on location, including all technical aspects of fire 
protection, occupant behavior, evacuation, and emergency response.

        <bullet>  Approximately 87 percent of the estimated 17,400 
        occupants of the towers, and 99 percent of those located below 
        the impact floors, evacuated successfully. In WTC 1, where the 
        aircraft destroyed all escape routes, 1,355 people were trapped 
        in the upper floors when the building collapsed. One hundred 
        seven people who were below the impact floors did not survive. 
        Since the flow of people from the building had slowed 
        considerably 20 minutes before the tower collapsed, the 
        stairwell capacity was adequate to evacuate the occupants on 
        that morning.

        <bullet>  In WTC 2, before the second aircraft strike, about 
        3,000 people got low enough in the building to escape by a 
        combination of self-evacuation and use of elevators. The 
        aircraft destroyed the operation of the elevators and the use 
        of two of the three stairways. Eighteen people from above the 
        impact zone found a passage through the damaged third stairway 
        (Stairwell A) and escaped. The other 619 people in or above the 
        impact zone perished. Eleven people who were below the impact 
        floors did not survive. As in WTC 1, shortly before collapse, 
        the flow of people from the building had slowed considerably, 
        indicating that the stairwell capacity was adequate that 
        morning.

        <bullet>  About six percent of the survivors described 
        themselves as mobility impaired, with recent injury and chronic 
        illness being the most common causes; few, however, required a 
        wheelchair. Among the 118 decedents below the aircraft impact 
        floors, investigators identified seven who were mobility 
        impaired, but were unable to determine the mobility capability 
        of the remaining 111.

        <bullet>  A principal factor limiting the loss of life was that 
        the buildings were only one-third to one-half occupied at the 
        time of the attacks. NIST estimated that if the towers had been 
        fully occupied with 20,000 occupants each, it would have taken 
        just over 3 hours to evacuate the buildings and about 14,000 
        people might have perished because the stairwell capacity would 
        not have been sufficient to evacuate that many people in the 
        available time. Egress capacity required by current building 
        codes is determined by single floor calculations that are 
        independent of building height and does not consider the time 
        for full building evacuation.

        <bullet>  Due to the presence of assembly use spaces at the top 
        of each tower (Windows on the World restaurant complex in WTC 1 
        and the Top of the Deck observation deck in WTC 2) that were 
        designed to accommodate over 1,000 occupants per floor, the New 
        York City Building Code would have required a minimum of four 
        independent means of egress (stairs), one more than the three 
        that were available in the buildings. Given the low occupancy 
        level on September 11, 2001, NIST found that the issue of 
        egress capacity from these places of assembly, or from 
        elsewhere in the buildings, was not a significant factor on 
        that day. It is conceivable that such a fourth stairwell, 
        depending on its location and the effects of aircraft impact on 
        its functional integrity, could have remained passable, 
        allowing evacuation by an unknown number of additional 
        occupants from above the floors of impact. If the buildings had 
        been filled to their capacity with 20,000 occupants, however, 
        the required fourth stairway would likely have mitigated the 
        insufficient egress capacity for conducting a full building 
        evacuation within the available time.

        <bullet>  Evacuation was assisted by participation in fire 
        drills within the previous year by two-thirds of survivors and 
        perhaps hindered by a Local Law that prevented employers from 
        requiring occupants to practice using the stairways. The 
        stairways were not easily navigated in some locations due to 
        their design, which included ``transfer hallways,'' where 
        evacuees had to traverse from one stairway to another location 
        where the stairs continued. Additionally, many occupants were 
        unprepared for the physical challenge of full building 
        evacuation.

        <bullet>  The functional integrity and survivability of the 
        stairwells was affected by the separation of the stairwells and 
        the structural integrity of stairwell enclosures. In the impact 
        region of WTC 1, the stairwell separation was the smallest over 
        the building height--clustered well within the building core--
        and all stairwells were destroyed by the aircraft impact. By 
        contrast, the separation of stairwells in the impact region of 
        WTC 2 was the largest over the building height--located along 
        different boundaries of the building core--and one of three 
        stairwells remained marginally passable after the aircraft 
        impact. The shaft enclosures were fire rated but were not 
        required to have structural integrity under typical accidental 
        loads: there were numerous reports of stairwells obstructed by 
        fallen debris from damaged enclosures.

        <bullet>  The active fire safety systems (sprinklers, smoke 
        purge, fire alarms, and emergency occupant communications) were 
        designed to meet or exceed current practice. However, with the 
        exception of the evacuation announcements, they played no role 
        in the safety of life on September 11 because the water 
        supplies to the sprinklers were damaged by the aircraft impact. 
        The smoke purge systems, operated under the direction of the 
        fire department after fires, were not turned on, but they also 
        would have been ineffective due to aircraft damage. The 
        violence of the aircraft impact served as its own alarm. In WTC 
        2, contradictory public address announcements contributed to 
        occupant confusion and some delay in occupants beginning to 
        evacuate.

        <bullet>  For the approximately 1,000 emergency responders on 
        the scene, this was the largest disaster they had even seen. 
        Despite attempts by the responding agencies to work together 
        and perform their own tasks, the extent of the incident was 
        well beyond their capabilities. Communications were erratic due 
        to the high number of calls and the inadequate performance of 
        some of the gear. Even so, there was no way to digest, test for 
        accuracy, and disseminate the vast amount of information being 
        received. Their jobs were complicated by the loss of command 
        centers in WTC 7 and then in the towers after WTC 2 collapsed. 
        With nearly all elevator service disrupted and progress up the 
        stairs taking about two min. per floor, it would have taken 
        hours for the responders to reach their destinations, assist 
        survivors, and escape had the towers not collapsed.

Objective 3: Determine what procedures and practices were used in the 
design, construction, operation, and maintenance of WTC 1 and WTC 2.

        <bullet>  Because of The Port Authority's establishment under a 
        clause of the United States Constitution, its buildings were 
        not subject to any state or local building regulations. The 
        buildings were unlike any others previously built, both in 
        their height and in their innovative structural features. 
        Nevertheless, the actual design and approval process produced 
        two buildings that generally were consistent with nearly all of 
        the provisions of the New York City Building Code and other 
        building codes of that time that were reviewed by NIST. The 
        loads for which the buildings were designed exceeded the New 
        York City code requirements. The quality of the structural 
        steels was consistent with the building specifications. The 
        departures from the building codes and standards identified by 
        NIST did not have a significant effect on the outcome of 
        September 11.

        <bullet>  For the floor systems, the fire rating and insulation 
        thickness used on the floor trusses, which together with the 
        concrete slab served as the main source of support for the 
        floors, were of concern from the time of initial construction. 
        NIST found no technical basis or test data on which the thermal 
        protection of the steel was based. On September 11, 2001, the 
        minimum specified thickness of the insulation was adequate to 
        delay heating of the trusses; the amount of insulation 
        dislodged by the aircraft impact, however, was sufficient to 
        cause the structural steel to be heated to critical levels.

        <bullet>  Based on four standard fire resistance tests that 
        were conducted under a range of insulation and test conditions, 
        NIST found the fire rating of the floor system to vary between 
        3/4 hour and two hours; in all cases, the floors continued to 
        support the full design load without collapse for over two 
        hours.

        <bullet>  The wind loads used for the WTC towers, which 
        governed the structural design of the external columns and 
        provided the baseline capacity of the structures to withstand 
        abnormal events such as major fires or impact damage, 
        significantly exceeded the requirements of the New York City 
        Building Code and other building codes of the day that were 
        reviewed by NIST. Two sets of wind load estimates for the 
        towers obtained by independent commercial consultants in 2002, 
        however, differed by as much as 40 percent. These estimates 
        were based on wind tunnel tests conducted as part of insurance 
        litigation unrelated to the Investigation.

RECOMMENDATIONS

    The tragic consequences of the September 11, 2001, attacks were 
directly attributable to the fact that terrorists flew large jet-fuel 
laden commercial airliners into the WTC towers. Buildings for use by 
the general population are not designed to withstand attacks of such 
severity; building regulations do not require building designs to 
consider aircraft impact. In our cities, there has been no experience 
with a disaster of such magnitude, nor has there been any in which the 
total collapse of a high-rise building occurred so rapidly and with 
little warning.
    While there were unique aspects to the design of the WTC towers and 
the terrorist attacks of September 11, 2001, NIST has compiled a list 
of recommendations to improve the safety of tall buildings, occupants, 
and emergency responders based on its investigation of the procedures 
and practices that were used for the WTC towers; these procedures and 
practices are commonly used in the design, construction, operation, and 
maintenance of buildings under normal conditions. Public officials and 
building owners will need to determine appropriate performance 
requirements for those tall buildings, and selected other buildings, 
that are at higher risk due to their iconic status, critical function, 
or design.
    The topics of the recommendations in eight groups are listed in 
Table 1. A complete listing of the 30 recommendations is provided in 
Appendix A. The ordering does not reflect any priority.
    The eight major groups of recommendations are:

        <bullet>  Increased Structural Integrity: The standards for 
        estimating the load effects of potential hazards (e.g., 
        progressive collapse, wind) and the design of structural 
        systems to mitigate the effects of those hazards should be 
        improved to enhance structural integrity.

        <bullet>  Enhanced Fire Endurance of Structures: The procedures 
        and practices used to ensure the fire endurance of structures 
        should be enhanced by improving the technical basis for 
        construction classifications and fire resistance ratings, 
        improving the technical basis for standard fire resistance 
        testing methods, use of the ``structural frame'' approach to 
        fire resistance ratings, and developing in-service performance 
        requirements and conformance criteria for sprayed fire-
        resistive material.

        <bullet>  New Methods for Fire Resistant Design of Structures: 
        The procedures and practices used in the fire resistant design 
        of structures should be enhanced by requiring an objective that 
        uncontrolled fires result in burnout without local or global 
        collapse. Performance-based methods are an alternative to 
        prescriptive design methods. This effort should include the 
        development and evaluation of new fire resistive coating 
        materials and technologies and evaluation of the fire 
        performance of conventional and high-performance structural 
        materials.

        <bullet>  Improved Active Fire Protection: Active fire 
        protection systems (i.e., sprinklers, standpipes/hoses, fire 
        alarms, and smoke management systems) should be enhanced 
        through improvements to design, performance, reliability, and 
        redundancy of such systems.

        <bullet>  Improved Building Evacuation: Building evacuation 
        should be improved to include system designs that facilitate 
        safe and rapid egress, methods for ensuring clear and timely 
        emergency communications to occupants, better occupant 
        preparedness for evacuation during emergencies, and 
        incorporation of appropriate egress technologies.

        <bullet>  Improved Emergency Response: Technologies and 
        procedures for emergency response should be improved to enable 
        better access to buildings, response operations, emergency 
        communications, and command and control in large-scale 
        emergencies.

        <bullet>  Improved Procedures and Practices: The procedures and 
        practices used in the design, construction, maintenance, and 
        operation of buildings should be improved to include 
        encouraging code compliance by non-governmental and quasi-
        governmental entities, adoption and application of egress and 
        sprinkler requirements in codes for existing buildings, and 
        retention and availability of building documents over the life 
        of a building.

        <bullet>  Education and Training: The professional skills of 
        building and fire safety professionals should be upgraded 
        though a national education and training effort for fire 
        protection engineers, structural engineers, architects, 
        regulatory personnel, and emergency responders.

    The recommendations call for action by specific entities regarding 
standards, codes and regulations, their adoption and enforcement, 
professional practices, education, and training; and research and 
development. Only when each of the entities carries out its role will 
the implementation of a recommendation be effective.
    The recommendations do not prescribe specific systems, materials, 
or technologies. Instead, NIST encourages competition among 
alternatives that can meet performance requirements. The 
recommendations also do not prescribe specific threshold levels; NIST 
believes that this responsibility properly falls within the purview of 
the public policy setting process, in which the standards and codes 
development process plays a key role.
    NIST believes the recommendations are realistic and achievable 
within a reasonable period of time. Only a few of the recommendations 
call for new requirements in standards and codes. Most of the 
recommendations deal with improving an existing standard or code 
requirement, establishing a standard for an existing practice without 
one, establishing the technical basis for an existing requirement, 
making a current requirement risk-consistent, adopting or enforcing a 
current requirement, or establishing a performance-based alternative to 
a current prescriptive requirement.

NEXT STEPS

    We have strongly urged that immediate and serious consideration be 
given to these recommendations by the building and fire safety 
communities in order to achieve appropriate improvements in the way 
buildings are designed, constructed, maintained, and used and in 
evacuation and emergency response procedures-with the goal of making 
buildings, occupants, and first responders safer in future emergencies.
    We are also strongly urging building owners and public officials to 
(1) evaluate the safety implications of these recommendations to their 
existing inventory of buildings and (2) take the steps necessary to 
mitigate any unwarranted risks without waiting for changes to occur in 
codes, standards, and practices.
    We are urging state and local agencies to rigorously enforce 
building codes and standards since such enforcement is critical to 
ensure the expected level of safety. Unless they are complied with, the 
best codes and standards cannot protect occupants, emergency 
responders, or buildings.
    I have assigned top priority for NIST staff to work vigorously with 
the building and fire safety communities to assure that there is a 
complete understanding of the recommendations and to provide needed 
technical assistance in getting the recommendations implemented. We 
have identified specific codes, standards, and practices affected by 
each of the recommendations in its summary report for the WTC towers 
and already begun to reach out to the responsible organizations to pave 
the way for a timely, expedited consideration of the recommendations. 
Toward this end, we held a conference September 13-15, 2005 that was 
attended by over 200 people, including all of the major standards and 
codes development organizations.
    We have also awarded a contract to the National Institute of 
Building Sciences (NIBS) to turn many of the recommendations into code 
language suitable for submission of code change proposals to the two 
national model code developers.
    In addition, we will implement a web-based system so that the 
public can track progress on implementing the recommendations. The web 
site will list each of the recommendations, the specific organization 
or organizations (e.g., standards and code developers, professional 
groups, state and local authorities) responsible for its 
implementation, the status of its implementation by organization, and 
the plans or work in progress to implement the recommendations.
    We are releasing the final versions of the 43 reports on NIST's 
investigation of the WTC towers, totaling some 10,000 pages, today. Our 
current plans are to release next spring an additional five reports as 
drafts for public comment on the investigation of WTC 7.
    Mr. Chairman, I want to thank you and the Committee again for 
allowing me to testify today about NIST's building and fire safety 
investigation of the World Trade Center disaster. I would be happy to 
answer any questions at this time.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Appendix A. List of Recommendations

Group 1. Increased Structural Integrity

The standards for estimating the load effects of potential hazards 
(e.g., progressive collapse, wind) and the design of structural systems 
to mitigate the effects of those hazards should be improved to enhance 
structural integrity.

         Recommendation 1. NIST recommends that: (1) progressive 
        collapse be prevented in buildings through the development and 
        nationwide adoption of consensus standards and code provisions, 
        along with the tools and guidelines needed for their use in 
        practice; and (2) a standard methodology be developed--
        supported by analytical design tools and practical design 
        guidance--to reliably predict the potential for complex 
        failures in structural systems subjected to multiple hazards.

         Recommendation 2. NIST recommends that nationally accepted 
        performance standards be developed for: (1) conducting wind 
        tunnel testing of prototype structures based on sound technical 
        methods that result in repeatable and reproducible results 
        among testing laboratories; and (2) estimating wind loads and 
        their effects on tall buildings for use in design, based on 
        wind tunnel testing data and directional wind speed data.

         Recommendation 3. NIST recommends that an appropriate 
        criterion be developed and implemented to enhance the 
        performance of tall buildings by limiting how much they sway 
        under lateral load design conditions (e.g., winds and 
        earthquakes).

Group 2. Enhanced Fire Endurance of Structures

    The procedures and practices used to ensure the fire endurance of 
structures be enhanced by improving the technical basis for 
construction classifications and fire resistance ratings, improving the 
technical basis for standard fire resistance testing methods, use of 
the ``structural frame'' approach to fire resistance ratings, and 
developing in-service performance requirements and conformance criteria 
for sprayed fire-resistive materials.

         Recommendation 4. NIST recommends evaluating, and where needed 
        improving, the technical basis for determining appropriate 
        construction classification and fire rating requirements 
        (especially for tall buildings)--and making related code 
        changes now as much as possible--by explicitly considering 
        factors including:

                <bullet>  timely access by emergency responders and 
                full evacuation of occupants, or the time required for 
                burnout without local collapse;

                <bullet>  the extent to which redundancy in active fire 
                protection (sprinkler and standpipe, fire alarm, and 
                smoke management) systems should be credited for 
                occupant life safety;

                <bullet>  the need for redundancy in fire protection 
                systems that are critical to structural integrity;

                <bullet>  the ability of the structure and local floor 
                systems to withstand a maximum credible fire scenario 
                without collapse, recognizing that sprinklers could be 
                compromised, not operational, or non-existent;

                <bullet>  compartmentation requirements (e.g., 12,000 
                ft<SUP>2</SUP> \1\) to protect the structure, including 
                fire rated doors and automatic enclosures, and limiting 
                air supply (e.g., thermally resistant window 
                assemblies) to retard fire spread in buildings with 
                large, open floor plans;
---------------------------------------------------------------------------
    \1\ Or a more appropriate limit, which represents a reasonable area 
for active firefighting operations.

                <bullet>  the effect of spaces containing unusually 
                large fuel concentrations for the expected occupancy of 
---------------------------------------------------------------------------
                the building; and

                <bullet>  the extent to which fire control systems, 
                including suppression by automatic or manual means, 
                should be credited as part of the prevention of fire 
                spread.

         Recommendation 5. NIST recommends that the technical basis for 
        the century-old standard for fire resistance testing of 
        components, assemblies, and systems be improved through a 
        national effort. Necessary guidance also should be developed 
        for extrapolating the results of tested assemblies to 
        prototypical building systems. A key step in fulfilling this 
        recommendation is to establish a capability for studying and 
        testing the components, assemblies, and systems under realistic 
        fire and load conditions.

         Recommendation 6. NIST recommends the development of criteria, 
        test methods, and standards: (1) for the in-service performance 
        of sprayed fire-resistive materials (SFRM, also commonly 
        referred to as fireproofing or insulation) used to protect 
        structural components; and (2) to ensure that these materials, 
        as-installed, conform to conditions in tests used to establish 
        the fire resistance rating of components, assemblies, and 
        systems.

         Recommendation 7. NIST recommends the adoption and use of the 
        ``structural frame'' approach to fire resistance ratings. This 
        approach requires that structural members--such as girders, 
        beams, trusses and spandrels having direct connection to the 
        columns, and bracing members designed to carry gravity loads--
        be fire protected to the same fire resistance rating as 
        columns.

Group 3. New Methods for Fire Resistant Design of Structures

    The procedures and practices used in the fire resistant design of 
structures should be enhanced by requiring an objective that 
uncontrolled fires result in burnout without partial or global (total) 
collapse. Performance-based methods are an alternative to prescriptive 
design methods. This effort should include the development and 
evaluation of new fire-resistive coating materials and technologies and 
evaluation of the fire performance of conventional and high-performance 
structural materials.

         Recommendation 8. NIST recommends that the fire resistance of 
        structures be enhanced by requiring a performance objective 
        that uncontrolled building fires result in burnout without 
        partial or global (total) collapse.

         Recommendation 9. NIST recommends the development of: (1) 
        performance-based standards and code provisions, as an 
        alternative to current prescriptive design methods, to enable 
        the design and retrofit of structures to resist real building 
        fire conditions, including their ability to achieve the 
        performance objective of burnout without structural or local 
        floor collapse: and (2) the tools, guidelines, and test methods 
        necessary to evaluate the fire performance of the structure as 
        a whole system.

         Recommendation 10. NIST recommends the development and 
        evaluation of new fire-resistive coating materials, systems, 
        and technologies with significantly enhanced performance and 
        durability to provide protection following major events.

         Recommendation 11. NIST recommends that the performance and 
        suitability of advanced structural steel, reinforced and pre-
        stressed concrete, and other high-performance material systems 
        be evaluated for use under conditions expected in building 
        fires.

Group 4. Improved Active Fire Protection

    Active fire protection systems (i.e., sprinklers, standpipes/hoses, 
fire alarms, and smoke management systems) should be enhanced through 
improvements to design, performance, reliability, and redundancy of 
such systems.

         Recommendation 12. NIST recommends that the performance and 
        possibly the redundancy of active fire protection systems 
        (sprinklers, standpipes/hoses, fire alarms, and smoke 
        management systems) in buildings be enhanced to accommodate the 
        greater risks associated with increasing building height and 
        population, increased use of open spaces, high-risk building 
        activities, fire department response limits, transient fuel 
        loads, and higher threat profile.

         Recommendation 13. NIST recommends that fire alarm and 
        communications systems in buildings be developed to provide 
        continuous, reliable, and accurate information on the status of 
        life safety conditions at a level of detail sufficient to 
        manage the evacuation process in building fire emergencies; all 
        communication and control paths in buildings need to be 
        designed and installed to have the same resistance to failure 
        and increased survivability above that specified in present 
        standards.

         Recommendation 14. NIST recommends that control panels at 
        fire/emergency command stations in buildings be adapted to 
        accept and interpret a larger quantity of more reliable 
        information from the active fire protection systems that 
        provide tactical decision aids to fireground commanders, 
        including water flow rates from pressure and flow measurement 
        devices, and that standards for their performance be developed.

         Recommendation 15. NIST recommends that systems be developed 
        and implemented for: (1) real-time off-site secure transmission 
        of valuable information from fire alarm and other monitored 
        building systems for use by emergency responders, at any 
        location, to enhance situational awareness and response 
        decisions and maintain safe and efficient operations; and (2) 
        preservation of that information either off-site or in a black 
        box that will survive a fire or other building failure for 
        purposes of subsequent investigations and analysis. Standards 
        for the performance of such systems should be developed, and 
        their use should be required.

Group 5. Improved Building Evacuation

    Building evacuation should be improved to include system designs 
that facilitate safe and rapid egress, methods for ensuring clear and 
timely emergency communications to occupants, better occupant 
preparedness regarding their roles and duties for evacuation during 
emergencies, and incorporation of appropriate egress technologies.

         Recommendation 16. NIST recommends that public agencies, non-
        profit organizations concerned with building and fire safety, 
        and building owners and managers develop and carry out public 
        education and training campaigns, jointly and on a nationwide 
        scale, to improve building occupants' preparedness for 
        evacuation in case of building emergencies.

         Recommendation 17. NIST recommends that tall buildings be 
        designed to accommodate timely full building evacuation of 
        occupants due to building-specific or large-scale emergencies 
        such as widespread power outages, major earthquakes, tornadoes, 
        hurricanes without sufficient advanced warning, fires, 
        explosions, and terrorist attack. Building size, population, 
        function, and iconic status should be taken into account in 
        designing the egress system. Stairwell capacity and stair 
        discharge door width should be adequate to accommodate 
        counterflow due to emergency access by responders.

         Recommendation 18. NIST recommends that egress systems be 
        designed: (1) to maximize remoteness of egress components 
        (i.e., stairs, elevators, exits) without negatively impacting 
        the average travel distance; (2) to maintain their functional 
        integrity and survivability under foreseeable building-specific 
        or large-scale emergencies; and (3) with consistent layouts, 
        standard signage, and guidance so that systems become intuitive 
        and obvious to building occupants during evacuations.

         Recommendation 19. NIST recommends that building owners, 
        managers, and emergency responders develop a joint plan and 
        take steps to ensure that accurate emergency information is 
        communicated in a timely manner to enhance the situational 
        awareness of building occupants and emergency responders 
        affected by an event. This should be accomplished through 
        better coordination of information among different emergency 
        responder groups, efficient sharing of that information among 
        building occupants and emergency responders, more robust design 
        of emergency public address systems, improved emergency 
        responder communication systems, and use of the Emergency 
        Broadcast System (now known as the Integrated Public Alert and 
        Warning System) and Community Emergency Alert Networks.

         Recommendation 20. NIST recommends that the full range of 
        current and next generation evacuation technologies should be 
        evaluated for future use, including protected/hardened 
        elevators, exterior escape devices, and stairwell descent 
        devices, which may allow all occupants an equal opportunity for 
        evacuation and facilitate emergency response access.

Group 6. Improved Emergency Response

    Technologies and procedures for emergency response should be 
improved to enable better access to buildings, response operations, 
emergency communications, and command and control in large-scale 
emergencies.

         Recommendation 21. NIST recommends the installation of fire-
        protected and structurally hardened elevators to improve 
        emergency response activities in tall buildings by providing 
        timely emergency access to responders and allowing evacuation 
        of mobility impaired building occupants. Such elevators should 
        be installed for exclusive use by emergency responders during 
        emergencies. In tall buildings, consideration also should be 
        given to installing such elevators for use by all occupants. 
        The use of elevators for these purposes will require additional 
        operating procedures and protocols, as well as a requirement 
        for release of elevator door restrictors by emergency response 
        personnel.

         Recommendation 22. NIST recommends the installation, 
        inspection, and testing of emergency communications systems, 
        radio communications, and associated operating protocols to 
        ensure that the systems and protocols: (1) are effective for 
        large-scale emergencies in buildings with challenging radio 
        frequency propagation environments; and (2) can be used to 
        identify, locate, and track emergency responders within indoor 
        building environments and in the field. The Federal Government 
        should coordinate its efforts that address this need within the 
        framework provided by the SAFECOM program of the Department of 
        Homeland Security.

         Recommendation 23. NIST recommends the establishment and 
        implementation of detailed procedures and methods for 
        gathering, processing, and delivering critical information 
        through integration of relevant voice, video, graphical, and 
        written data to enhance the situational awareness of all 
        emergency responders. An information intelligence sector\2\ 
        should be established to coordinate the effort for each 
        incident.
---------------------------------------------------------------------------
    \2\ A group of individuals that is knowledgeable, experienced, and 
specifically trained in gathering, processing, and delivering 
information critical for emergency response operations and is ready for 
activation in large and/or dangerous events.

         Recommendation 24. NIST recommends the establishment and 
        implementation of codes and protocols for ensuring effective 
        and uninterrupted operation of the command and control system 
---------------------------------------------------------------------------
        for large-scale building emergencies.

Group 7. Improved Procedures and Practices

    The procedures and practices used in the design, construction, 
maintenance, and operation of buildings should be improved to include 
encouraging code compliance by nongovernmental and quasi-governmental 
entities, adoption and application of egress and sprinkler requirements 
in codes for existing buildings, and retention and availability of 
building documents over the life of a building.

         Recommendation 25. Non-governmental and quasi-governmental 
        entities that own or lease buildings--and are not subject to 
        building and fire safety code requirements of any governmental 
        jurisdiction--should provide a level of safety that equals or 
        exceeds the level of safety that would be provided by strict 
        compliance with the code requirements of an appropriate 
        governmental jurisdiction. To gain broad public confidence in 
        the safety of such buildings, NIST further recommends that as-
        designed and as-built safety be certified by a qualified third 
        party, independent of the building owner(s). The process should 
        not use self-approval for code enforcement in areas including 
        interpretation of code provisions, design approval, product 
        acceptance, certification of the final construction, and post-
        occupancy inspections over the life of the buildings.

         Recommendation 26. NIST recommends that state and local 
        jurisdictions adopt and aggressively enforce available 
        provisions in building codes to ensure that egress and 
        sprinkler requirements are met by existing buildings. Further, 
        occupancy requirements should be modified where needed (such as 
        when there are assembly use spaces within an office building) 
        to meet the requirements in model building codes.

         Recommendation 27. NIST recommends that building codes should 
        incorporate a provision that requires building owners to retain 
        documents, including supporting calculations and test data, 
        related to building design, construction, maintenance and 
        modifications over the entire life of the building.\3\ Means 
        should be developed for offsite storage and maintenance of the 
        documents. In addition, NIST recommends that relevant building 
        information should be made available in suitably designed hard 
        copy or electronic format for use by emergency responders. Such 
        information should be easily accessible by responders during 
        emergencies.
---------------------------------------------------------------------------
    \3\ The availability of inexpensive electronic storage media and 
tools for creating large searchable databases make this feasible.

         Recommendation 28. NIST recommends that the role of the 
        ``Design Professional in Responsible Charge'' \4\ be clarified 
        to ensure that: (1) all appropriate design professionals 
        (including, e.g., the fire protection engineer) are part of the 
        design team providing the standard of care when designing 
        buildings employing innovative or unusual fire safety systems, 
        and (2) all appropriate design professionals (including, e.g., 
        the structural engineer and the fire protection engineer) are 
        part of the design team providing the standard of care when 
        designing the structure to resist fires, in buildings that 
        employ innovative or unusual structural and fire safety 
        systems.
---------------------------------------------------------------------------
    \4\ In projects involving a design team, the ``Design Professional 
in Responsible Charge''--usually the lead architect--ensures that the 
team members use consistent design data and assumptions, coordinates 
overlapping specifications, and serves as the liaison to the 
enforcement and reviewing officials and to the owner. The term is 
defined in the International Building Code and in the ICC Performance 
Code for Buildings and Facilities (where it is the Principal Design 
Professional).

---------------------------------------------------------------------------
Group 8. Education and Training

    The professional skills of building and fire safety professionals 
should be upgraded though a national education and training effort for 
fire protection engineers, structural engineers, and architects. The 
skills of the building regulatory and fire service personnel should 
also be upgraded to provide sufficient understanding and the necessary 
skills to conduct the review, inspection, and approval tasks for which 
they are responsible.

         Recommendation 29. NIST recommends that continuing education 
        curricula be developed and programs should be implemented for 
        (1) training fire protection engineers and architects in 
        structural engineering principles and design, and (2) training 
        structural engineers, architects, fire protection engineers, 
        and code enforcement officials in modern fire protection 
        principles and technologies, including fire-resistance design 
        of structures, and (3) training building regulatory and fire 
        service personnel to upgrade their understanding and skills to 
        conduct the review, inspection, and approval tasks for which 
        they are responsible.

         Recommendation 30. NIST recommends that academic, professional 
        short-course, and web-based training materials in the use of 
        computational fire dynamics and thermostructural analysis tools 
        be developed and delivered to strengthen the base of available 
        technical capabilities and human resources.

                     Biography for William Jeffrey

    William Jeffrey is the 13th Director of the National Institute of 
Standards and Technology (NIST), sworn into the office on July 26, 
2005. He was nominated by President Bush on May 25, 2005, and confirmed 
by the U.S. Senate on July 22, 2005.
    As Director of NIST, Dr. Jeffrey oversees an array of programs that 
support U.S. industry and science with measurement research, standards, 
technology, and technical assistance that strengthen the Nation's 
innovation infrastructure and competitiveness. The goal is to improve 
manufacturing, services, trade, safety and security, and quality of 
life. Operating in fiscal year 2005 on a budget of about $858 million, 
NIST is headquartered in Gaithersburg, Md., and has additional 
laboratories in Boulder, Colo. NIST also jointly operates research 
organizations in three locations, which support world-class physics, 
cutting-edge biotechnology, and environmental research. NIST employs 
about 3,000 scientists, engineers, technicians, and support personnel. 
An agency of the U.S. Commerce Department's Technology Administration, 
NIST has extensive cooperative research programs with industry, 
academia, and other government agencies. Its staff is augmented by 
about 1,600 visiting researchers.
    Dr. Jeffrey has been involved in federal science and technology 
programs and policy since 1988. Previous to his appointment to NIST he 
served as Senior Director for homeland and national security and the 
Assistant Director for space and aeronautics at the Office of Science 
and Technology Policy (OSTP) within the Executive Office of the 
President. Earlier, he was the Deputy Director for the Advanced 
Technology Office and Chief Scientist for the Tactical Technology 
Office with the Defense Advanced Research Projects Agency (DARPA). 
While at DARPA, Dr. Jeffrey advanced research programs in 
communications, computer network security, novel sensor development, 
and space operations.
    Prior to joining DARPA, Dr. Jeffrey was the Assistant Deputy for 
Technology at the Defense Airborne Reconnaissance Office, where he 
supervised sensor development for the Predator and Global Hawk Unmanned 
Aerial Vehicles and the development of common standards that allow for 
cross-service and cross-agency transfer of imagery and intelligence 
products. He also spent several years working at the Institute for 
Defense Analyses performing technical analyses in support of the 
Department of Defense.
    Dr. Jeffrey received his Ph.D. in astronomy from Harvard University 
and his B.Sc. in physics from the Massachusetts Institute of 
Technology.

    Chairman Boehlert. Thank you very much, Doctor. Thank you 
very much, Dr. Jeffrey. Ms. McNabb.

STATEMENT OF MS. NANCY MCNABB, DIRECTOR OF GOVERNMENT AFFAIRS, 
              NATIONAL FIRE PROTECTION ASSOCIATION

    Ms. McNabb. Good morning, Chairman Boehlert, and Committee 
Members. My name is Nancy McNabb, and I am Director for 
Government Affairs for NFPA, the National Fire Protection 
Association, headquartered in Quincy, Massachusetts. I am an 
architect licensed in the great State of New York, and was 
formerly the Assistant Director for Code Development and 
Interpretation there. I appreciate the opportunity to address 
the Committee this morning regarding the report of the National 
Construction Safety Team on the collapse of the World Trade 
Center towers. Dr. Jeffrey and his team at the NIST labs have 
done outstanding work.
    NFPA is a 109-year-old private, nonprofit organization 
whose mission is to reduce the burden of fire and other hazards 
on the quality of life. We achieve that mission by advocating 
consensus, codes, and standards, research, training, and 
education. We have approximately 79,000 members that come from 
80 nations around the world.
    I am here today to affirm our support for the efforts of 
NIST regarding their report. In most cases, resolution and 
implementation of their recommendations will be a long-term 
process. We have provided the Committee with copies of our 
detailed responses to the NIST study, portions of which I will 
speak to today.
    The NIST report, the second issued under the authority of 
the National Construction Safety Team Act, shows that NIST is 
committed to providing a high level of scientific data and a 
set of recommendations for future consideration by codes and 
standards developers. NFPA is pleased to see the work effort of 
NIST resulting in positions on many controversial and sometimes 
unpopular subjects. However, the need to conduct more research 
in numerous areas is clear.
    The loss of the World Trade Center complex represents an 
unusual set of building performance circumstances, both 
independent and interdependent. Fundamental questions, such as 
why did each tower remain standing after the initial impacts, 
what factors influenced the collapse of the two towers, and 
what features either allowed so many occupants to escape, or 
prevented occupants from escaping, now have some answers. Other 
difficult and anguishing questions, such as what was the fate 
of mobility-impaired occupants, and why were the local 
communication systems overwhelmed, and did this prevent or 
delay evacuation warnings to the first responders, at least now 
have some explanation.
    In June of 2002, when the intensive three-year Federal 
Building and Fire Safety Investigation of the World Trade 
Center Disaster was initiated, our President and CEO, Jim 
Shannon, testified at a public hearing held in New York City 
that outlined the NIST objectives for their work plan, 
investigation approach, and intended outcomes. It would have 
been easy for the Federal Government to simply say this was a 
one time extreme event, or we do not or cannot design buildings 
for, or learn anything new from such extraordinary events. But 
that would be contrary to how the U.S. conducts its business, 
and how NFPA identifies needs and emerging issues for the 
development of new and improved safety codes and standards. Let 
me assure you that NIST has accomplished a great deal with 
their studies, analyses, and recommendations.
    Even those skeptics and critics of NIST and its report in 
the end chose to submit constructive comments. The National 
Construction Safety Team Federal Advisory Committee, who 
provided guidance to NIST during the investigation, the 
engineers and scientists from NIST who provided support to this 
effort, and the group of private organizations who served as 
contractors to NIST on various aspects of the project, are to 
be commended. They have provided a convincing amount of 
evidence, rigorous analyses, hypotheses, and confirmation.
    One critical test of effectiveness of the World Trade 
Center study will be what will happen with the 30 specific 
recommendations in the final report. Some of them have already 
been implemented in several NFPA codes. This was possible 
because of the open approach that NIST took with the 
investigation. In particular, Dr. Sunder's commitment to 
provide public briefings, opportunities for input during media 
briefings and open meetings, and making critical information 
available on the NIST World Trade Center website. While some 
changes have been made, it is important to note that it is 
likely that after a thorough and detailed analysis of the final 
recommendations, there may not be sufficient data, detail, or 
compelling evidence to promulgate a change to a particular 
safety code or standard.
    For example, the ongoing debate about whether building 
regulations should address events associated with normal 
building hazards or more extreme events such as hostile acts 
and explosions, and what category of buildings should have 
these unique measures imposed upon them, will have to be 
settled before consensus is reached on many of the 
recommendations and findings.
    Because of this study, NFPA codes and standards have been 
changed to include a number of things. A few are hourly fire 
resistance ratings of three and four-hour duration for tall 
buildings, requirements for wider stairs to address counterflow 
issues based on occupant load, and integration of performance-
based design options. A number of long-term initiatives are 
also underway to address other subjects, including the 
protocols used to evaluate the performance of building 
structural systems under fire conditions. Although NIST has not 
indicated that the current procedures are inadequate, a review 
of the test methods and structural system evaluations is 
warranted.
    One recommendation that should receive a high priority is 
the consideration for elevator use in high rise emergency 
evacuations. NIST has led the effort in this area, with 
participation from the private sector, to establish the 
circumstances and criteria for making this a reality. And 
again, I have given you some of NFPA's comments on NIST's 
report, and a list of the changes already affected by NFPA.
    Beyond this, several of the recommendations refer to 
specific identification and quantification of multiple threats 
or hazards. This implies the need for risk and hazard analyses, 
and the utilization of performance-based design techniques. 
Overall, NFPA supports these concepts for building and fire 
regulations. However, the design of buildings, the assessment 
of the existing building stock, and the preparation of 
emergency response plans, must be an integral part of our 
collective mindset.
    While NFPA recognizes the benefits of risk and hazard 
analyses and performance-based design, we note that many of the 
tools and data necessary to do this on a routine basis are not 
yet available, nor are they sufficiently understood by all the 
parties that routinely make decisions about building 
construction, occupant safety, and emergency responder 
operations. We have to make sure that those who live or work in 
a high rise, those who design and construct a high rise, and 
those that come to our aid in a high rise, are aware of the 
limitations of our technology, procedures, and codes.
    While it is too early to establish the lessons learned from 
the report, we have made a significant start. We have much yet 
to be done. Before we arrive at an appropriate best practices 
that will advance the level of safety in the built environment, 
more evaluation is necessary.
    I can assure you that NFPA will continue to be thorough in 
reviewing, evaluating, and implementing those NIST 
recommendations that are directed at the broad issue of public 
and first responder safety. After the comprehensive study that 
NIST has provided to us, to learn nothing and do nothing would 
be delinquent.
    Likewise, it would be unthinkable if the private sector 
fails to act with due regard for these recommendations, and if 
our government institutions, such as the General Services 
Administration, fail to recognize the opportunities to develop 
new building safety enhancements. NIST has provided us with a 
public service and a tremendous resource. It will be up to all 
of us to make certain that we do not waste this unique 
opportunity to ask ourselves new questions, learn lessons, and 
develop better building safety codes and standards.
    Thank you again for allowing me the opportunity to present 
the views of NFPA this morning. I will be happy to answer any 
questions you may have.
    [The prepared statement of Ms. McNabb follows:]

                   Prepared Statement of Nancy McNabb

    Good morning Chairman Boehlert and Ranking Member Gordon and 
Committee Members. My name is Nancy McNabb and I am the Director for 
Government Affairs for NFPA (the National Fire Protection Association) 
headquartered in Quincy, Massachusetts. I am a licensed architect and 
was formerly the Assistant Director for Code Development and 
Interpretation for the State of New York. I appreciate the opportunity 
to address the Committee this morning regarding Report of the National 
Construction Safety Team on the Collapse of the World Trade Center 
Towers. Dr. Shyam Sunder, Dr. William Grosshandler and their teams at 
the NIST labs have done outstanding work.
    NFPA is a 109-year-old, private, non-profit organization whose 
mission is to reduce the burden of fire and other hazards on the 
quality of life. We achieve that mission by advocating consensus codes 
and standards, research, training and education. We have approximately 
79,000 members that come from 80 nations around the world.
    I am here today to affirm our support for the efforts of NIST 
regarding their report. In most cases, resolution and implementation of 
their recommendations will be a long-term process. We have provided the 
Committee with copies of our detailed responses to the NIST study, 
portions of which I will speak to today.
    On September 11, 2001, we witnessed the most terrible acts of 
violence ever committed in our country. The destruction of the WTC 
towers, the large loss of life of building occupants and first 
responders demands answers from the Federal Government. The first 
effort directed at this loss included the Building Performance Study 
(BPS) that was conducted by FEMA. NFPA participated as a team member in 
order to contribute to the collection, observation and recommendations 
process surrounding the sequence of events and triggering mechanisms 
that resulted in the catastrophic building failures and loss of so many 
lives.
    The FEMA study, completed in just eight months, established a 
series of preliminary observations including credible theories, 
hypotheses and a likely sequence of events that led to the progressive 
collapse of WTC 1, 2 and 7. As thorough as the FEMA BPS report was, 
almost every preliminary recommendation needed additional study. This 
committee recognized the need to take action and passed the National 
Construction Safety Team Act under Public Law 107-231 (NCSTA) in 2002 
authorizing the National Institute of Standards and Technology, NIST, 
as the responsible agency. Congress selected the premier government 
scientific institution that has the capability, resources and the 
capacity to conduct complex building loss investigations.
    The report, the second issued under the authority of the NCST, 
shows that NIST is committed to providing a high level of scientific 
data and a set of recommendations for future consideration by codes and 
standards developers. NFPA is pleased to see the work effort of NIST 
resulting in positions on many controversial and sometimes, unpopular 
subjects. However, the need to conduct more research in numerous areas 
is clear.
    The loss of the WTC complex represents an unusual set of building 
performance circumstances, both independent and interdependent. 
Fundamental questions such as why did each tower remain standing after 
the initial aircraft impacts, what factors influenced the collapse of 
the two towers and what features either allowed so many occupants to 
escape or prevented occupants from escaping now have some answers. 
Other difficult and anguishing questions such as what was the fate of 
mobility impaired occupants, and why were the local communication 
systems overwhelmed and did this prevent or delay evacuation warnings 
to the first responders, at least now we have some explanation.
    In June of 2002, when the intensive, three year Federal Building 
and Fire Safety Investigation of the World Trade Center Disaster was 
initiated, our President and CEO, Jim Shannon, testified at a public 
hearing held in New York City that outlined the NIST objectives for 
their work plan, investigation approach, and intended outcomes. It 
would have been easy for the Federal Government to simply say ``This 
was a one time, extreme event,'' or ``We do not, nor cannot design 
buildings for, or learn anything new from such extraordinary events,'' 
but that would be contrary to how the U.S. conducts its business and 
how NFPA identifies needs and emerging issues for the development of 
new and improved safety codes and standards. Let me assure you that 
NIST has accomplished a great deal with their studies, analyses and 
recommendations.
    Even those skeptics and critics of NIST and its report in the end 
chose to submit constructive comments. The NCST Federal Advisory 
Committee, who provided guidance to NIST during the investigation, the 
engineers and scientists from NIST who provided support to this effort, 
and the group of private organizations who served as contractors to 
NIST on various aspects of the project are to be commended. They have 
provided a convincing amount of evidence, rigorous analyses, hypotheses 
and confirmation.
    One critical test of the effectiveness of the WTC study will be 
what will happen with the 30 specific recommendations in the final 
report. Some of them have already been implemented in several NFPA 
codes. This was possible because of the open approach that NIST took 
with the investigation. In particular, Dr. Sunder's commitment to 
provide public briefings, opportunities for input during media 
briefings and open meetings and making critical information available 
on the NIST WTC website. While some changes have been made, it is 
important to note that it is likely, that after a thorough and detailed 
analysis of the final recommendations, there may not be sufficient 
data, detail or compelling evidence to promulgate a change to a 
particular safety code or standard.
    For example, the on-going debate about whether building regulations 
should address events associated with normal building hazards, or more 
extreme events such as hostile acts and explosions, and what category 
of buildings should have these unique measures imposed on them, will 
have to be settled before consensus is reached on many of the 
recommendations and findings.
    Because of this study, NFPA codes and standards have been changed 
to include:

        <bullet>  Integration of performance-based design options.

        <bullet>  Retroactive requirements for installation of 
        automatic sprinkler systems in high rise buildings.

        <bullet>  Hourly fire resistance ratings of three-hour and 
        four-hour duration for tall buildings.

        <bullet>  Integration of the structural frame approach when 
        determining fire resistance ratings.

        <bullet>  Requirements for wider stairs to address counterflow 
        issues based on occupant load.

        <bullet>  Mandates for the Installation of stair descent 
        devices for persons with mobility impairments.

    A number of long-term initiatives are also underway to address 
other subjects including the protocols used to evaluate the performance 
of building structural systems under fire conditions. Although NIST has 
not indicated that the current procedures are inadequate, a review of 
the test methods and structural system evaluations is warranted.
    One recommendation that should receive a high priority is the 
consideration for elevator use in high rise emergency evacuations. NIST 
has led the effort in this area with participation the private sector 
to establish the circumstances and criteria for making this a reality.
    Exhibit A provides you with NFPA's comments to NIST's NCSTAR1 
Report; Exhibit B contains a summary of changes already effected by 
NFPA because of the NIST study, or that are in progress at some level.
    Beyond this, several of the recommendations refer to specific 
identification and quantification of multiple threats or hazards. This 
implies the need for risk and hazard analyses, and the utilization of 
performance-based design techniques. Overall, NFPA supports these 
concepts building and fire regulations. However, the design of 
buildings, the assessment of the existing building stock, and the 
preparation of emergency response plans, must be an integral part of 
our collective mind set.
    While NFPA recognizes the benefits of risk and hazard analyses and 
performance-based design, we note that many of the tools and data 
necessary to do this on a routine basis are not yet available. Nor are 
they sufficiently understood by all parties that routinely make 
decisions about building construction, occupant safety and emergency 
responder operations. We have to make sure that those who live or work 
in a high rise, those who design and construct a high rise and those 
that come to our aid in a high rise are aware of the limitations of our 
technology, procedures and codes.
    While it is too early to establish the lessons learned from the 
report, we have made a significant start. We have much yet to be done. 
Before we arrive at an appropriate ``best practices'' that will advance 
the level of safety in the built environment more evaluation is 
necessary.
    I can assure you that NFPA will continue to be thorough in 
reviewing, evaluating and implementing those NIST recommendations that 
are directed at the broad issue of public and first responder safety. 
After the comprehensive study that NIST has provided to us, to learn 
nothing and do nothing would be delinquent.
    Likewise, it would be unthinkable if the private sector fails to 
act with due regard for these recommendations, and if our government 
institutions, such as the General Services Administration, fail to 
recognize the opportunities to develop new building safety 
enhancements. NIST has provided us with a public service and a 
tremendous resource. It will be up to all of us to make certain that we 
do not waste this unique opportunity to ask ourselves new questions, 
learn lessons and develop better building safety codes and standards.
    Thank you again for allowing me the opportunity to present the 
views of NFPA this morning. I will be happy to answer any questions you 
may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Biography for Nancy McNabb

    Nancy McNabb is the Director Government Affairs for the National 
Fire Protection Association (NFPA) at their Government Affairs Office 
in Washington, DC. She is responsible for working with congressional 
and federal agencies as well as allied organizations to promote the 
NFPA mission about fire and life safety. Ms. McNabb joined NFPA in 
September 2001 as the regional manager, building code central field 
office, located in Dallas, TX.
    Before joining NFPA, McNabb was a service coordinator for Building 
Officials and Code Administrators (BOCA) International, where she 
facilitated code adoptions, conducted trainings on code 
interpretations, and represented the organization at legislative 
hearings. Previously, she served as a staff architect for BOCA, working 
with building officials in New York State and providing member services 
throughout the region. Nancy was also Assistant Director for code 
development and code interpretation for the New York State Department 
of State, codes division.
    McNabb holds a Master's degree in architecture in structures and a 
Bachelor's of science degree in architecture from the University of 
Illinois at Champaign/Urbana, as well as a Bachelor's degree in fine 
arts from Bradley University. She is a registered architect in New York 
and Pennsylvania.

    Chairman Boehlert. Thank you very much. I couldn't agree 
more with you. To learn nothing and do nothing would be 
delinquent. I can assure you this committee will not be 
delinquent.
    Dr. Harris.

  STATEMENT OF DR. JAMES R. HARRIS, PRESIDENT, J.R. HARRIS & 
                            COMPANY

    Dr. Harris. Good morning. I am pleased to appear on behalf 
of the Structural Engineering Institute of the American Society 
of Civil Engineers as you consider these recommendations made 
by the National Institute of Standards and Technology, arising 
from their study of the events at the World Trade Center.
    ASCE/SEI has a robust program of national voluntary 
standards produced under a consensus process accredited by the 
American National Standards Institute. Changes in some of our 
standards are already underway that address a few of NIST's 
recommendations, and we plan to give each recommendation that 
is pertinent to the scope of our standards careful 
consideration.
    My name is James Harris. I am President of a structural 
consulting firm in Denver, Colorado. I have long been involved 
in the development of standards for structural engineering 
practice here in the U.S. as well as internationally. I have 
chaired the ASCE/SEI committee that prepares the standard ASCE 
7 Minimum Design Loads for Buildings and Other Structures for 
the last three editions. I am also a member of the American 
Concrete Institute Committee that prepares the standard for the 
design of building structures, and the American Institute of 
Steel Construction Committee that prepares the standard for the 
design of steel buildings.
    ASCE/SEI commends NIST for their thorough study and for the 
thought-provoking findings and recommendations. We also commend 
the Congress for providing the funding for this worthwhile 
study. Even though the first lesson of September 11 is to 
direct resources to prevention of such attacks, we see 
important lessons from this tragedy for improving the 
performance of buildings in emergencies that are more ordinary 
than the attacks of September 11.
    ASCE supports careful consideration of all of NIST's 
recommendations by the broad community that develops standards 
and building codes for this country. NIST's study built upon 
and extended the work of the Building Performance Study Team 
that ASCE formed and FEMA supported immediately after the 
tragedy, and which produced their report in 2002.
    The detail of NIST's study commands respect, and the events 
at the World Trade Center, as well as at the Pentagon that day 
demand our attention. The standard ASCE 7 has long included 
provisions for, or guidelines for resistance to progressive 
collapse in its commentary. We look forward to improving the 
technology for assessing such resistance in the process of 
building design. We will also participate with interested 
stakeholders in addressing the extent to which such properties 
should become mandatory requirements.
    ASCE is close to issuing a draft for public comment of a 
standard for wind tunnel testing that will address some aspects 
of NIST's second recommendation. More work on building a wind 
resistant infrastructure is needed, as shown by recent 
hurricanes, and we urge the Congress to fund the recently 
authorized National Windstorm Mitigation Program. ASCE and the 
Society of Fire Protection Engineers are issuing a new edition 
of their joint standard on calculation methods for structural 
fire protection. ASCE is also preparing a new standard for 
blast loading on building structures, and we are participating 
in the panel being formed by the National Institute of Building 
Sciences that will look into implementation of all of the NIST 
recommendations.
    We do see some risks if NIBS or NIST elect to bypass the 
standards upon which building codes rely by submitting changes 
directly to the major model building codes. Although the 
standards process takes considerable time, it builds a 
consensus of all affected stakeholders. A risk to be considered 
is backlash if change proposals are made without the necessary 
broad consensus. Some of the recommendations will need 
considerable refinement on the thorny issue of dividing the 
population of buildings into classes for which certain new 
requirements will apply.
    Some of the other recommendations will require considerable 
time to develop a knowledge base in the affected professions. 
We see the NIBS panel as an important vehicle to coordinate 
actions in a fashion to avoid negative concerns. We also 
believe that NIST should continue their studies. More 
information is needed on the performance of fire insulation 
under various environments, and on the various fire scenarios 
that would be used in performance-based design of structures 
for fire resistance.
    In conclusion, we welcome the opportunity to further the 
improvement of building safety, and we caution that the work to 
come will take more time than might seem necessary, now that 
the major study by NIST has been completed.
    Thank you.
    [The prepared statement of Dr. Harris follows:]

                 Prepared Statement of James R. Harris

Mr. Chairman and Members of the Committee:

    Good morning. My name is James Harris, and I am pleased to appear 
on behalf of the Structural Engineering Institute of American Society 
of Civil Engineers (ASCE/SEI)\1\ as you examine ``The Investigation of 
the World Trade Center Collapse: Findings, Recommendations, and Next 
Steps'' in light of the release of findings and recommendations of the 
National Institute of Standards and Technology investigation.
---------------------------------------------------------------------------
    \1\ ASCE, founded in 1852, is the country's oldest national civil 
engineering organization. It represents more than 139,000 civil 
engineers in private practice, government, industry, and academia who 
are dedicated to the advancement of the science and profession of civil 
engineering. ASCE carried out Building Performance Assessments of the 
World Trade Center, the Pentagon and the Murrah Federal Building, and 
its technical assessments following earthquakes, hurricanes, and other 
natural disasters. The New Orleans levee technical group includes 
representatives appointed by the ASCE Geo-Institute and ASCE Coasts, 
Oceans, Ports, and Rivers Institute. ASCE is a 501(c) (3) non-profit 
educational and professional society.
---------------------------------------------------------------------------
    The events at the World Trade Center in New York City on September 
11, 2001, were the worst building disasters in the history of the 
United States. The National Institute of Standards and Technology 
conducted a building and fire safety investigation of the disaster 
under the authority of the National Construction Safety Team Act (15 
USC 7301 et seq.). As a result of its WTC Investigation, on June 23, 
2005 NIST issued a draft report with recommendations, and invited 
public comments on June 23, 2005.
    ASCE/SEI supports a thorough review and deliberation of all of the 
NIST Recommendations and looks forward to further discussions 
clarifying the situations to which the NIST Recommendations should 
apply.
    ASCE/SEI believes that engineers must avoid over-optimistic 
reassurances about building safety, and agrees that increased efforts 
should be focused on preventing terrorist attacks. That said, the 30 
recommendations presented by NIST within eight categories address a 
range of issues that we at ASCE/SEI think require serious discussion. 
Many of the recommendations were presented by NIST as ``changes to 
codes and standards,'' which some may interpret to mean that the 
painstaking process of developing consensus code and standard 
provisions should be unreasonably accelerated. We believe that the 
consensus process, which is already underway at ASCE/SEI for some of 
the concerns NIST has raised, is essential so that all aspects of an 
issue can be considered. All of the issues deserve further 
consideration in that community.
    In the view of ASCE/SEI, at least some of the NIST recommendations 
will require development of new technologies and close examination of 
their effects upon the practice. At the same time, the existing codes 
and standards processes that are already in place, both in and outside 
ASCE/SEI, provide appropriate mechanisms for advancing several of these 
discussions. Ultimately, the implementation of these recommendations 
will require the development of appropriate thresholds and bounds for 
their application. ASCE/SEI looks forward to taking an integral role in 
clarifying the application of these recommendations.
    In fact, some of the NIST recommendations follow actions previously 
initiated by ASCE/SEI. For example, with respect to Recommendation #2, 
ASCE/SEI is close to issuing a Wind Tunnel Testing standard and 
anticipates opening it for public comment. With respect to 
Recommendation #9, ASCE/SEI has been working with the Society of Fire 
Protection Engineers, and has already prepared a draft to update ASCE/
SEI/SFPE 29-99 (Standard Calculation Methods for Structural Fire 
Protection), by incorporating performance-based fire resistant design. 
With regard to Recommendation #27, we look forward to engaging ASCE's 
professional practices committee for comment and guidance, though our 
initial reaction is that it may not be necessary or beneficial to all 
parties for the Engineer of Record to retain all documents for all 
time; our preliminary view on document retention is that the owner 
should retain the drawings.
    ASCE/SEI favors the development of tools to assist engineers in 
addressing the issue of progressive collapse (Recommendation #1). The 
development of a consensus document providing multiple approaches to 
mitigating progressive collapse would benefit the profession by 
providing concepts and techniques upon which to build. It is worth 
noting that GSA requirements have already advanced technology for 
evaluating progressive collapse. In general, ASCE/SEI prefers a 
building-specific and/or owner-specific approach to mitigating 
progressive collapse rather than a code-mandated requirement.
    However, also with respect to Recommendation #1, the ASCE/SEI 
reserves judgment on whether and how to develop standardized software 
to evaluate the susceptibility of a particular structural system to 
progressive collapse. Not all buildings are at risk of being exposed to 
the type of events commonly associated with initiating progressive 
collapse. This NIST recommendation needs study of its application and 
its effect upon the profession because of the various design thresholds 
involved. When considering possible causation events, other, non-
structural, solutions are sometimes effective. Having said that, we 
look forward to discussing who would develop and maintain the potential 
software, who would distribute it and who would take responsibility for 
training the profession in its use.
    ASCE/SEI agrees that designing for fire performance of structures 
(Recommendations #4-7) needs to be discussed within the broad 
engineering profession, and is interested in taking an active role in 
supporting studies examining these recommendations. A draft has been 
prepared and we would welcome NIST's input in furthering the 
development of this standard. The concept embedded in Recommendation #8 
of treating fire as a load case for structural design will necessitate 
assumption concerning fire protection systems. Their historical 
performance will need to be included in the discussions along with the 
technical and economic impact.
    ASCE/SEI feels that some of the NIST recommendations need further 
clarification and discussion. ASCE/SEI would like a clearer description 
of the rationale and motivation for developing limit state criteria in 
Recommendation #3. It is possible that serviceability, perception of 
motion issues, and existing seismic criteria on drift may satisfy this 
recommendation. While much of Recommendation #25 appears to ASCE/SEI to 
be reasonable, the concept of certification of ``as-designed or as-
built'' safety needs additional discussion and understanding. Without 
further understanding of the envisioned intent of this recommendation, 
its implementation may face numerous technical, economic, and 
authoritative hurdles. Improving safety in existing buildings, as 
directed in Recommendation #26, is certainly a laudable goal and one 
that ASCE/SEI supports. While the existence of as-built drawings would 
assist in the rehabilitation of existing structures as specified in 
Recommendation #26, a requirement for the retention of a broad range of 
documents would not improve the safety or performance of structures. 
Lastly, the roles of various professionals within a project will change 
and vary from project to project. The assignment of roles and 
responsibilities is an issue best handled by the contract documents 
rather than codes and standards, as proposed in Recommendation #28.
    ASCE also supports Recommendations #29 and #30 which call for 
increased continuing professional development for engineers and the 
curriculum be expanded strengthen the base of available technical 
capabilities and human resources. It is essential that practicing civil 
engineers remain current with issues and advancements in technology. 
ASCE supports the attainment of a Body of Knowledge for entry into the 
practice of civil engineering at the professional level. The Body of 
Knowledge prescribes the necessary depth and breadth of knowledge, 
skills, and attitudes required of an individual entering the practice 
of civil engineering at the professional level in the 21st Century. 
Establishing innovative solutions to protect public health and safety 
requires coordination, training and sustained research and development.
    We are particularly encouraged by the recommendations pertaining to 
education and we enthusiastically support continuing education of the 
profession. However, specific issues, such as cross-training of fire 
and structural engineering professionals, need to be clarified in 
further discussions.
    Our profession is responsible for protecting the public to the best 
of our abilities and to seek new technologies to help us meet that 
charge. In order to do that, we feel it is important to draw a 
distinction between advancing the technology through the development of 
various tools, such as consensus documents on progressive collapse and 
fire-structure interaction, and potentially adversely affecting the 
profession by imposing regulations and restricting the engineers' 
freedom to develop the best solution for each individual building and 
the embedding of mandatory provisions in building codes.
    While not every NIST recommendation may be ready for enactment as 
is, ASCE/SEI is moving forward with discussion of the issues and their 
implications for structural engineering practice, and looks forward to 
working closely with NIST to clarify the application of these 
recommendations.

NIST Recommendations Referenced:

Recommendation 1. NIST recommends that: (1) progressive collapse should 
be prevented in buildings through the development and nationwide 
adoption of consensus standards and code provisions, along with the 
tools and guidelines needed for their use in practice; and (2) a 
standard methodology should be developed--supported by analytical 
design tools and practical design guidance--to reliably predict the 
potential for complex failures in structural systems subjected to 
multiple hazards.

Recommendation 2. NIST recommends that nationally accepted performance 
standards be developed for: (1) conducting wind tunnel testing of 
prototype structures based on sound technical methods that result in 
repeatable and reproducible results among testing laboratories; and (2) 
estimating wind loads and their effects on tall buildings for use in 
design, based on wind tunnel testing data and directional wind speed 
data.

Recommendation 3. NIST recommends that an appropriate criterion should 
be developed and implemented to enhance the performance of tall 
buildings by limiting how much they sway under lateral load design 
conditions (e.g., winds and earthquakes).

Recommendation 4. NIST recommends evaluating, and where needed 
improving, the technical basis for determining appropriate construction 
classification and fire rating requirements (especially for tall 
buildings greater than 20 stories in height)--and making related code 
changes now as much as possible--by explicitly considering factors 
including:

        <bullet>  timely access by emergency responders and full 
        evacuation of occupants, or the time required for burnout 
        without local collapse;

        <bullet>  the extent to which redundancy in active fire 
        protection (sprinkler and standpipe, fire alarm, and smoke 
        management) systems should be credited for occupant life 
        safety;

        <bullet>  the need for redundancy in fire protection systems 
        that are critical to structural integrity;

        <bullet>  the ability of the structure and local floor systems 
        to withstand a maximum credible fire scenario without collapse, 
        recognizing that sprinklers could be compromised, not 
        operational, or non-existent;

        <bullet>  compartmentation requirements (e.g., 12,000 
        ft<SUP>2</SUP>) to protect the structure, including fire rated 
        doors and automatic enclosures, and limiting air supply (e.g., 
        thermally resistant window assemblies) to retard fire spread in 
        buildings with large, open floor plans;

        <bullet>  the impact of spaces containing unusually large fuel 
        concentrations for the expected occupancy of the building; and

        <bullet>  the extent to which fire control systems, including 
        suppression by automatic or manual means, should be credited as 
        part of the prevention of fire spread.

Recommendation 5. NIST recommends that the technical basis for the 
century-old standard for fire resistance testing of components, 
assemblies, and systems should be improved through a national effort. 
Necessary guidance also should be developed for extrapolating the 
results of tested assemblies to prototypical building systems.

Recommendation 6. NIST recommends the development of criteria, test 
methods, and standards: (1) for the in-service performance of spray-
applied fire resistive materials (SFRM, also commonly referred to as 
fireproofing or insulation) used to protect structural components; and 
(2) to ensure that these materials, as-installed, conform to conditions 
in tests used to establish the fire resistance rating of components, 
assemblies, and systems.

Recommendation 7. NIST recommends the nationwide adoption and use of 
the ``structural frame'' approach to fire resistance ratings.

Recommendation 8. NIST recommends that the fire resistance of 
structures should be enhanced by requiring a performance objective that 
uncontrolled building fires result in burnout without local or global 
collapse.

Recommendation 9. NIST recommends the development of: (1) performance-
based standards and code provisions, as an alternative to current 
prescriptive design methods, to enable the design and retrofit of 
structures to resist real building fire conditions, including their 
ability to achieve the performance objective of burnout without 
structural or local floor collapse: and (2) the tools, guidelines, and 
test methods necessary to evaluate the fire performance of the 
structure as a whole system.

Recommendation 25. Non-governmental and quasi-governmental entities 
that own or lease buildings and are not subject to building and fire 
safety code requirements of any governmental jurisdiction are 
nevertheless concerned about the safety of the building occupants and 
the responding emergency personnel. NIST recommends that such entities 
should be encouraged to provide a level of safety that equals or 
exceeds the level of safety that would be provided by strict compliance 
with the code requirements of an appropriate governmental jurisdiction. 
To gain broad public confidence in the safety of such buildings, NIST 
further recommends that it is important that as-designed and as-built 
safety be certified by a qualified third party, independent of the 
building owner(s). The process should not use self-approval for code 
enforcement in areas including interpretation of code provisions, 
design approval, product acceptance, certification of the final 
construction, and post-occupancy inspections over the life of the 
buildings.

Recommendation 26. NIST recommends that State and local jurisdictions 
should adopt and aggressively enforce available provisions in building 
codes to ensure that egress and sprinkler requirements are met by 
existing buildings. Further, occupancy requirements should be modified 
where needed (such as when there are assembly use spaces within an 
office building) to meet the requirements in model building codes.

Recommendation 27. NIST recommends that building codes should 
incorporate a provision that requires building owners to retain 
documents, including supporting calculations and test data, related to 
building design, construction, maintenance and modifications over the 
entire life of the building. Means should be developed for offsite 
storage and maintenance of the documents. In addition, NIST recommends 
that relevant building information should be made available in suitably 
designed hard copy or electronic format for use by emergency 
responders. Such information should be easily accessible by responders 
during emergencies.

Recommendation 28. NIST recommend that the role of the ``Design 
Professional in Responsible Charge'' should be clarified to ensure 
that: (1) all appropriate design professionals (including, e.g., the 
fire protection engineer) are part of the design team providing the 
standard of care when designing buildings employing innovative or 
unusual fire safety systems, and (2) all appropriate design 
professionals (including, e.g., the structural engineer and the fire 
protection engineer) are part of the design team providing the standard 
of care when designing the structure to resist fires, in buildings that 
employ innovative or unusual structural and fire safety systems.

Recommendation 29. NIST recommends that continuing education curricula 
should be developed and programs should be implemented for training 
fire protection engineers and architects in structural engineering 
principles and design, and training structural engineers, architects, 
and fire protection engineers in modern fire protection principles and 
technologies, including fire-resistance design of structures.

Recommendation 30. NIST recommends that academic, professional short-
course, and web-based training materials in the use of computational 
fire dynamics and thermostructural analysis tools should be developed 
and delivered to strengthen the base of available technical 
capabilities and human resources.

                     Biography for James R. Harris

Experience

    Jim is well versed in structural engineering practice and research. 
He has designed or evaluated hundreds of structures ranging from 
dwellings to high-rise buildings including industrial facilities, long 
spans, buildings in the highest seismic zones, excavation bracing, pile 
and pier foundations, vibration issues, and renovations of historic 
buildings. This background spans nearly all types of construction and 
structural materials and includes responsibility for management of all 
design disciplines. His experience includes six years of full-time 
research. His research has focused on the loading and response of 
structures, particularly earthquake and snow loadings. A second focus 
is on improving the formulation and use of engineering standards. He 
has written over 30 reports and journal articles on the results of his 
research and practice. He is an active member of several committees 
that produce national standards for structural engineering practice.

Education

Ph.D., University of Illinois, 1980, Structures and Foundations

MSCE, University of Illinois, 1975, Structures

BSCE, University of Colorado, 1968, Structures

Registration

Colorado: Professional Engineer #11118

California: Civil Engineer #34192; Structural Engineer #2640

Idaho: Professional Engineer #10309

Missouri: Professional Engineer #E-22713

Ohio: Professional Engineer #52667

National Council of Engineering Examiners Record #8449 (currently 
inactive)

Professional Employment

1984-      J.R. Harris & Company, Principal, Denver

1981-84    Structural Consultants, Inc., Principal, Denver

1975-81     National Bureau of Standards, Center for Building 
        Technology, Research Structural Engineer, Gaithersburg, MD

1973-75    University of Illinois, Graduate Research and Teaching 
        Assistant

1969-73    Zeiler and Gray, Engineer and Associate, Denver

1968-69    Ken R. White Company, Engineer, Denver

Awards

        <bullet>  Structural Engineering Institute of the American 
        Society of Civil Engineers, Walter P. Moore, Jr., Award, 2002.

        <bullet>  Building Seismic Safety Council of the National 
        Institute of Building Sciences, BSSC Honor Award, 1997.

        <bullet>  Colorado Engineering Council, Certificate of Honor, 
        1997.

        <bullet>  U.S. Federal Emergency Management Agency Outstanding 
        Public Service Award, 1986.

        <bullet>  U.S. Department of Commerce Bronze Metal Award for 
        Superior Federal Service, 1981.

        <bullet>  District of Columbia Council of Engineering and 
        Architectural Societies National Capital Award for Special 
        Achievement, 1981.

        <bullet>  University of Colorado Department of Civil 
        Engineering Ketchum Award for outstanding graduating senior, 
        1968.

Professional Society Membership

        <bullet>  American Concrete Institute; Fellow

        <bullet>  American Consulting Engineers Council

        <bullet>  American Institute of Steel Construction

        <bullet>  American Society of Civil Engineers

        <bullet>  American Society for Testing and Materials

        <bullet>  American Welding Society

        <bullet>  Coalition of American Structural Engineers

        <bullet>  Earthquake Engineering Research Institute

        <bullet>  International Association for Bridge and Structural 
        Engineering

        <bullet>  International Conference of Building Officials

        <bullet>  The Masonry Society

        <bullet>  National Society of Professional Engineers

        <bullet>  National Trust for Historic Preservation

        <bullet>  The Post Tensioning Institute

        <bullet>  Structural Engineers Association of Colorado

Professional Committees and Activities (current)

        <bullet>  American Concrete Institute: Member, Committee 318, 
        Standard Building Code, and subcommittees on Seismic Provisions 
        and on Safety, Serviceability, and Analysis

        <bullet>  American Institute of Steel Construction: Member of 
        Task Committees on Seismic Provisions, Emeritus Member of 
        Specification Committee; Former Chair, Committee for the Design 
        for Blast Resistant Steel Buildings

        <bullet>  American Society of Civil Engineers: Chairman, 
        Committee for Minimum Design Loads for Buildings and Other 
        Structures (ASCE 7); formerly Chairman, Task Committee on 
        Earthquake Loads

        <bullet>  American Society of Civil Engineers: Member, 
        Executive Committee for Codes and Standards Activities Division 
        of the Structural Engineering Institute

        <bullet>  American Society of Civil Engineers: Member, core 
        team for the Pentagon to study building performance in the wake 
        of the September 11, 2001, attacks

        <bullet>  Applied Technology Council: Member, Board of 
        Directors

        <bullet>  Building Seismic Safety Council: Member, Provisions 
        Update Committee, Technical Subcommittee on Structural Design; 
        Code Resource Support Committee; formerly chair of committee 
        that produced 1985 edition of NEHRP Recommended Provisions 
        (first edition), plus activity on several other technical 
        subcommittees

        <bullet>  International Standards Organization, Chair of U. S. 
        Technical Advisory Group for TC 98, Bases for the Design of 
        Structures

        <bullet>  Mid-American Earthquake Engineering Research Center: 
        Member, Executive Advisory Board (Chair 2002-3)

        <bullet>  Portland Cement Association: Member, Concrete 
        Technology Advisory Council

        <bullet>  Structural Engineering Institute of ASCE: member of 
        Board of Governors

        <bullet>  Structural Engineers Association of Colorado: 
        Chairman, Committee on Seismic Standards and Member, Committee 
        on Snow Loads; President, 1990

        <bullet>  The Masonry Society: Member, Board of Directors

    Chairman Boehlert. Thank you very much. Mr. Corbett.

  STATEMENT OF PROF. GLENN P. CORBETT, ASSISTANT PROFESSOR OF 
       FIRE SCIENCE, JOHN JAY COLLEGE OF CRIMINAL JUSTICE

    Mr. Corbett. Thank you, Chairman Boehlert. Chairman 
Boehlert and Members of the House Committee on Science, my name 
is Glenn Corbett. I want to thank you for the opportunity to 
testify again before you concerning NIST and the World Trade 
Center disaster investigation. Before I discuss the 
investigation, I would first like to extend my thanks to you, 
Chairman Boehlert, and the House Science Committee, for 
initiating the creation of the National Construction Safety 
Team Act, and shepherding it through Congress to final approval 
by President Bush. The American public is the beneficiary of 
this critical legislation, and will reap the benefits of your 
labors through the savings of lives and the construction of 
safer buildings.
    Additionally, I must also note that although I am a Member 
of the Federal Advisory Committee to the National Construction 
Safety Team, I do not speak on their behalf. My testimony 
represents only my own opinions. I recommend that the House 
Committee on Science review the annual reports of the NCST 
Advisory Committee for details on their perspective.
    Over three years have passed since NIST began its 
investigation into the World Trade Center disaster. We now have 
come to the conclusion of this $16 million effort of a search 
for answers about what happened in the twin towers. The 
investigation has taken much longer than anticipated, including 
the fact that the World Trade Center Building Number 7 
investigation will likely not be completed until next summer.
    Although NIST has done quite a bit of work and has amassed 
many thousands of pages of useful research, I feel that the 
investigation has fallen far short of what is needed. From the 
beginning, I had hoped for a true investigation with a tight 
set of specific recommendations at the conclusion, that could 
be immediately passed to our national code writing groups and 
trade associations. Instead of passing a blazing torch of 
detailed recommendations, this lengthy marathon race has 
resulted in NIST giving our model code writing groups only a 
handful of flickering embers that, although generally good in 
principle, are entirely too vague. The model code writing 
groups now have to wait even longer while NIST hires an outside 
organization to prepare a set of recommendations that actually 
can be assimilated into our construction codes.
    During the course of the WTC investigation, I have had 
serious concerns about some of the findings and conclusions 
that NIST has drawn. Other individuals, including some people 
on the Federal Advisory Committee, have also had concerns. 
While this hearing is not the appropriate place to debate 
technical issues, I would suggest that a more formal mechanism 
be developed to officially address comments from the public. 
Such a protocol should include the technical basis for which 
NIST rejects or accepts the content of a public comment.
    Overall, I have been disappointed by the lack of 
aggressiveness that has characterized not only the World Trade 
Center investigation, but the Rhode Island Station Nightclub 
investigation as well. Instead of a gumshoe inquiry that has 
left no stone unturned, I believe the investigations were 
treated more like research projects, in which they waited for 
information to flow to them. In both investigations, they were 
reluctant to use the subpoena given to them under the NCST Act. 
To some extent, this lack of assertiveness was likely the 
result of legal opinions given to NIST by staff attorneys.
    Recently, this situation was greatly amplified by NIST's 
reluctance to respond to Hurricanes Katrina and Rita under the 
banner of the NCST Act. I suggested to NIST that they assemble 
an NCST team for Katrina before it struck the Gulf Coast. They 
actually sent a handful of people a week after Katrina hit, and 
only recently sending a much larger group of researchers to the 
area. Curiously, they have decided not to respond under the 
NCST Act.
    To their credit, NIST has brought many talented people to 
the WTC investigation. They have expended a tremendous amount 
of effort, compiled a great deal of technical data, pushed the 
technical limits of computer models, and identified the general 
areas of concern where improvements in safety regulation and 
practice are called for. They are to be commended for their 
extraordinary research efforts, given the immensity of the 
project.
    With respect to the 30 recommendations that NIST has 
developed, despite being vague, they are areas of significant 
importance. I feel the following particular ones deserve 
greater attention. These recommendations concern enhanced 
structural fire resistance, redundancy for fire protection 
systems in tall buildings, enhanced egress capabilities, 
including dealing with stairwell counterflow, remoteness of 
exits, and full building evacuation capacity, hardened 
elevators for egress, as well as robust communication 
capabilities for emergency responders.
    Where do we go from here with regard to the World Trade 
Center? The ball is in NIST's court, and it is up to them, with 
their contractor, to quickly whittle the desirable but too 
general recommendations into well-defined code language that 
can be quickly moved through the model code review process. I 
strongly encourage them to be bold, use their best engineering 
judgment, and come up with clear and concise code language. 
High rise fire safety and safety in general is held in the 
balance.
    When I look to the future of the NCST Act, sadly, I find it 
necessary to recommend that serious consideration be given to 
finding a new agency to implement the Act. I don't think that 
NIST is the right place for the NCST. Their nonaggressiveness, 
their absence of investigative instinct, and the palatable lack 
of interest they have shown in the Act has brought me to this 
conclusion. NIST is an organization of exceptional scientists 
and engineers, not detectives.
    Short of creating an entirely new Construction Safety Team 
Board, I would recommend that serious consideration be given to 
moving the NCST to the U.S. Chemical Safety and Hazard 
Investigation Board. They are a close fit. They investigate 
explosions and chemical disasters in and around structures. 
They deal with many of the same code writing bodies that NIST 
deals with, including some of the organizations represented on 
this panel today. More importantly, they are solely an 
investigative agency that issues recommendations. Perhaps their 
purview could be expanded to include the NCST Act.
    In conclusion, I want to again thank you, Chairman 
Boehlert, and the House Committee on Science, for taking the 
leadership role in creating the NCST Act. The fact that it has 
drawn the attention of many people sitting here today, and the 
organizations included on this panel today from the safety and 
construction fields, is a testament to its importance.
    Thank you.
    [The prepared statement of Mr. Corbett follows:]

                 Prepared Statement of Glenn P. Corbett

    Chairman Boehlert and Members of the House Committee on Science: My 
name is Glenn Corbett. I want to thank you for the opportunity to 
testify before you concerning NIST and the World Trade Center disaster 
investigation. Before I discuss the investigation, I would like first 
extend my thanks to you, Chairman Boehlert, and the House Committee on 
Science for initiating the creation of the National Construction Safety 
Team Act and shepherding it through Congress to final approval by 
President Bush. The American public is the beneficiary of this critical 
legislation and will reap the fruits of your labors through the saving 
of lives and construction of safer buildings.
    Additionally, I must also note that although I am a member of the 
Federal Advisory Committee to the National Construction Safety Team, I 
do not speak on the committee's behalf. My testimony represents only my 
opinions. I recommend that the Committee on Science review the annual 
reports of the NCST Advisory Committee for details on their 
perspective.
    Over three years has passed since NIST began its investigation into 
the World Trade Center disaster. We have now come to the conclusion of 
this $16 million effort search for answers about what happened in the 
twin towers. The investigation has taken much longer than anticipated, 
including the fact that the World Trade Center (building) 7 
investigation will likely not be completed next summer.
    Although NIST has done quit a bit of work and has amassed many 
thousands of pages of useful research, I feel that the investigation 
has fallen far short of what is needed. From the beginning, I had hoped 
for a true investigation with a tight set of specific recommendations 
at the conclusion that could immediately be passed to our national 
code-writing groups and trade associations. Instead of passing a 
blazing torch of detailed recommendations, this lengthy marathon race 
has resulted in NIST giving our model code-writing groups a handful of 
flickering embers that although are generally good in principle are 
entirely too vague. The model code-writing groups now have to wait even 
longer while NIST hires an outside organization to prepare a set of 
recommendations that can actually be assimilated into our construction 
codes.
    During the course of the WTC investigation, I have had serious 
concerns about some of the findings and conclusions that NIST has 
drawn. Other individuals, including some people on the federal advisory 
committee, have also had concerns. While this hearing is not the 
appropriate place to debate technical issues, I would suggest that a 
more formal mechanism be developed to officially address comments from 
the public. Such a protocol should include the technical basis for 
which NIST rejects or accepts the content a public comment.
    Overall, I have been disappointed by the lack of aggressiveness 
that has characterized not only the World Trade Center investigation 
but the Rhode Island Station Nightclub investigation as well. Instead 
of a ``gumshoe'' inquiry that left no stone unturned, I believe the 
investigations were treated more like research projects in which they 
waited for information to flow to them. In both investigations, they 
were reluctant to use the subpoena power given to them under the NCST 
Act. To some extent, the lack of assertiveness was the likely the 
result of the legal opinions given to NIST by staff attorneys.
    Recently, this situation was greatly amplified by NIST's reluctance 
to respond to hurricanes Katrina and Rita under the banner of the NCST 
Act. I suggested to NIST that they assemble a NCST team for Katrina 
before it struck the Gulf Coast. They actually sent a handful of people 
a week after Katrina hit, only recently sending a larger group of 
researchers to the area. Curiously, they have decided not to respond 
under the NCST Act.
    To their credit, NIST has brought many talented people to the WTC 
investigation. They have expended a tremendous amount of effort, 
compiled a great deal of technical data, pushed the technical limits of 
computer models, and identified the general areas of concern where 
improvement in safety regulations and practice are called for. They are 
to be commended for their extraordinary research efforts, given the 
immensity of the project.
    With respect to the 30 recommendations that NIST has developed--
despite being vague, they are areas of significant importance--I feel 
the following particular ones deserve greater attention. These 
recommendations concern enhanced structural fire resistance; redundancy 
for fire protection systems in tall buildings; enhanced egress 
capabilities including dealing with stairwell counterflow, remoteness 
of exits, and full building evacuation capacity; hardened elevators for 
egress; and robust communications capabilities for emergency 
responders.
    Where do we go from here with regard to the World Trade Center? The 
ball is in NIST's court, and it is up to them (with their contractor) 
to quickly whittle the desirable but too general recommendations down 
into well-defined code language that can be quickly moved through the 
model code review process. I strongly encourage them to be bold, to use 
their best engineering judgment, and come up with clear and concise 
code language. High-rise safety is held in the balance.
    When I look to the future of the NCST Act, sadly I find it 
necessary to recommend that serious consideration be given to finding a 
new agency to implement the Act. I don't think that NIST is the right 
place for the NCST. Their non-aggressiveness, their absence of 
investigative instinct, and the palatable lack of interest they have 
shown in the Act have brought me to this conclusion. NIST is an 
organization of exceptional scientists and engineers, not detectives.
    Short of creating an entirely new National Construction Safety Team 
Board, I would recommend that serious consideration be given to moving 
the NCST to the U.S. Chemical Safety and Hazard Investigation Board. 
They are a close fit: they investigate explosions and chemical 
disasters in and around structures. They deal with many of the same 
code-writing organizations that NIST deals with, including some of the 
organizations represented on this panel today. Most importantly, they 
are solely an investigative agency that issues recommendations. Perhaps 
their purview could be expanded to include the NCST Act.
    In conclusion I want to again thank you, Chairman Boehlert, and the 
House Committee on Science for taking the leadership role in creating 
the NCST Act. The fact that it has drawn the attention of many people 
and organizations from the safety and construction fields is a 
testament to its importance.

                     Biography for Glenn P. Corbett

    Glenn P. Corbett is an Assistant Professor of Fire Science at John 
Jay College of Criminal Justice in New York City, an Assistant Chief of 
the Waldwick, New Jersey Fire Department, and a Technical Editor of 
Fire Engineering magazine. He also serves as a member of the Federal 
Advisory Committee to the National Construction Safety Team at NIST.
    He was formerly the Administrator of Engineering Services for the 
San Antonio, Texas Fire Department.

    Chairman Boehlert. Thank you very much, Mr. Corbett. Mr. 
Green.

  STATEMENT OF HENRY L. GREEN, PRESIDENT, INTERNATIONAL CODE 
                         COUNCIL (ICC)

    Mr. Green. Thank you, Mr. Chairman, and good morning to you 
and the distinguished Members of this committee. It is indeed a 
pleasure to be here today to discuss the role of building codes 
and standards in the protection of the public through enhanced 
measures in building safety. I am Henry Green, President of the 
International Code Council, and immediate past chair of the 
National Institute of Building Sciences Board of Directors.
    Through my testimony today, I hope to not only discuss how 
the NIST recommendations can be employed in improving building 
safety across the country, but also to leave you with a broader 
understanding of the International Code Council and its role in 
protecting the public health, safety, and welfare by creating 
better codes and standards to make for better buildings and 
safer communities.
    ICC, as you may be aware, is the product of a consolidation 
of three regional code organizations, who came together at the 
urging of public and private sector interests seeking a single 
set of nationally uniform model codes for use in this country. 
As a result, the ICC now provides states and local government 
with a single set of codes upon which to base commercial and 
residential building standards for the safety of the public. It 
has also given the federal sector a platform upon which to 
transition from the government developed standards to voluntary 
standards, as directed by OMB Circular A-119 and the National 
Technology Transfer and Advancement Act of 1995.
    Today, virtually all states and localities using a model 
code adopt codes developed and maintained through a 
governmental consensus process facilitated by the International 
Code Council. The codes bind together hundreds of building 
standards developed by voluntary sector standard developers, 
including many of those on this panel, and NFPA, ASTM, ASCE, 
ASHRAE, and others. The codes provide the administrative and 
technical language necessary for meaningful and consistent 
adoption and code enforcement and results in the protection of 
the public's health, safety, and welfare.
    Because we are all focused on disaster response, I would 
like to take a moment, if I may, to address concerns regarding 
the construction codes and standards as they relate to the 
recent disaster resulting from Hurricanes Katrina and Rita and 
now, Wilma. As demonstrated in the hurricane that struck 
Florida over a year ago, and from earlier high wind events that 
have caused devastation in the United States, we have learned 
that compliance with codes and standards provide benefits in 
securing the safety of the public in the built environment, as 
well as reducing mitigation costs in recovery following these 
events.
    ICC has worked with both federal and State agencies in 
assisting in the recovery and rebuilding efforts in the Gulf 
region, and is establishing a resource office in the Gulf 
region to assist in the rebuilding efforts. When codes and 
standards are used effectively, we know that for every dollar 
spent in prevention, we gain a residual of $3 to $5 in savings 
in recovery efforts.
    The Committee requested a brief discussion or understanding 
of the process of ICC, of how ICC facilitates all interests, 
interested parties in the preparation and the development of 
the international codes. While I would enjoy today to give you 
an exhaustive explanation of that process, I am sure you 
wouldn't sit through it, so we will forego that. My extended 
testimony does, however, speak to, more to the point, for your 
reference. My oral remarks, may it suffice to say that our 
processes both predate and is consistent with the principles 
embodied in NTTAA and the OMB A-119, as well as internationally 
accepted practices, or principles in consensus development. As 
with any democratic process, like that which guides this body, 
it is deliberative, exhaustive in examination, time-consuming, 
and requires much more care and attention. The result is an 
abiding respect for both the process and the resulting quality 
and confidence the codes, in the codes that our members 
produce.
    I would like to proceed to the questions that have actually 
been posed by this panel, and respond to those. Does ICC 
support the recommendations of the NIST study? Events such as 
the structural failure of the World Trade Center shake to our 
core our faith in science, engineering standards, and means of 
ensuring building safety that we use to protect our lives, our 
property, and our economy. The ICC has worked with NIST in 
examining the collapse of the World Trade Center and the 
development of recommendations for reform of the Nation's 
building and fire codes and standards.
    We have acted in support of the NIST recommendations by 
empanelling technical committees of member experts to 
prioritize the recommendations and prepare specific proposals 
that will be addressed by our code development process. Also in 
support of the recommendations, ICC responded to NIST requests 
for review of the document, the draft report, earlier with 
extensive comments directed at assessing NIST, assisting NIST 
in the clarity of its discussion and findings.
    The majority of NIST recommendations on the subject of 
codes and standards do apply to the international building 
code. Again, I would reference you to my pre-filed remarks for 
a summary of our specific remarks on the NIST report. It should 
be noted that the questions posed by the committee is focused 
on new construction and significant renovation of existing 
buildings. As we focus on code reform, we should not ignore the 
needs to address the safety of ongoing use of our massive base 
of existing building stock.
    What specific steps will ICC be undertaking to determine 
whether and how to incorporate the NIST recommendations into 
the codes? Some of the steps associated with the NIST 
recommendations, we have already begun. As a result of the 
World Trade Center attacks, the ICC formed an ad hoc committee 
on terrorist resistant buildings. The committee, made up of 
code officials, engineers, architects, and other building 
professionals, is looking at the NIST work and other research 
in response to new threats that we know now have to perpetually 
address.
    In addition, we have charged our permanent Code Technology 
Committee to specifically prioritize the NIST recommendations, 
and to prepare them as code change proposals. In the two days 
just before this hearing, our Code Technology Committee has 
been meeting with the National Institute of Building Sciences 
to coordinate the work in developing and preparing proposals 
based upon the NIST recommendations.
    As to timing, the next code development cycle begins with a 
deadline of March 24, 2006, for any interested party to submit 
code changes. Through a multi-stage process of technical 
committee examination, two public hearings, and two stages of 
public notice and comment, final action on those proposals in 
the fall of 2007 will yield the 2007 supplement to the 2006 
international building code. This process is repeated every 18 
months, resulting in a new edition of the code every three 
years, and a new supplement in each interim.
    The most significant barrier to adoption, as with any code 
change proposal, is having technical documentation for the 
membership to review the consideration of specific code changes 
and the advanced use of formal and informal processes of 
discussion and review, to fully vet and analyze each proposal.
    What specific actions will NIST be taking to help 
organizations incorporate its recommendations? It is our view 
that NIST and other federal agencies already do participate in 
the code development processes through submission of and 
advocacy of code changes. This participation both adds to the 
quality of the review of all proposed changes, and helps the 
agencies to achieve their program goals, as directed by both 
executive and legislative branches of the government. This sort 
of federal interagency coordination is precisely what is 
necessary for NIST to advance the recommendations of the WTC 
report.
    The NIST recommendations do not need to be reframed in a 
manner that is consistent with the statutory construction of 
the ICC codes. In the simplest terms, the probability of a code 
change being accepted or eventually incorporated is dependent 
on the degree to which the existing code is changed, first, and 
life-cycle cost impact associated with the change, availability 
of any required new technology, and support infrastructure for 
the technology, impacts on various trade, labor, and 
manufacturing interests, and product--and impacts on the 
interests of advocacy groups. This process is quite similar to 
what you use here in this legislative body to develop law and/
or other regulations.
    ICC has recommended to NIST that it further partner with 
interested and affected parties in the development of codes and 
standard proposals, as opposed to taking up the effort alone, 
and assuming others will take the lead. In addition, ICC has 
also stressed to NIST that without their involvement and 
leadership in this process, there are two probable outcomes: 
either nothing can be done to implement the WTC findings in 
codes and standards; or multiple and varied interests will each 
use the findings to their own advantage, resulting in multiple 
and varied non-uniform code and standards proposals, that will 
be much more difficult and time-consuming.
    With that said, there are some certainties associated with 
the process. Changes that are not enforceable, and require 
specific products or materials by name, are not likely to be 
accepted, nor are the changes that reference codes and 
standards that have not been fully completed. We at ICC applaud 
the work of Congress and support of Congress in this matter, 
such that was conducted by NIST. We encourage continued support 
for such work by Congress, and increased collaboration by the 
public and private sectors in enhancing public performance and 
safety.
    Finally, I would like to quote one section out of the NIST 
report that I think is really focused on the issue of codes and 
standards. ``Rigorous enforcement of building codes and 
standards by State and local agencies, well-trained and 
managed, is critical in order for standards and codes to ensure 
the effective level of safety. Unless they are complied with, 
the best codes and standards cannot protect occupants and 
emergency responders or buildings.''
    Thank you again for the opportunity to speak today, and I 
would be pleased to answer any questions that you might have.
    [The prepared statement of Mr. Green follows:]

                  Prepared Statement of Henry L. Green

    Good morning Mr. Chairman and distinguished Members of the 
Committee. It is a pleasure to be here today to discuss the role of 
building codes and standards in protecting the public through enhanced 
measures in building safety.
    I am Henry Green, President of the International Code Council 
(ICC). Through my testimony I hope to discuss how the NIST 
recommendations can be employed in improving building safety across the 
country, as well as leave you with a broader understanding of how ICC 
is protecting health, safety and welfare by creating better buildings 
and safer communities. Certainly the subject of today's hearing and the 
ICC's mission is well-aligned. Aside from my elected position with ICC, 
I also serve as the Director of The Bureau of Construction Codes and 
Fire Safety for the State of Michigan.
    I am participating in today's hearing to specifically address the 
implementation of the lessons learned from the world trade center (WTC) 
collapse. In more general terms my comments also apply to and stress 
the need for increased collaboration between Federal, State and local 
government in the development, adoption and implementation of codes and 
standards to enhance the safety and performance of new and existing 
buildings.
    As a matter of background, I have been involved with building codes 
and standards development, adoption, implementation and enforcement 
issues at the international, national, State and local level for almost 
30 years, serving not only ICC but such organizations as the National 
Institute of Building Sciences (NIBS), of which I serve as Past 
President. Briefly, before I speak to the questions the Committee has 
asked me to address, I will lay a foundation for a better understanding 
of ICC's responses to those three specific questions.
    State and local government have relied on nationally recognized 
model codes, and the standards referenced in those codes, as a basis 
for their building construction regulations for almost 100 years. 
Initially many State and local government agencies wrote their own 
``home grown'' provisions but over time they began to rely more and 
more on one of four regional model codes (the BOCA National Code, the 
ICBO Uniform Code and SBCCI Standard Code and the National Building 
Code of the American Insurance Association). The AIA ceased maintenance 
of its model code almost 30 years ago and just recently the three other 
model code organizations merged to form the International Code Council 
(ICC). The merger of the three regional organizations came at the 
urging of public and private sector interests seeking a single 
nationally uniform model building code developed through a voluntary 
consensus process. The development of one family of model codes by the 
ICC, which in turn reference standards from hundreds of building 
standards developers such as ASCE, ASME, and ASTM, has provided State 
and local government with a single national consolidated family of 
model codes upon which to base commercial and residential building 
construction and fire safety regulations. It has also given the federal 
sector a platform upon which to transition from government developed 
standards to voluntary standards, as directed by OMB Circular A-119 and 
the National Technology Transfer and Advancement Act of 1995.
    Today the majority of State and local agencies adopt building and 
fire codes developed and maintained through the governmental consensus 
process facilitated by the ICC. Think of these model codes as a 
coordinated set of provisions that bind separate and distinct building 
component standards so they can fully address the technical and 
administrative aspects of building safety and performance. In most 
states I-Code based building codes are required and enforced as a 
function of State-level authority. In others, such as Tennessee, 
Maryland, Colorado and Illinois, the authority to adopt and enforce 
codes primarily resides with local government, and in those states most 
all local governments adopt ICC model codes to guide residential and 
commercial construction.
    In parallel to the events leading up to the formation of the ICC 
and development of the ICC codes, the federal executive and legislative 
branches of government established the groundwork for the federal 
sector to increasingly base their building regulations on nationally 
recognized model building codes as opposed to writing their own unique 
provisions. As a matter of national policy, established through OMB 
Circular A-119 and the NTTAA, all federal agencies are encouraged to 
use codes and standards developed in the voluntary sector and, equally 
important, to participate in the voluntary sector code and standards 
development processes. This policy eliminates the duplication of effort 
and conflict in application that occurred when federal agencies 
developed and maintained unique government standards. This policy also 
enhances voluntary sector standards development by infusing those 
processes with the experience and resources of federal agencies such as 
NIST.
    This federal policy also saves time and money and ensures 
consistency between public and private sector construction. Such 
consistency is important to designers, contractors, manufacturers, and 
other entities doing business with both the private and public sectors. 
Consistency is also imperative where the structure in question is a 
private sector facility that is leased to a federal agency. Such a 
facility must concurrently satisfy federal as well as State and local 
building requirements. Most importantly, federal sector use of 
voluntary sector codes and standards allows for public-private 
partnerships that can bring the result of building research and 
experience to bear on revision and enhancement to those codes and 
standards. Such is the case with the NIST investigations associated 
with the WTC.
    In summary, what not too long ago was a ``crazy quilt'' of 
differing federal, State and local requirements, each supported by 
separate and distinct educational and other programs, has become a 
tapestry with a singular foundation that involves public and private 
sector interests and allows for unique federal, State and local threads 
without compromising the quality of the fabric of the tapestry.
    As we are all focused on disaster response I would also like to 
take a moment to address concerns regarding construction codes and 
standards as they relate to the recent disasters resulting from 
Hurricanes Katrina and Rita. As demonstrated in the hurricane that 
struck Florida last year and from earlier high wind events that have 
caused devastation in the U.S., we have learned that compliance with 
codes and standards provides benefits in securing the safety of the 
public in the built environment, as well as reducing mitigation costs 
in recovery following these events.
    ICC has pledged to work with both federal and State agencies in 
assisting in the recovery and rebuilding efforts in the Gulf region. We 
believe our effort will assist in providing a higher level of safety 
not only from such devastating events as hurricanes but in prevention 
of fires and other situations that plague our built environment. When 
codes and standards are used effectively, we know that for every dollar 
spent in prevention we gain a residual of three dollars in savings in 
recovery cost.
    We will be providing a resource office in the Gulf Region to assist 
in the rebuilding efforts by furnishing local governmental and code 
officials with the resources they need to assure the reconstruction is 
completed to a standard that will assist in minimizing damage and 
recovery cost.
    Given our experience and the working relationship we maintain with 
federal agencies, we would like to expand our relationship and further 
develop safety provisions for the protection of America's citizens.
    In addition to responding to the questions regarding the NIST WTC 
report that the committee put to the ICC it was asked that in my 
testimony I provide the committee with a brief description of the code 
development process used by the membership of the ICC to build and 
maintain each of the 14 model codes, and with an understanding of how 
and where the model codes are adopted by authorities having 
jurisdiction over the adoption and enforcement of regulations impacting 
building design, construction and maintenance.
    The widespread national application of the IBC and other ICC codes 
is due in large part to the recognition of respect for the voluntary 
consensus process by which the codes are developed. They are developed 
in a democratic process with input and advocacy from both private and 
public sector building and fire safety interests and any other 
interested or affected party. ICC's governmental consensus process 
adheres to the guiding principles at the national and international 
level for development of consensus documents. These principles--
openness, transparency, balance of interest, due process, consensus and 
process of appeals are embodied in the governmental consensus process. 
The uniquely notable quality of the governmental consensus process is 
that it leaves final determinations on code provisions in the hands of 
public safety officials, who, like myself, are charged with 
representing the public interest and have no commercial interest 
associated with the outcome the process.
    In this process any interested party can submit a change to the 
codes or request that a new code be developed. All submittals are 
published and made available for public review. All submittals are then 
published and made available for written comment and discussed at 
nationally noticed public hearings. At the first public hearing a 
committee of balanced interests listens to all testimony, reviews all 
information submitted on each proposal, then votes to recommend 
approval, rejection or approval with modification. If any party at the 
hearing disagrees with the committee recommendation the process 
provides for action by those at the hearing to make and democratically 
act on a proposal for a substitute motion.
    The results of the first hearing, both the committee recommendation 
and any substitute assembly action are published and disseminated in 
print and electronic form. Anyone can then submit a public comment on 
those results and provide documentation supporting a different outcome. 
The committee recommendation and additional public comment is again 
published and becomes the basis for the agenda of a final action 
hearing at which time the proposed changes and public comment are 
considered. At the final action hearing the final vote on code content 
is made by public safety officials, which, not unlike the legislative 
and regulatory processes used to establish federal law and regulations, 
is made by Federal, State and local government representatives who 
represent the public-at-large.
    The IBC and other ICC codes are used by Federal, State and local 
government to ensure building safety through the adoption, 
implementation and enforcement of these codes. Nearly every federal, 
State and local agency that enacts building codes has adopted the IBC 
as the basis for jurisdictionally controlled building laws and 
regulations. Jurisdictional adoption occurs through legislative or 
regulatory action that cites or directly incorporates the IBC and may 
also include amendments that specifically tailor the code to the needs 
of the adopting agency or jurisdiction. For instance, the U.S. 
Department of State adopts the IBC as a basis for U.S. Embassy 
construction worldwide but then adds provisions to address security 
needs unique to a U.S. diplomatic facility.
    States such as Michigan, Minnesota, Maryland, Washington, New York, 
Oregon, North Carolina and Utah have authority in the executive branch 
of government to develop and adopt a state-wide building code and do 
so, again with amendments that tailor the IBC to address unique 
geographic and climatic issues and differing legal and administrative 
environments. In states without authority to adopt state-wide codes, or 
where local governments are not required to adopt the state code, the 
state adopts codes for state-owned buildings and leaves regulation of 
private sector construction to local government. This is the case in 
states such as Tennessee, Colorado and Illinois with local government 
having the authority to adopt codes and Maryland that has a state code 
but does not have preemptive authority to mandate local government 
action to adopt and enforce the code. Just as is the case with state 
adoption, local adoption is effected through local elected bodies or 
regulatory agencies.
    Subsequent to adoption, the IBC is used to ensure building safety 
through a number of mechanisms, each of which are focused on ensuring 
that the requirements of the code are actually adhered to in the 
construction of the building. Adoption of the code can be viewed as 
establishing a speed limit for highway travel. Though the limit is set, 
it is meaningless unless the limit is posted and enforced to ensure 
traffic safety. So too, federal, State and local agencies have ways to 
ensure code compliance and, as a result, building safety. Note that the 
IBC not only contains design and construction requirements but also a 
number of administrative criteria associated with inspection to ensure 
compliance in the field.
    In the case of an agency that adopts the IBC and is also the 
building owner--such again as the U.S. Department of State, or State or 
local government agency responsible for State or local owned 
construction--the adopting agency enforces the code and typically does 
so as a function of the contracting process that governs the building 
design and construction. The contractor is responsible for compliance 
and may be subject to inspection from the authorizing governmental 
agency, may be subject to inspection by other third parties or may be 
allowed to self-certify compliance with penalties assessed in the 
future if non-compliance is verified.
    For private sector construction, building safety is ensured through 
a review of the building plans and specifications for code compliance 
by the applicable State or local agency, inspection of the building for 
code compliance during construction, a final occupancy inspection and 
continued monitoring and evaluation of selected issues during the life 
of the building.
    Now, to the questions the Committee asked that I address.

Does ICC support the recommendations of the NIST study? Why or why not?

    Events such as the structural failure of the World Trade Centers 
shake to our core our faith in the science, engineering, standards and 
means of ensuring building safety that we use to protect our lives, our 
property and our economy. The ICC, from the beginning of this 
investigation, has supported the work of NIST in examining the collapse 
of the WTC and the development of recommendations for reform of our 
nation's building and fire codes and standards. The NIST investigation, 
even as it was in process, began providing the building industry with 
information which has been used to develop and implement new criteria 
in building codes and standards. Last year, as the membership of the 
ICC began the process of evaluating code change proposals for 
publication in the 2006 edition of the codes, a proposal emanating from 
early understandings of the collapse was put forward, thoroughly 
evaluated, discussed and approved. The IBC now requires buildings of 
420 feet and higher to be constructed with structural components having 
at least a three-hour fire resistance rating; the previous requirement 
was a two-hour fire resistance rating for structural components. These 
increased requirements match the changing conditions we face in 
providing for building and fire safety and address the public will to 
afford higher levels of security and protection. In making these 
changes it is also important to protect the integrity of the public 
deliberation inherent in maintaining the democratic development of 
voluntary consensus. We have begun to infuse post-WTC concerns into the 
code, and, as I will speak to in addressing the committee's other 
questions, the ICC has acted in support of the NIST recommendations by 
empanelled technical committees of member-experts to prioritize the 
recommendations and form them into specific proposals that can be 
addressed by our code development process. In addition, we are working 
with other groups, such as the National Institute of Building Sciences 
in efforts to assess the WTC findings and to effectively develop 
proposals for change to the code.
    Also in support of the recommendations ICC responded to NIST's 
request for review of its draft report earlier with extensive comments 
directed at assisting NIST with the clarity of its discussion and 
findings. The majority of NIST recommendations on the subject of codes 
and standards do apply to the IBC. These are noted below with a brief 
indication of how ICC gauges their potential applicability.

        <bullet>  NIST calls for more rigorous enforcement of codes. 
        ICC believes a more appropriate term than enforcement is 
        compliance. Enforcement is a means to achieve the goal of safe 
        buildings, something embodied in compliance. There are other 
        ways to secure compliance such as incentives or labeling that 
        not only ensures the goal is reached but can secure results 
        above and beyond simple enforcement of minimum codes and 
        standards.

        <bullet>  NIST calls for well trained and managed staff and 
        educational programs. ICC agrees and feels that NIST and other 
        federal agencies can and should become more active in working 
        with the private sector to develop and deploy programs that 
        would strengthen the resources that support code compliance.

        <bullet>  NIST suggests an increased focus in structural issues 
        from a design, construction, and operations and maintenance 
        standpoint. The IBC, and referenced standards therein such as 
        those from ASCE, provide a basis for measuring and expressing 
        structural performance and ensuring some agreed minimum level 
        of structural integrity in buildings.

        <bullet>  NIST suggests an increased focus in the fire 
        resistance of structures and methods to evaluate and determine 
        their performance with respect to fire. The IBC, and referenced 
        standards therein such as those from ASTM, provide a basis for 
        measuring and expressing building performance from the 
        standpoint of fire resistance and ensuring some agreed minimum 
        level of performance.

        <bullet>  NIST suggests increased consideration of performance 
        based criteria as an alternate to prescriptive criteria. The 
        IBC addresses this in two ways. In establishing minimum 
        prescriptive criteria the IBC establishes a basis to evaluate 
        alternative approaches to performance equivalency. The IBC also 
        references the ICC building performance code, a stand-alone 
        code that is completely performance-basis oriented. It is 
        notable that NIST staff has been involved in the development of 
        this performance-based code.

        <bullet>  NIST suggests development and use of new materials, 
        coatings, barriers and other technology. The IBC addresses this 
        by allowing acceptance of alternative materials and methods of 
        construction when they are certified to perform at least as 
        well as items specifically allowed in the IBC. Equivalency is 
        based on evaluation reports developed through engineering 
        analysis prepared by entities approved by the authority 
        enforcing the code. As new certified materials become more 
        commonplace standards are proposed and adopted to specifically 
        address criteria for their application and use.

        <bullet>  NIST recommends improvements in active fire 
        protection systems. The IBC and referenced standards therein, 
        such as those by NFPA, provides a basis for review and 
        incorporation of such improvements.

        <bullet>  NIST recommends improvements in building egress and 
        evaluation. As I have discussed, the IBC provides a basis for 
        review and incorporation of such improvements.

        <bullet>  NIST recommends improvements to emergency response, 
        building access, communications and central controls. The IBC 
        provides a basis for review and incorporation of such 
        improvements.

    On the basis of the WTC investigation NIST has made a number of 
recommendations to improve building safety. The IBC provides a basis to 
address and take action on proposals for these recommendations and, 
through adoption as previously noted, ensure their widespread 
implementation throughout the U.S. In this manner the NIST work on the 
WTC report can have a significant impact on future building design and 
construction.
    It should be noted that the question posed by the committee is 
focused on the IBC, which is used to guide new construction and 
significant renovations to existing buildings. There is also a need to 
address the safety of the on-going use of our massive base of existing 
buildings. Through the ICC, safety requirements for these buildings are 
addressed through documents such as the ICC International Existing 
Buildings Code (IEBC) and ICC International Fire Code (IFC). Through 
the NFPA these issues are addressed in the Life Safety Code and the 
National Fire Code. Jurisdictional use of these codes, coupled with 
incentive programs to foster enhancement to existing buildings, can 
address building safety where it may not be possible to legislate 
renovation.

What specific steps will ICC be undertaking to determine whether and 
how to incorporate the NIST recommendations into its codes? How long 
should that process take? What will be the greatest barriers in the 
process?

    Some of the steps associated with taking action on the NIST 
recommendations, as I have discussed, we have already begun. As a 
result of the WTC attacks and the need to consider code changes to 
address terrorism-related issues in the built environment, the ICC 
formed an Ad Hoc Committee on Terrorism Resistant Buildings. The 
committee--made up of code officials, engineers, architects and other 
building professionals--is looking at the NIST recommendations as well 
as other research related to responding to new threats that we now have 
to perpetually address. In addition, at the annual assembly of our 
membership last month, the ICC charged our permanent Code Technology 
Committee with a corresponding assignment to specifically prioritize 
the NIST recommendations and to prepare those recommendations as 
proposals for the deliberate review of our code development process. In 
the two days just before this hearing our Code Technology Committee has 
been meeting with the National Institute for Building Sciences to 
coordinate work in developing and preparing proposals based on the NIST 
recommendations.
    For the next code development cycle any recommendations to revise 
the IBC and other ICC codes can be submitted by any party, including 
NIST staff or parties with whom NIST participates, on or before March 
24, 2006. The recommended changes, as discussed, need to provide 
specific language and citations to amend the code and need to be 
accompanied by supporting documentation. It is our view that the 
information gathered and analysis conducted by NIST on the WTC collapse 
would prove instrumental in development of changes and supporting 
documentation.
    As to the standards referenced in the IBC, NIST would have to take 
similar action with each standards developer based on individual 
procedures and deadlines.
    The timeframe associated with the next cycle of the ICC code 
development process is from March 24, 2006, at which time proposed 
changes are due as noted above, to October 4, 2007 with the completion 
of the final action hearing. The result of this process will yield the 
2007 supplements to the 2006 editions of each code. This process is 
repeated every 18 months, resulting in a new edition of the codes each 
three years and a new supplement each interim.
    More details on this process are covered in a PowerPoint 
presentation presented and discussed with NIST staff earlier this year. 
The objective of ICC's initiative with NIST staff, in advance of 
release of the WTC report, was to advise NIST of the full extent of the 
public process or code amendment so that NIST could begin to develop a 
strategy for implementing the WTC report recommendations in parallel to 
completion of the report. In this way it was hoped NIST could develop 
specific codes and standards proposals prior to the March 2006 
deadline. One such suggestion was for NIST to not only take the lead in 
development of proposed changes to the IBC and other ICC codes but also 
to parallel that activity by submitting those changes to federal 
agencies and key State and local government for early consideration for 
action.
    The most significant barrier, as with any code change proposal, is 
having technical documentation for the membership to review in 
consideration of specific code change proposals, and the advance use of 
formal and informal processes of discussion and review to fully vet and 
analyze each proposal.

What specific actions should NIST be taking to help code organizations 
incorporate its recommendations? Are the recommendations framed in a 
way that facilitates their adoption by code organizations or are they 
too general or too specific?

    NIST, as well as a number of other federal agencies, do already 
participate in the code development process through submission of and 
advocacy for code changes. This participation both adds to the quality 
of the review of all proposed code changes and helps the agencies to 
achieve their program goals as directed by both executive and 
legislative branches of government. For instance the U.S. Department of 
Energy has submitted changes to the IBC in the past to more fully 
address the structural and fire resistance aspects of buildings 
associated with certain radiation-related processes. This will 
specifically help address DOE interests as a building owner as well as 
the general public. This sort of federal interagency coordination is 
precisely what is necessary for NIST to advance the recommendations of 
the WTC report through ICC's code development process, as well as the 
code and standards development of other providers of voluntary 
consensus standards. Another example is participation by the Consumer 
Product Safety Commission in realization that the ICC codes are 
effective vehicles to achieve CPSC's public safety goals where they may 
not have otherwise have rule-making authority.
    As I've discussed, the recommendations are not written in a way 
that facilitates direct adoption and do need to be reframed in a manner 
that is specific to the desired result, consistent with the statutory 
construction of the ICC codes, and presented in a manner that provides 
citation to each section and subsection of the code that is directly or 
collaterally impacted by the proposal; not too much unlike the manner 
in which legislation this panel reviews must be framed to be consistent 
with the standing body of our U.S. Code. The prospects of the adoption 
of any recommended change to the IBC or other ICC codes cannot be 
addressed without seeing the details of the particular change. The 
nature of the process to develop codes and standards within the 
voluntary sector, in allowing for participation by all interested and 
affected parties, ensures full due consideration with respect to all 
views and variables.
    In the simplest terms, the probability of a code change being 
accepted and eventually incorporated into the IBC or other ICC codes 
and maintained in federal, State and local adoption of those codes is 
dependent on the degree to which the existing code is changed, first 
and life cycle cost impacts associated with the change, availability of 
any required new technology and support infrastructure for that 
technology, impacts on various trade, labor and manufacturing 
interests, and impacts on the interests of advocacy groups, among other 
factors. In this manner the effects on the process are quite similar to 
what the legislative or executive branches go through in considering 
laws or regulations that impact U.S. industry, public interests, the 
economy and the environment.
    The ICC has recommended to NIST that, as the degree of revision 
associated with changes to the codes and standards increases, NIST 
should consider partnering with interested and affected parties in the 
development of codes and standards proposals as opposed to taking up 
the effort alone or assuming others will take the lead. In addition ICC 
has also stressed to NIST that without their involvement and leadership 
in this process there are two probably outcomes; either nothing will be 
done to implement the WTC findings codes and standards, or multiple and 
varied interests will each use the findings to their own advantage 
resulting in multiple, varied and non-uniform codes and standards 
proposals that will be much more difficult and time consuming to sort 
out, address and eventually agree upon.
    With that said, there are some certainties associated with the 
process. Changes that are not enforceable or require specific products 
or materials by name are not likely to be accepted, nor are changes 
that reference standards that have not been fully completed.
    As an association comprised building regulatory and construction 
industry professionals who come together to establish model codes for 
use by the public and private sectors, the ICC is focused on building 
and fire safety. The ICC codes provide a platform and foundation for 
achieving improved building safety. The process for their revision and 
enhancement is open to all and affords NIST and all others the 
opportunity to take the results of research, investigations and studies 
and have them, through the wide adoption of the ICC codes, put into 
practice.
    We at ICC applaud all the work supported by Congress, such as that 
conducted by NIST. We encourage continued support for such work by 
Congress and increasing collaboration by the public and private sectors 
in enhancing building performance and safety.
    Thank you again for the opportunity to speak with you today. I will 
be pleased to answer any questions you have or provide additional 
information you may need.

                      Biography for Henry L. Green

    In 1989 Henry L. Green was appointed Executive Director of the 
Bureau of Construction Codes and Fire Safety. Henry has worked in the 
Bureau for more than twenty years serving as a building inspector, 
Chief of the Barrier Free Design Division, Chief Building Inspector and 
as Deputy Director before assuming his current role.
    As Executive Director, Henry provides management and oversight for 
construction and fire safety programs in the state of Michigan. These 
program responsibilities include the development and implementation of 
construction codes and standards, fire fighter training, building, and 
fire inspection programs, public fire safety education, and the state 
fire marshal.
    Additionally, Henry serves as Project Director for the Michigan 
Timely Applications and Permit Service (MiTAPS), an on-line processing 
system for permits and licenses issued by the State of Michigan, and 
serves as President of the International Code Council Board of 
Directors, an organization of which he is a founding member.
    Henry has also served on the Building Officials and Code 
Administrators (BOCA) Board of Directors for ten years, serving as 
President in 1997. He also serves as a member of the Board of Directors 
of the National Institute of Building Sciences, recently completing a 
term as Chairman of the Board of Directors in 2004.
    Over the years, Henry has been recognized nationally and 
internationally as a proponent for developing and implementing building 
and fire safety initiatives and codes. In 1990, the Automatic Fire 
Alarm Association (AFFA) named Henry ``Man of the Year'' for his 
contributions to life safety as Chairman of the BOCA Ad Hoc Committee 
for Fire Protection. AFFA acknowledged, ``under his fine leadership, 
the committee developed numerous code changes to the BOCA National 
Building and Fire Prevention Codes. . .and significantly improved life 
safety in both new and existing construction.''
    In 1998, Henry received the ``Distinguished Service to Government'' 
award from the Building Industry Association of Southeastern Michigan 
and was awarded the Walker S. Lee Award in recognition of outstanding 
service to BOCA International in 1999.
    In addition to serving the state of Michigan, Henry has 
participated in national and international code forums representing 
building code officials at World Organization of Building Officials 
conferences in Hong Kong and Australia.
    A life-long resident of Lansing, Michigan, Henry serves as a member 
of the Trustee Ministry and Building Construction Committee at his 
church, Union Missionary Baptist Church. He is a former President of 
the Woodcreek Parent Teacher Association and served on the Waverly High 
School Parents Advisory Committee.
    He, and his wife Angela, are the parents of two grown sons, William 
and Jason.

                               Discussion

    Chairman Boehlert. Thank you very much, Mr. Green. As all 
of you have observed, we have been rudely interrupted by a call 
of the House. The Speaker doesn't check first with the Science 
Committee to see how we are doing in our proceedings before 
determining whether or not we are going to be voting. So, we 
are going to have to take a recess for about 20 minutes, while 
we answer the call of the House. It is my understanding that 
there will be two votes, and on this vote, there are exactly 
six minutes and 41 seconds left for us to get over to the 
Capitol.
    I will just leave you with a couple of thoughts before we 
come back and begin the questioning in earnest. I think, Mr. 
Corbett, you asked the most profound question of the moment. 
Where do we go from here? And that is our determined effort, to 
determine where we go from here, and how we get there. I would 
point out that Dr. Jeffrey didn't direct the study or conceive 
it. He inherited it, and he is the new guy on the block, and we 
have got to deal with that fact of life.
    Secondly, I would point out that if you look at the report, 
some observers might say it is bold and comprehensive. Others 
might charge that it is vague. I think it is a little bit of 
both, and where it is bold and comprehensive, we have to seize 
upon the direction and guidance given us. Where it is vague, we 
have to flesh out some of the details, and get a little more 
specificity. And that is what we are going to direct our 
questioning to, as we return from this rude interruption.
    And I will let the Speaker know that you all share my view 
that he rudely interrupted this proceeding. With that, let us 
adjourn for 20 minutes.
    [Recess.]
    Chairman Boehlert. We will start again. Members will be 
drifting back from the floor activity. Understandably, our 
focus will be on the report, and particularly, Dr. Jeffrey, 
your commentary will be welcome. Doctor, several of the 
witnesses have implied, and Mr. Green and Mr. Corbett have 
stated quite explicitly, that NIST recommendations are not 
presented in a specific enough form to fully inform the code 
writing process. This is obviously a very serious matter, and 
we recognize that. I am sure you do, too.
    Let me ask you a series of questions, and then, I will shut 
up and listen to your response. Why did NIST choose to present 
its recommendations in this fashion, and why have you only now 
contacted NIBS, the National Institute of Building Sciences, 
and when will NIBS' document be completed, and to what extent 
will NIST review the document, and finally, and very 
importantly, will NIST be making specific recommendations to 
the ICC prior to March, because if they don't come prior to 
March, well, that just adds more time to the whole process?
    So, I know it is a tall order. I have asked those 
questions, and I see you furiously taking notes. And let me, 
once again, acknowledge the fact that I recognize that you 
didn't direct this study. You inherited it. But you are the guy 
on the block now, and you are the point man, and we have a high 
regard for you, and we want to work cooperatively with you, but 
we want to do as much as we can to eliminate vagueness and 
concentrate on specificity.
    The floor is yours.
    Mr. Jeffrey. Thank you, Mr. Chairman.
    I did inherit this, but I am very proud of what I 
inherited. I think the NIST team, and working with the outside 
experts, have done a phenomenal job on this.
    In terms of the first question, why were they couched in 
this fashion, this level of specificity? The actual detailed 
recommendations are in the end of the summary report, Chapter 
9, and so I hope everybody takes a look at that. That is where 
there is a little bit more detail on them. But the real trade-
off is we aimed for performance-based. As I am fairly new to 
the codes and standard setting organizations, I have learned to 
appreciate the process as they go forward. And this is very 
much of a give and take. It is a consensus-building. It is a 
very open, consensus-built process, and the point is to try to 
put forward the guidance as to what needs to get done. And I 
believe that the NIST recommendations do a very, very good job 
of defining the what in terms of the recommendations.
    The specifics of the how is where you now need to do the 
tradeoffs between different organizations, different vested 
interests, and the whole process of how the standard setting 
organizations and the code model organizations define this is 
this give and take between the different vested interests from 
the builders, developers, engineers, public safety----
    Chairman Boehlert. I am going to interrupt you here, and--
--
    Mr. Jeffrey. Sure.
    Chairman Boehlert. But just let me, I mean, do you disagree 
with what Mr. Green said, specifically, the recommendations are 
not written in a way that facilitates direct adoption. And how 
can you have give and take on vagueness?
    Mr. Jeffrey. I believe that the recommendations are 
specific in terms of the performance, but we now need to go 
through this consensus process of turning those into the 
specific language that the code developers can use in their 
national model codes. And this is that step of, now, using the 
National Institute of Building Sciences, and working with these 
organizations to address those very concerns. That is the next 
step, and we are working with them. In the process of being 
very open, I was very pleased to hear several of the witnesses 
talk about actually starting this process during the 
investigation itself, as some of the recommendations started to 
become apparent.
    And so, I think that it is at the appropriate level of 
detail now, as I believe Mr. Green also stated, that if we 
over-specified them, they would also have a higher risk of 
rejection. So, it is that delicate balance of trying to do the 
consensus. In terms of the timeline, we are very much committed 
to meeting the requirements as appropriate. For example, right 
now, what we are going through is all of the recommendations, 
with NIBS and with others, to identify those codes where we can 
get the language in place to meet the March 2006 deadline.
    Chairman Boehlert. So, you are personally committed to that 
March deadline.
    Mr. Jeffrey. Absolutely. Some of the recommendations, as 
has been pointed out in the documents and by some of the 
witnesses, require more work in terms of some of the research 
and development, and so, what we are trying to do is separate 
those with NIBS, to identify those that can go forward very 
quickly, those that require a little bit more detail, in terms 
of the research.
    Chairman Boehlert. So, when is NIBS going to be ready, and 
you are going to have their report, you are going to evaluate? 
What is the timeline there?
    Mr. Jeffrey. It is going to be actually more of an ongoing 
process where we would expect that as a lot of the language 
becomes available, they are going to be submitting these. As I 
said, there is going to be a set by March 2006. I will actually 
defer to the expert here, Shyam Sunder, who ran the 
investigation, and is running the NIBS contract, on is there a 
specific final deliverable and a date. I am not trying to put 
you on the spot, Shyam.
    Chairman Boehlert. Well, come on up and identify yourself 
for the purposes of the record.
    Mr. Sunder. I am Shyam Sunder. I am Deputy Director of the 
Building and Fire Research Laboratory, and lead investigator of 
the----
    Chairman Boehlert. We will provide seats, if you would like 
to have a seat. You know, we don't want you----
    Mr. Jeffrey. You are more generous than I am, so----
    Mr. Sunder. Thank you.
    There are--we will prioritize the recommendations, so that 
those that are ready for the March deadline will go to the 
March deadline, and those that are ready for the next three 
year cycle, which would be a deadline six to eighteen months 
after that, we would go for that. But the people on our 
committee, the NIBS committee, do represent the organizations 
around this table. So, we have official representatives from 
those organizations.
    Chairman Boehlert. All right. Let me ask some of the other 
witnesses. Mr. Green, Mr. Corbett, let us go down the line. 
What is your reaction to what he said? Is that good enough?
    Mr. Green. Well, we are committed to working with them and 
NIST to make sure that they have in line for March code changes 
that are appropriate, to the degree that we can get through 
after we prioritize. I think that once that is accomplished, 
getting it in the context of submission for code language is 
somewhat easy, because we will have the experts working with 
them at NIBS to put it in that context. That is what we need to 
do.
    The language that is used in the report is not here is how 
you would put it in the code body, and that is why we have the 
people sitting at the people with them. So, I am confident that 
we can get through this process, albeit we may not get through 
all of the recommendations, but those that we can get through, 
we will have them ready for March.
    Chairman Boehlert. Mr. Corbett, what do you say?
    Mr. Corbett. I am glad to hear that they are committed to 
March. I think everyone recognizes that the code development 
process is a long one to begin with, and if we could have 
truncated this somehow, and got that process of recommendation, 
preparation, started during the investigation itself. Because 
some of these, I think, are kind of no-brainers. I mean, there 
are things that we could have been doing perhaps a year and a 
half ago.
    Chairman Boehlert. Yeah, but as you said so eloquently, 
where do we go from here? So, we can't re-create what----
    Mr. Corbett. Right, right.
    Chairman Boehlert.--is already----
    Mr. Corbett. Well, I think----
    Chairman Boehlert.--behind us.
    Mr. Corbett. I think, you know, from my perspective, if 
they are committed to a March timetable, I mean, that is a 
pretty quick turnaround, I would think. I mean, from my 
perspective. As far as having so many people involved here. I 
mean, NIBS is bringing 15 or 20 people into this process here, 
so----
    Chairman Boehlert. But--let me ask you--and I will get to 
Dr. Harris and Ms. McNabb.
    Mr. Corbett. Yeah.
    Chairman Boehlert. My red light is on, so I will go to Mr. 
Miller in a second, but are you comforted by what Dr. Jeffrey 
is saying in his testimony now, in his response to these 
questions? Do you feel that we are on-course and we are going 
to be timely with specific recommendations, and there is enough 
time before March to have that so-called give and take he is 
referring to, and that we are going to produce something worthy 
of note?
    Mr. Corbett. Yeah. As I said, I think I had hoped that it 
would have been a lot sooner, but I mean, this is a commitment 
they have made, and I appreciate that. I think it is telling, 
also, that the NFPA and ICC both have made changes years ago, 
on some of these things we are talking about today. I mean, the 
fact is that this investigation has gone beyond what even the 
code groups themselves have done on their own. So, I think that 
is--we have got to shorten this process for the future.
    Chairman Boehlert. Dr. Harris or Ms. McNabb, do you have 
any comment? Microphone.
    Mr. Harris. Sorry. I am comforted by what Dr. Jeffrey says, 
and if you recall, the last thing I said was, this process is 
going to take a long time. And let me tell you why I said that. 
In February of 1970 or '71, there was a significant earthquake 
in the San Fernando Valley of Southern California, and it 
demonstrated that buildings built according to the then most 
current building codes and standards would not perform well in 
what could only be considered a moderate earthquake at the 
time. That got the attention of several federal agencies. They 
commissioned some studies to essentially realize that finding, 
and make recommendations that building codes and standards 
needed to be brought up to the state of knowledge, if you will, 
that existed in the research community. That process took about 
a quarter of a century.
    The knowledge base wasn't intended to be expanded, per se, 
just get that knowledge base into mandatory requirements and 
codes and standards. It happened in several stages. There were 
things that did occur within three years of that event in 
interim updates to some building codes. About six years later, 
there was an act of Congress that was passed, the Earthquake 
Hazard Reduction Program. That took some time. Even following 
that, there was another major milestone in about 1988 in the 
building codes, and another one in 1997. It takes a long time 
to incorporate some of these changes. Now, some of the ones are 
very narrow scope detailed, and I think you may see action on 
them beginning in March. That is fine.
    Some of them, like the one I happen to be the most 
concerned with, number one, increasing the structural integrity 
in buildings, and providing resistance to progressive collapse. 
That is not an easy nut to crack. In fact, there, we probably 
even need more basic knowledge. And so, it is going to take a 
long time before everything that NIST has uncovered and 
recommended is addressed, and it will not all happen in one 
fell swoop.
    Chairman Boehlert. Ms. McNabb.
    Ms. McNabb. Yes. NFPA has already made a number of changes 
to our codes and standards, as a result of the NIST 
investigation. We don't really need the NIBS process, because 
our process is a consensus one. We bring together all the 
stakeholders in our process, so it is not just the enforcers 
who are making the final decision. It is, you know, the users 
of the buildings, the laborers, the insurers, the design 
professionals. We have nine categories of stakeholders that 
participate in our process. We have the technical expertise.
    And after the NIST investigation began, we set up a High 
Rise Safety Advisory Committee to look at high rise safety, and 
to be ready for the NIST report, because we recognized that it 
is really society's role to take the recommendations, the 
science, and set the thresholds, and determine which buildings 
should these recommendations apply to, and to weigh that and 
balance the risk and the safety as it is.
    Were we frustrated that the recommendations were not more 
specific? In some cases, yes, because the other investigation 
that we were familiar with was the Station Nightclub 
investigation, and that investigation done by NIST was much 
more specific than that World Trade Center investigation. So, 
we feel that they could have been more specific in some cases, 
but again, you know, just by its very nature, the 
investigation, the largest building failure investigation, I 
think, is going to come up with some science that needs to be 
studied and thought about, and all the viewpoints need to be 
brought in. And that is what we are doing.
    Chairman Boehlert. Well, it is good to know that we are 
moving forward on several fronts, but we are impatient, 
understandably. A lot of people are impatient, understandably, 
and a lot of people want action as quickly as possible. And I 
am reminded of another issue, acid rain, which is one of my pet 
concerns, and people kept calling for more studies, more 
studies, more conversation, more give and take. And I remember 
Governor Kean, at the time, who ironically headed the 9/11 
Commission, Governor Kean saying if all we do is continue to 
study the problem, we will end up with the best documented 
environmental disaster in history.
    So, I think we are all very anxious to get going with some 
degree of specificity, with something that is tangible, that we 
can get a hold of, and we appreciate the fact that some of 
these things are going to be time-consuming, but time is a 
wasting. With that, Mr. Miller.
    Mr. Miller. Thank you.
    I understand that building codes are designed to be a 
balance between risk and cost. If something is a serious risk, 
we will expect people to pay money to provide against that 
risk, to incur expense to provide against that risk. But if 
something is a real remote possibility, we will be less 
inclined to do that.
    Dr. Jeffrey, I was struck by your testimony and by Ms. 
McNabb's about whether NIST recommendations for building codes 
should apply to every building, every commercial building the 
same. Most of the discussions about our terrorism risk have 
assumed that there is some possibility that there would be 
truly a random attack on any garden variety commercial building 
in America, but the most likely targets are what homeland 
security has called iconic buildings, buildings of high 
symbolic value. The World Trade Center. The Pentagon, obviously 
both of those. The John Hancock Center. The Empire State 
Building. Dr. Jeffrey, I have practiced law for a while, in a 
garden variety six story office building in the North Hills 
area of Raleigh called the Landmark Center. It was Class B 
space. That was fine. I had kind of a Class B law practice. Why 
on Earth would you expect the Landmark Center on Six Forks Road 
in Raleigh to have the same standards of preparation against 
terrorist attack that the John Hancock Center would have?
    Mr. Jeffrey. Thank you, Mr. Miller. Actually, the actual 
building codes that get adopted are at the State and local 
level. First, you know, that is part of the political process 
within the State and local governments as to what is 
appropriate for that specific setting.
    Secondly, in the report, NIST does recommend that the 
owners of the iconic buildings, much like the ones you have 
mentioned, may want to view a higher level of preparedness than 
the average--the report specifically does not try to recommend 
that every building in the Nation be able to survive an attack 
with a fully loaded 747. And so, it does try to make that 
distinction, and calls out the iconic buildings separately.
    Mr. Miller. Should that be something dealt with by--that 
sliver of commercial properties, that are the most likely 
terrorism targets, should those be dealt with by Congress, 
rather than leaving that to local building codes?
    Mr. Jeffrey. I am not sure that I am actually qualified to 
respond to where the State and local versus federal roles 
should plan.
    Mr. Miller. All right. Well, Ms. McNabb, what is your 
thought on this? Do you think that the Landmark Center ought to 
have essentially the same standards applied to it that apply to 
the John Hancock Center?
    Chairman Boehlert. Let me interrupt here. Now, I won't take 
this from your time, but you know, this is not just about 
terrorist attack. It is about wind, it is about fire, it is 
about a whole bunch of other things that may not involve any 
terrorist activity, but we know we don't know enough, and I am 
not quite certain we know what we don't know, but we know we 
don't know a hell of a lot, and with that, Dr. Jeffrey----
    Mr. Miller. Mr. Chairman, could you diagram that sentence 
for me? Ms. McNabb. Dr. Jeffrey, did you want to respond now?
    Mr. Jeffrey. No, I will wait.
    Mr. Miller. Okay. Ms. McNabb.
    Ms. McNabb. I don't think you can make a building terror-
proof, and I don't think that you can have a code that, you 
know, sets forth terror-proof regulations, because by 
definition, terror is finding out what people have planned for, 
and then doing something above and beyond that to scare them or 
hurt them. So, I don't think that that is reasonable. I do 
think that there--that after 9/11, we see that it is important 
to set the threshold for some buildings differently. And even, 
I will say, high rise construction has progressed so much that, 
you know, what we used to think of as a high rise now is, has 
gone very, very high. And so, maybe it is time to think about 
different thresholds for tall buildings.
    That, I think, is part of what we want to do when we bring 
all of the players. Perhaps, it is not just a threshold for how 
high the building it is or how iconic the building is, but 
where it is located in terms of the urban fabric, that is, that 
surrounds it. So, those are all things that we need to take 
into consideration, and unfortunately, catastrophes are what we 
respond to, rather than common sense. I mean, we could be 
moving forward on this on a regular basis, but people's 
attention isn't on it regularly, even though the science 
progresses, and we learn more about how to provide elevators 
for tall buildings, and we learn more about different 
technologies that can help us construct buildings. We don't 
move along on the safety as quickly, I think.
    Mr. Miller. Okay. It is striking to me that there does not 
appear to be a sense of urgency in the private sector about 
agreeing upon a standard for private sector preparedness, of 
what is expected of them. The 9/11 Commission devoted all of 
about a page and a quarter to private sector preparedness, but 
essentially said it should be the law of civil liability, 
negligence, and insurance considerations, and underwriting. It 
should be financial incentives that moves American business to 
take steps, care, that are appropriate to the risks they face. 
And suggest further industry standards, which it seems NIST 
might very well be part of.
    The initial estimate of the insurance loss from 9/11 was 
$40 billion. It turned out to be $32 billion. The difference 
was all liability claims, that Congress' compensation for 
victims made compensation contingent upon waiving liability 
claims. So, everyone except the passengers on the airplanes, of 
their families, waived the liability claims, because those were 
very uncertain claims, given how stunned the Nation was by 9/11 
and the very idea that we should have anticipated that and 
provided against it, something that seemed beyond our 
imagination. It won't be beyond our imagination the next time.
    I would think American business, that commercial real 
estate, would be pushing hard for an industry standard, some 
standard that makes very clear what should be expected of them, 
not just so they can do the right thing, and so that they will 
not go to bed thinking that people died when people could have 
lived if they had something different. But for the simple, 
pragmatic reason that they will have a defense to a negligence 
claim to show that they met the standard of care that was 
expected of them, that there was an honest standard. But in 
this hearing, and in other discussions in other committees, 
there seems to be no such urgency. Do any of you have any, do 
you sense that there is an urgency, and if not, why not?
    Ms. McNabb.
    Ms. McNabb. We have a standard, NFPA 1600, on emergency 
preparedness, that encourages the public and private sector to 
come together and ask themselves a series of questions. And I 
think that is the kind of thing that works, because you and 
your facility, if it is located, and I believe it is being used 
in New York City, you look at what the hazards are in your 
building, what the population is, what the context is, and you 
answer a series of questions, and then you plan for those. You 
provide, you know, your employees with what they need, the 
information they need, places to go if it is a biochemical 
event. Places to go if it is fire, if it is, you know, and if 
follows through and allows them to plan for different kinds of 
emergencies. So, it is out there, and it is being used and 
adopted.
    Mr. Miller. Mr. Corbett.
    Mr. Corbett. I will just add that I testified before the 9/
11 Commission on this specific issue, and I think, 
unfortunately, they missed the mark as far as the other piece 
of it. We have talked--she just mentioned NFPA 1600, which 
deals with the people side of preparedness for issues of 
terrorism, things like that. But what, really, they missed was 
the need for some kind of document, some kind of ruler to 
measure the level of protection provided for iconic buildings, 
with specific regard to terrorism, because the code groups have 
up until this point not developed anything, and I applaud the 
ICC, because they actually did create a committee to address 
those issues. ASCE has a committee on blast-resistant design, 
but you are right. There has been no rush to have at least, 
again, not a requirement, but at least a set of guidelines or a 
ruler that you can measure a building against to say yes, this 
building is well prepared for a terrorist attack, versus one 
that perhaps is not. Thank you.
    Chairman Boehlert. Thank you. Dr. Jeffrey, does NIST have 
any estimates of the costs of implementing the recommendations, 
and were costs a factor in making their recommendations, and do 
you think cost should be a factor in determining whether to 
adopt the recommendations?
    Mr. Jeffrey. Thank you. Cost was not a factor in making the 
recommendations. These were, again, performance-based. Part of 
the process of having all of the different groups represented, 
including the building operators, the engineers, the 
architects, the standard setting organizations, is for us not 
to specify that specific solution, but for those trade-offs to 
be made, and to try to find the best approach. And then, 
depending upon the situation, some of the expenses may be more 
justified than others. It is much along the lines of the 
sentence that was trying to be parsed. There has got to be a 
risk-based approach to this, and for some situations, some of 
the requirements may make more sense than others. But that is 
part of what this next step is.
    Chairman Boehlert. Ms. Regenhard made some recommendations 
about making a lot of the information more available to the 
public at large relating to the investigation.
    One, do you think she is on to something, and two, why 
aren't more of the deliberations available for public 
consumption, and three, I would be anxious to hear what the 
other witnesses on the panel would say about if she thinks that 
recommendation about making publicly more information 
available?
    Mr. Jeffrey. Thank you. We are actually committed to make 
publicly available as much of the evidence from the 
investigation as we can. A portion of the evidence we received 
from third parties is protected under nondisclosure agreements, 
and we are actually going back to those parties to try to 
figure out exactly how much of that we can release legally.
    In addition, a lot of the photographers have material that 
is copyrighted, and so, we are working with them to try to make 
sure that we have the proper, appropriate copyright protections 
in place, as that data gets released. And also, a lot of the 
interviews that were taken, we are going through all of that 
information to redact out any of the information that might be 
able to identify the individual, to protect their personal 
privacy. But as we go through that process, we are going to be 
releasing a vast amount of that data.
    Chairman Boehlert. Let me ask the other panel members. What 
do you think about that? I mean, should we have more 
information publicly available for review and examination and 
comment and response? Mr. Corbett.
    Mr. Corbett. Definitely. The answer is yes to that. That 
has been one of my concerns on the advisory committee, is that 
for example, all the information dealing with the first person 
accounts, the interviews that NIST had conducted, at one point, 
there was discussion about destroying that information. No 
decision had been made, but that was a possibility at one 
point, and I think now, NIST has basically said at this point, 
it won't be destroyed, but we are still not sure how it is 
going to be disclosed. And I think for the benefit of myself 
and other people that are, weren't part of the investigation, 
that we are kind of on the outside looking in. This is critical 
information for them for other research they are doing also. 
But also, to verify the conclusions, the findings, and of 
course, the recommendations that were, that come about. So, 
critically important to get that information, as much of it 
that can be given.
    Unfortunately, I think this is an issue with the Act that 
NIST ended up in a position of having to sign agreements with 
various entities to not disclose this information, but again, 
this is diametrically opposed to that whole open process that 
we have talked about so many times here today, and also three 
years ago.
    Chairman Boehlert. Well, you know, proprietary information, 
I suppose I can understand that, but if the information is 
subpoenaed, if you ask for information, saying ``please come 
forward and give us all the information you have,'' and they 
say, ``well, we will sign this nondisclosure agreement.'' Why 
would anybody sign a nondisclosure agreement unless there are 
instances, clearly, where you can understand the need for that.
    Mr. Corbett. Totally understandable, and I think this is a 
critical, critical issue that you have brought up, because this 
was certainly an issue for the World Trade Center 
investigation, was certainly an issue for the Rhode Island 
Nightclub investigation, because the Rhode Island Nightclub 
investigation, in my opinion, was effectively shut down because 
they had access to virtually information in the first place, 
the witnesses that were there that day, because the Rhode 
Island Attorney General told them they couldn't have it, and 
NIST really from, I would imagine from their legal staff, 
decided that it wasn't possible for them to have open hearings, 
to solicit information, to issue subpoenas for that 
information, and that is critical. It is critical to this Act, 
and it was critical to what happened with these investigations, 
and----
    Chairman Boehlert. Well, yeah. There is always a balancing, 
delicate balance in there----
    Mr. Corbett. There is, and I have no qualms about 
proprietary information and personal information. That is not 
at issue here. But it affected, especially, that Rhode Island 
investigation, because a lot of the accounts that are recorded 
in the investigation report are from the Providence, Rhode 
Island Journal, the newspaper. They are newspaper accounts. So, 
why didn't we have access to people that actually were there, 
like the Rhode Island Attorney General, and I think that these 
whole legal clouds that have been over these investigations are 
particularly troubling.
    Chairman Boehlert. Anybody else care to comment? Ms. 
Jackson Lee.
    Ms. McNabb. I think the more----
    Chairman Boehlert. Or excuse me, Ms.----
    Ms. McNabb. I think the more sunshine on the process, the 
better it is. I think that in general, in America, there is 
sort of a disconnect between the science and the application of 
the science, and knowing information, and then, knowing then 
what should be done with that information.
    In Katrina, for example, I mean the last NOAA reports that 
we had when they were talking about wind speeds, and what was 
going to happen. It was hard to get people to understand the 
implications of the science, and they started saying things 
like dogs and cats will be living together and it is going to 
shake buildings. The more science that NIST can give us, and 
the more information that we have, I think the better off it 
will be for the public, because they will understand that 
building regulations don't just come out of a vacuum and from 
the building police, that there is a reason for, perhaps, 
raising the cost of construction, or perhaps making some trade-
offs, or doing things differently.
    Chairman Boehlert. In almost all cases, more information, 
rather than less, is desirable if you are reviewing and serious 
about making recommendations to prevent something in the future 
from happening.
    Did you want to add something?
    Mr. Jeffrey. Just a short statement, that we are absolutely 
committed to that. We agree with that. I think the entire 
process that we have tried to follow has been as open as 
possible, as described. The number of open meetings, the number 
of comments received. And we are committed to trying to release 
as much of the data as we legally can, and so, we know, we 
approve and agree with the statements.
    Chairman Boehlert. Ms. Jackson Lee.
    Ms. Jackson Lee. I have been on this committee a sufficient 
number of years to remember the hearings that we had 
immediately after 9/11 to discuss a number of elements, 
including the question of the building safety and security, but 
also, a number of other issues dealing with interoperability 
and science, that could have been affected, particularly in the 
area dealing with fire protection. So, I am gratified that we 
are now here for a hearing that has to do with a report that 
has been rendered.
    I am interested in the testimony of Ms. Regenhard. Are you 
able to come to the table, or answer any questions? I would be 
delighted to have you--let me. And let me thank you, first of 
all, for your testimony, and accept my tardiness because I was 
flying in on a late flight. But I thought this hearing was 
important enough for me to be able to come and to assess the 
testimony, and to hear from you as well.
    You made, I think, a very potent point, which is that there 
was a sensitivity that the NIST study was not detailed enough, 
that it seemed to have some political ramifications. They may 
not have been on the ground, and many of us have been to Ground 
Zero. I serve on the Homeland Security Committee, as many of 
the Members of this Science Committee does, and we have a very 
visual sense of the need.
    Can you share with us what more you would want, would have 
wanted NIST to do, or where were the political correctness 
issues that you think really didn't do the appropriate, or did 
not give the appropriate response?, particularly as you have 
faced a personal loss in the loss of your son, and you have my 
deepest sympathy?
    Ms. Regenhard. Thank you very much.
    First of all, I just want to preface my comments with 
saying I often introduce myself in the way that I am basically 
just a little mother from the Bronx, and really, that is what I 
am, and I am not a technical person. However, I do have, over 
the last four years, you know, the input from my wonderful 
technical advisory panel, which represents some excellent, 
excellent people in the academic fields, and certainly, you 
know, in structural engineering, fire protection, architecture, 
and evacuation specialists.
    So--but to get back to your question, you know, political 
correctness. I have seen, and the other families of the victims 
have seen the aftermath of 9/11 to be somewhat definitely 
flavored by political correctness in many, many ways, in so 
many ways. But certainly, with the NIST investigation, I mean, 
I understand that it is a wonderful organization of scientists, 
and scientists are not trained to be like NYPD detectives. 
There is a professional and academic way that these kinds of 
organizations deal with one and with other entities. And you 
have other professional people in that investigation that 
should have been really interrogated, such as the Port 
Authority, such as their building plans. You know, the Port 
Authority never turned over their building plans until there 
was an article about it in the front page of the New York Times 
condemning them, or not condemning them, but accusing them of 
really not coming forward. That is one of the examples. People 
like the chief structural engineer for the first World Trade 
Center, you know, his work should have been investigated, 
because after all, he was responsible for the design of that 
building, and the subsequent, and yet, instead of that, he was 
sort of dealt with in a friendly basis, and he was actually put 
on the payroll to explain his plans and all that.
    So, there were these very, you know, maybe because I am a 
layperson, I can't understand why these entities that should 
have been scrutinized and investigated were sort of taken in 
and became part of the investigation. You know, that is just 
one of the examples of where the families were really, really 
deeply concerned about that. And also, the avoidance of certain 
things that were not politically correct, like the avoidance of 
blaming anyone for anything. I mean, we all teach our children 
to obey the law, and to respect authority, and not to break any 
laws, but yet, when we have this investigation of the, I would 
say the needless deaths of nearly 3,000 people, no one is to be 
blamed. It is handled so gingerly. I mean, there is a reason 
why nearly 3,000 people are dead, and I feel the majority of 
them needlessly, but yet, the approach of these investigations 
is very, very tentative, and no one wants to put anyone on the 
line, and no one wants to look into what was the effect of the 
Port Authority immunities from building and fire codes?
    If someone said to me what are the two major grievous 
examples of what went wrong on 9/11 in those buildings? I would 
say the two things are the Port Authority exemptions and 
immunities from New York City building and fire codes, and the 
wholesale failure of the FDNY radio communications, and the 
wholesale failure of the Emergency Management System of the 
City of New York and the Port Authority. And these are the crux 
of the matter. This is the bottom line. Yet, these are the 
issues that were, you know, skirted around and, you know, 
tiptoeing through the tulips, instead of--and still, today, I 
have to fault both the 9/11 Commission and the NIST 
investigation for not taking a stand, for not saying that in 
our country, no building should be above the law, especially 
the Port Authority buildings that were the tallest and largest 
buildings in the world, that at that time, was built to contain 
the largest number of people in the world, and yet, those 
buildings were allowed to be exempt and immune from building 
and fire codes, essentially above the law, and now, we are 
allowing the Port Authority to do the same thing all over 
again.
    The new World Trade Center and the memorial, and every 
single building down there on that property will be just as 
exempt and immune from every single New York City building and 
fire code as the first one. That is an abomination. That is a 
sin. That is an outrage against humanity. And you know, I am 
sorry to get emotional. I expected the NIST investigation and 
the 9/11 Commission to take a stand on that, but you know what, 
it is only the average Joe Q. Citizen. When we break the law, 
we have to pay the consequences, but when we have these huge 
organizations breaking the law, I feel they are not held to the 
same standard as an average citizen, and that hurts.
    Chairman Boehlert. Thank you very much.
    Ms. Regenhard. Thank you. I am sorry. I am talking too 
much. I am sorry.
    Ms. Jackson Lee. Thank you very much for giving us that 
testimony. Mr. Chairman, I would hope that in the course of 
this review, that Dr. Jeffrey of NIST and others who are 
representing the fire protection community, Mr. Green, who has 
several ideas about being able to self-code or self-improve 
your buildings against wind and others, the Katrina story that 
I understand that you shared with us, can respond to her 
inquiry about building codes and immunity. That seems to be an 
indictment of the report from the very start, and I hope we 
will have an opportunity to review that, and I hope Mr. Jeffrey 
will have an opportunity to respond to that indictment.
    Chairman Boehlert. Thank you. The----
    Ms. Jackson Lee. Thank you.
    Chairman Boehlert.--gentlelady's time has expired.
    I would report that we anticipated, in developing the 
legislation that authorized the report and everything, we 
anticipated that there would be a reluctance on the part of 
some to provide information. There would be inertia. And that 
is why we gave subpoena power to NIST, to go in and get the 
information, and it was not NIST's role to assign blame. It is 
NIST's role to investigate, to determine what went wrong, to 
make recommendations on how to go forward, and that is what we 
are determined to work cooperatively with Dr. Jeffrey and the 
NIST people, to make certain it happens the way we want it to 
happen, and that we don't drag our feet, or we don't issue a 
report, and sort of say gee, we did a great job. We have this 
report, and have it not as specific as we would like, or there 
be a lack of follow through.
    And quite frankly, Congress has a responsibility, too. We 
have got to conduct more meaningful oversight hearings. It is 
all well and good for Congress to pass legislation, and then 
put out our press releases, and say boy, we passed this 
legislation dealing with an important problem facing the people 
of the Nation we are privileged to represent, and then go on to 
the next thing. We have got to pause now and then, and look 
back and say, is it working as intended? How can we make sure 
it works more effectively?
    And that is why we are having this hearing today. This 
isn't the first hearing or the second hearing, it is the third 
hearing, and we are going to have more. And we are not ignoring 
Ms. Regenhard and her group. They are very valuable resources 
for this committee, and we listen to them, and we want to work 
cooperatively with them, but we want to work cooperatively with 
everybody.
    So, let me ask you, talking about our responsibility, Dr. 
Jeffrey. In your testimony, you haven't discussed what actions 
should be taken by the Federal Government in response to your 
recommendations. It seems there are a number of steps, not only 
relating to the General Services Administration, but to the 
agencies that run R&D and education programs, including FEMA 
and NSF, and NIST itself. What should the Federal Government be 
doing? Is NIST going to put out any formal document on this, 
and how are you going to work with the other federal agencies 
on these matters?
    Mr. Jeffrey. Thank you, sir.
    There are a number of actions that need to be taken. As I 
mentioned earlier, there are a number of research and 
development programs, for example, that are sure to come out in 
this report. In fact, the report actually highlights where some 
of those R&D efforts are. And you know, a lot of them fall 
under NIST to try to execute. We have made a plug for the 
last--probably the last couple of days I can make this plug, we 
have got a program in the FY '06 President's budget to try to 
address some of those R&D programs, and I am hoping Congress 
looks kindly on that, so we can start to address some of those.
    Chairman Boehlert. No, continue. But how about some of the 
other agencies?
    Mr. Jeffrey. On the other agencies, we need to get 
together. We have not done that yet. There are some of the 
recommendations that involve, especially some of the education 
programs. We have been working a lot with the private sector on 
that. We need to bring in some of the other parts of the 
Federal Government that we have not yet done.
    Chairman Boehlert. Because you know what happens. You know, 
you all march down the, you develop your budget, and then, you 
march down to OMB, and say this is what we want. This is what 
we can justify. Here is the documentation. And then, the cuts 
start happening, particularly in the R&D area, and because that 
is longer range, and we have got to deal with the issue of the 
moment.
    So, we are going to be helpful to you, with respect to 
NIST's particular budget, and quite frankly, what an 
embarrassment the way Congress treated you last round. This 
round, we are going to treat you better, and we are determined 
to see that. You got all friends here, but some of these other 
people, we have got to convince, or don't even know what the 
hell NIST stands for. But you have got to talk to some of the 
other agencies, and have some specific recommendations on what 
they should be doing, and we want to follow through with you on 
that, to make sure we keep on their tails, so to speak.
    Mr. Jeffrey. Absolutely, and I would be very happy to 
follow up with you and your staff on that.
    Chairman Boehlert. All right. Now, I think it is fair to 
say that NIST is making some pretty far-reaching, perhaps even 
revolutionary suggestions here, particularly with regard to 
full building evacuation. All of you, perhaps understandably, 
are hedging your bets at best, in your testimony as to whether 
the recommendations would find their way into code. Is your 
general sense that NIST's approach makes sense? Do these 
recommendations have applicability beyond terrorism, to more--
and I think they should and do--to more routine problems 
encountered in the field, including natural disasters?
    Let me go down the panel, and ask who wants to respond 
first to that? Dr. Harris.
    Mr. Harris.--able to make these recommendations. The 
solution to the terrorism problem is not to really make 
buildings stronger. It is to keep airplanes and things like 
that out of buildings. This event has created a tragic 
misconception, I think, in the minds of the public, that 
buildings actually perform better than typical buildings really 
will perform. The public believes that when a big airplane 
flies into a building, what happens is what happened at the 
World Trade Center and at the Pentagon, that is, the plane 
disappears into the building, and there is a hole. Smoke begins 
to come out, and after a while, some portion, or maybe all of 
the building collapses. That is not what happens when you fly a 
big airplane into most buildings. What happens is----
    Chairman Boehlert. They do know that the building was 
structurally sound. It was the insulation, the foam that was 
blown off, and----
    Mr. Harris. That is correct. What happens with most 
buildings is, in fact, a portion or maybe all of the building 
collapses immediately. Their recommendation number one 
addresses that. But the addressing it is not to make it safe 
for an airplane. It is to make it safe for a satchel bomb, or 
perhaps, a car bomb outside. There are completely different 
issues, all right.
    But that is--the real value of the study is we do need to 
think about that. When we get into this question of iconic 
buildings, there is not just going to be one dividing line, I 
do not believe. We are going to have something for the next 
World Trade Center, certainly. There will be something for the 
City Hall in Denver, Colorado, for example. I had----
    Chairman Boehlert. Well, how about Mr. Miller's six story 
building in Raleigh, because----
    Mr. Harris. And Mr. Miller's six story building probably 
will not be affected by that recommendation, at least in my own 
opinion, it probably would not. And that is not because I 
invest in real estate or construction. It is just I don't think 
it will be. But there will be a gradation, and that is what is 
going to take time to come to, as well as, on that particular 
issue, the technical substance of how you do it is going to 
have to take some time, too. There is no one magic recipe 
there. I would want to get on the record something I had meant 
to say earlier, and commend the General Services Administration 
for the leadership they have been taking on that issue of 
progressive collapse, with the construction of new federal 
courthouses, where they are taking that issue very seriously.
    And I would like to make one other comment, while I have 
the mike. And that is I saw that recommendation number 25 
actually does respond to the issue raised by Ms. Regenhard of 
the Port Authority having an exemption. It is an important 
recommendation here that needs to be carefully considered. 
There are all sorts of legal ramifications about how you 
implement this, so it is not going to come quickly, either. But 
I think the pressure of your bully pulpit, and Congress in 
general, bringing to light the issue of various entities having 
these exemptions, and how you go about fulfilling the promise 
that I am trying to build something as good as the code would 
require. How do you go about that? That is something for, I 
think, all of us to focus. It is----
    Chairman Boehlert. Just let me read into the record. It 
won't take me long. The recommendation number 25, because it is 
very pertinent. ``Nongovernmental and quasi-governmental 
entities that own or lease buildings, and are not subject to 
building and fire safety code requirements of any governmental 
jurisdiction should provide a level of safety that equals or 
exceeds the level of safety that would be provided by strict 
compliance with the code requirements of the appropriate 
governmental jurisdiction. To gain broad public confidence in 
the safety of such buildings, NIST further recommends that as 
designed and as built, safety be certified by a qualified third 
party, independent of the building owner or owners. The process 
should not use self-approval for code enforcement in areas 
including interpretation of code provisions, design approval, 
product acceptance, certification of the final construction, 
and post-occupancy inspections over the list of the 
buildings.'' That is a pretty good recommendation, I think.
    Mr. Corbett, Mr. Green, do you want to comment on this?
    Mr. Green. Well, from my perspective, I think that we 
should encourage, if not more strongly encourage, states to 
establish standards for buildings in their areas where they may 
not have code enforcement.
    Chairman Boehlert. But does this approach make sense to 
you?
    Mr. Green. It does make sense, but the value of having a 
governmental entity have that oversight, I think, adds value to 
the safety in the building. I am not so sure I am sold on this 
third party element. I would rather see that the third party 
would be a governmental entity that has some enforcement 
responsibility, to assure that the building does comply. I 
don't want to suggest before this committee that it is not 
appropriate to have third party involvement, but you are 
assured at a greater level when you have governmental 
involvement for oversight to compliance.
    Chairman Boehlert. What do you say, Mr. Corbett?
    Mr. Corbett. I agree totally. I might also make a couple 
notes, that the word governmental is missing from 
recommendation number 25. The Federal Government, State 
government, local government. The word government isn't in 
there. So, that is a whole group of buildings out there that 
are not, obviously, subject as we stand today, with local and 
State regulations, and I would point out, it is ironic that you 
mentioned GSA before, because I know GSA actually has 
participated in the code development process, and actually, to 
my understanding, was stating an opposition of proposals for 
wider stairs in high rise buildings. So, it is kind of ironic 
that on one hand, you know, we are not--they do not have to 
comply with the code, but on the other hand, are able to 
participate in the process that affects other buildings. So----
    Chairman Boehlert. Government has a way of doing that.
    Mr. Corbett. But I do, I agree totally with Mr. Green that 
my own opinion that I would have, I would prefer that 
recommendation 25 not look for a third party, but look for 
that, again, that local government or State government, 
whatever it is, to review and to inspect and to oversee the 
nongovernmental and quasi-governmental entities.
    Chairman Boehlert. I don't think we have legal authority. 
But government is in the habit of saying don't do as I do, do 
as I say. Any other comment on that, before I go to Dr. Ehlers? 
Ms. McNabb, did you have something?
    Ms. McNabb. Yes. In terms of the recommendation 25, I think 
it is a good recommendation. We support it. In fact, the NFPA 
comments were to include government, but understanding that 
that is a matter of Constitutional law, and perhaps, that is 
why NIST recommended the third party, is that is an easy way of 
dealing with that issue, related to the Constitution.
    In terms of full building evacuation, to go back to your 
earlier question, I think that it is inevitable that after 9/
11, even though it is not required, that building occupants may 
want to do a full building evacuation or drills in the event of 
an emergency. NFPA has a pamphlet on this, but we think that it 
should be looked at, because full building evacuation could 
result from things like a bomb threat, from things like a power 
failure, not necessarily terrorism. So, it is something that I 
think needs to be studied, and it is a good recommendation.
    Chairman Boehlert. Thank you very much. Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I apologize for 
missing much of the hearing, but we still have one of my 
markups going on, and I will have to dash over there shortly.
    On the issue of evacuation, I was amused in thinking about 
this and the relationship with NIST, but when I spent a year at 
JILA in Boulder, Colorado, as you know, there are a lot of 
mountaineers in that area, including in JILA. I went into one 
of my colleague's offices one day, and he is up on the ninth 
floor of JILA, and saw this 150-foot coil of rope there, and I 
said oh, going climbing later? He says no, no. That is my 
emergency escape route. And he was dead serious. If anything 
happened down below, he was going to just rappel out the 
window, and go on down.
    Dr. Jeffrey, I have a question for you, that there 
apparently has been some controversy or criticism of NIST that 
they did not invoke the NCST, and did not send their NCST team 
down, as part of investigative team, to the Gulf Coast after 
Hurricanes Katrina and Rita, but instead, used your standard 
authority for that. And the criticism has been that you haven't 
exercised your leadership role in the federal investigation of 
the damage to--hurricane-related damage to the buildings in 
that area. And I would just like to get on the record a 
response to this. Why did NIST choose not to invoke the 
National Construction Safety Team Act when deploying these 
teams? And how has NIST interacted with other federal agencies 
that are on the ground in the Gulf Coast states? And why are 
you not leading the effort on building safety investigations?
    Mr. Jeffrey. Thank you, sir. The authorities that NIST has 
to do investigation are essentially the tools in our toolbox. 
And we are going to use the best tool, the most appropriate 
tool, for whatever investigation we need to do. And for the 
Hurricane Katrina and Gulf Coast areas, we have got authorities 
that are actually broader than the NCST, and more appropriate 
for the kinds of investigations that we need to do.
    For example, we had a reconnaissance team go down there, 
and a lot of the things that were identified, in terms of 
further investigation, includes not just buildings, but 
includes other components of the infrastructure, for example, 
water, and sewage plants. It includes bridges, tunnels, et 
cetera, that are not covered under the NCST. In addition, we 
are going to learn a lot from buildings that have not just 
failed, but buildings that were damaged, which again, is not 
covered under the NCST. So, we are applying exactly the 
authorities that we think we need to to try to get the job 
done.
    In terms of leadership, from day one, we have been working 
with FEMA as part of their emergency response, as part of the 
National Response Plan. Within the first week, we had a person 
go there, a roofing expert go down with a group of 23 
volunteers to Mobile, Alabama, to look at roofing. We sent out 
a team, as I mentioned just a second ago, in terms of 
reconnaissance, to try to look through the Gulf region, and we 
have now got three teams that are under NIST coordination that 
are made up of 16 different private and government 
organizations of experts, that are going around the Gulf 
region, doing detailed assessments now.
    So, we believe that we have been very aggressive in the 
teams that we have sent down there, and using the appropriate 
authorities to get as broad a view of the situation as 
possible.
    Mr. Ehlers. Thank you. Does anyone else wish to comment on 
that issue? Mr. Corbett.
    Mr. Corbett. Yes, thank you. I commented on this during my 
testimony, and I still believe the NCST would have been useful 
down there, especially given the fact that the problems we have 
had with the World Trade Center investigation, you know, 
securing evidence, getting evidence early on. I mean, we were 
very heavily reliant on computer models to tell us what 
happened to the Twin Towers, because we lacked that physical 
evidence, because there wasn't an Act when the Trade Center was 
hit.
    And I really believe that I would have preferred to have a 
much more aggressive paratrooper type response from this, with 
reconnaissance teams to figure out what are the buildings we 
have got to study, you know. The Act, I believe, does include 
provisions for investigating building disasters that had the 
potential for a large life loss. It doesn't have to be, my 
understanding that it has to have lives lost in the building. 
So, I just--I would have hoped that we could have done under 
the Act. I understand that they have other authorities to do 
that work, but I had always hoped that NCST would skip to that 
same level as the NTSB, in terms of public recognition, public 
understanding of what, you know, what we are looking for.
    Mr. Ehlers. Dr. Jeffrey, let me just ask, couldn't you have 
done both? Couldn't you have sent down an NCST team to 
investigate those areas where they needed that type of 
authority, and used the standard teams in other areas, where 
they needed their authority?
    Mr. Jeffrey. They are the same people. I mean, we have got 
the same technical experts, and it is actually transparent. As 
long as they have the authorities to do the job, and at any 
time that they need additional authorities, we will find those 
additional authorities within our legal limits, to provide them 
that. But it is the same people. It is the same technical 
experts.
    Mr. Ehlers. And did you at all invoke the authorities under 
the NCST?
    Mr. Jeffrey. Not for Hurricane Katrina. As the broad scope 
of what the investigation is actually fits better under other 
existing NIST authorities.
    Mr. Ehlers. But weren't there some instances, as Mr. 
Corbett is mentioning, where you should have used the authority 
of the NCST?
    Mr. Jeffrey. The authorities that we have got would cover a 
lot of the situations. The unique authority that the NCST would 
provide us is essentially the ability to legally require a 
release of documentation. We have not reached a situation where 
that has been an issue for the Hurricane Katrina situation.
    If, at some point, we need subpoena authority, and it fits 
under the legal guidelines of the NCST, we will, without 
hesitation, use that authority.
    Chairman Boehlert. Thank you. The gentleman's time has 
expired. I thank all of you for being resources for this 
committee. I will end, Mr. Corbett, by answering your question. 
Where do we go from here? We are going to--eternal vigilance. 
We are going to keep on top of this. We developed the whole 
legislation to make possible this investigation. We are going 
to keep on it.
    Dr. Jeffrey, we fully expect you and your team at NIST, we 
compliment you for all the good work you have done. You have 
got a lot more to do, and we want to follow very closely your 
interaction with NIBS, and we want to make sure you get 
recommendations with specificity to the ICC before March. There 
are a lot of things we want to make sure of, and so, this is 
not the end of the process. We are somewhere in the middle of 
the process. We are going to go forward.
    And Ms. Regenhard and the people on your committee, we 
thank you for all that you have done. We are sorry that this 
work was necessary, but it is, and we are going to do it to the 
best of our ability.
    Thank you all very much. This hearing is adjourned.
    [Whereupon, at 1:45 p.m., the Committee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by William Jeffrey, Director, National Institute of Standards 
        and Technology (NIST)

Questions submitted by the Majority

Q1.  In your testimony you described how a staff member at NIST had 
been assigned to each of NIST's recommendations to ensure that they are 
carried out. Please provide the Committee with a list of the 
recommendations that call for an explicit code or standard change, a 
brief description of the steps in the process of changing these codes 
and standards, where NIST is in this process, and the code and 
standards groups with whom NIST is working on each recommendation.

A1. Please see attachment A which identifies the affected codes and 
standards by each of the WTC recommendations. NIST is currently 
pursuing action on each of the WTC recommendations with an emphasis on 
meeting the March 24 deadline for the International Building Code.

Q2.  In her testimony, Ms. McNabb said that the recommendation related 
to elevators may be one of the most important. Do you agree? How 
difficult would that be to codify and implement? Can you give the 
Committee a sense of what specific next steps you would take to 
evaluate that recommendation and what additional information you would 
need and from whom?

A2. NIST agrees that improved building evacuation overall should be a 
priority. Buildings should be improved to include system designs that 
facilitate safe and rapid egress, methods for ensuring clear and timely 
emergency communications to occupants, better occupant preparedness for 
evacuation during emergencies, and incorporation of appropriate egress 
technologies. Recommendations 16, 17, 18, 19, and 21 address these. The 
use of occupant evacuation and fire service elevators in emergencies is 
a key element of these recommendations. Further, Recommendation 20 
recommends that the full range of current and next generation 
evacuation technologies should be evaluated for future use, including 
protected/hardened elevators, exterior escape devices, and stairwell 
descent devices, which may allow all occupants an equal opportunity for 
evacuation and facilitate emergency response access. As part of the 
implementation process for the WTC report recommendations, the American 
Society of Mechanical Engineers is addressing the use of elevators for 
occupant evacuation and fire service use.

Q3.  How many people does NIST have working on WTC investigation-
related projects now that the main part of the investigation is 
wrapping up? Will the Hurricane Katrina investigation take resources 
away from WTC follow-up?

A3. NIST has over 20 members of its staff continuing to work on WTC 
investigation-related projects as part of its overall WTC response 
plan, which includes a research and development program and a 
dissemination and technical assistance program. A key part of this 
effort is promoting implementation of the WTC recommendations. NIST 
staff continue to work vigorously with the building and fire safety 
communities to assure that there is a complete understanding of the WTC 
recommendations and to provide needed technical assistance in getting 
them implemented. The Hurricane Katrina assessment will not take 
resources from the WTC investigation follow-up.

Q4.  In your testimony, you said that NIST's recommendations are 
achievable within ``a reasonable period of time.'' How long will that 
be? Will NIST set some benchmarks to guide its activities to promote 
implementation?

A4. NIST is committed, working through the various building code 
organizations, to meeting the March deadline of the next code 
development cycle of the International Code Council with as many of the 
recommendations as appropriate and possible. I have assigned top 
priority for NIST staff to work vigorously with the building and fire 
safety communities to assure that there is a complete understanding of 
the recommendations and to provide needed technical assistance in 
getting them implemented. We have identified specific codes, standards, 
and practices affected by each of the recommendations in the summary 
report for the WTC towers and already begun to reach out to the 
responsible organizations to pave the way for a timely, expedited 
consideration of the recommendations. We also have awarded a contract 
to the National Institute of Building Sciences (NIBS) to convene a 
panel of building code experts to turn appropriate recommendations into 
code language suitable for submission of code change proposals to the 
two national model code developers.
    The timeline for achieving the recommendations is governed by the 
established development cycle for each of the impacted national 
standards, codes, practice guidelines or regulations. For example, the 
model codes follow a three-year development cycle with the next edition 
due in 2009. The IBC also will issue a supplement in 2007 based on code 
change proposals submitted by March 2006. The next edition of ASCE 7, a 
key standard, is due in 2010. Many other standards have an ad hoc 
development cycle.
    Working in partnership with NIBS, NIST will target the IBC's 2007 
supplement as well as the 2009 editions of the model codes. In 
addition, NIST will work with ASCE and the other standards developers 
to target their appropriate next edition.
    In carrying out this work, NIST recognizes that not all of the 
recommendations will have an impact on model building codes. Many will 
impact standards that are referenced in model codes. Others will impact 
stand alone standards used in practice but not referenced in model 
codes. A few will impact practices, including education and training, 
that don't have any impact on codes and standards. In many cases, a 
standard will need to be developed before the recommendation can be 
implemented in the model codes.
    In addition, we will implement a web-based system so that the 
public can track progress on implementing the recommendations. The web 
site, which is already operational, will list each of the 
recommendations, the specific organization or organizations (e.g., 
standards and code developers, professional groups, State and local 
authorities) responsible for its implementation, the status of its 
implementation by organization, and the plans or work in progress to 
implement the recommendations. The web site is available at http://
wtc.nist.gov/recommendations/ and includes detailed information on the 
work with NIBS. The web site will be updated with information on plans 
and status by the end of January 2006.

Q5.  In terms of how a building safety investigation should be 
conducted, what are the three most important lessons derived from 
NIST's experience with World Trade Center buildings?

A5. The experience gained from the WTC investigation will help NIST to 
better plan and execute future investigations. Examples of the 
challenges include:

        <bullet>  The need to identify, collect, index, review, and 
        analyze massive amounts of data from external sources.

        <bullet>  The need to model and validate extraordinarily 
        complex and multi-step physical and failure processes in large-
        scale systems that required advancements in the state-of-the-
        art and tested the limits of current commercial software.

        <bullet>  The need to design first person interview protocols, 
        based on rigorous social science methods, which could be used 
        to draw definitive results and be generalized to make well 
        founded recommendations for improving evacuation and emergency 
        response procedures.

Q6.  You testified that more data and research are needed to implement 
some of NIST's recommendations. In your statement you said ``there is a 
number of research and development programs, for example, that come out 
in this report. In fact, the report actually highlights where some of 
the R&D efforts are. . .a lot of them fall under NIST to try to 
execute.'' Please summarize NIST's research plan based on the WTC 
report recommendations.

A6. NIST has a number of on-going research and development projects as 
part of its WTC response plan which address needs set forth in the WTC 
report. These projects include:

        <bullet>  Prevention of Progressive Collapse

        <bullet>  Fire Resistance Design and Retrofit of Structures

        <bullet>  Fire Resistive Coatings for Structural Steel

        <bullet>  Fire Resistance of Uncoated Structural Steel with 
        Improved Thermal Properties

        <bullet>  Fire Resistance of Building Partitions

        <bullet>  Occupant Behavior and Egress

        <bullet>  Emergency Use of Elevators

        <bullet>  Equipment Standards for First Responders

        <bullet>  Standard Building Information Models for 
        Vulnerability Assessment

        <bullet>  Technologies for Building Operations in CBR Attacks

        <bullet>  Cost-effective Risk Management Tools

    In addition, NIST has on-going research in areas relevant to 
building and fire safety. These include:

        <bullet>  High Performance Construction Materials and Systems: 
        Enable scientific and technology-based innovation to modernize 
        and enhance the performance of construction materials and 
        systems.

        <bullet>  Fire Loss Reduction: Enable engineered fire safety 
        for people, products, facilities; and enhanced firefighter 
        effectiveness with 50 percent reduction in fatalities.

        <bullet>  Enhanced Building Performance: Provide the means to 
        assure buildings work better throughout their useful lives.

Q7.  In written testimony submitted to the Committee, the American 
Institute of Architects points to the lack of afire test facility in 
United States--a facility large enough to test components of a tall 
building--as a major shortcoming in the Nation's ability to improve 
skyscraper safety. Is the maintenance and operation of large-scale fire 
testing capability a NIST responsibility, or does it lie elsewhere in 
the Federal Government or the private sector? How do you respond to the 
AIA's comments?

A7. NIST agrees with AIA that fire testing of large building components 
under load conditions is a vital need that is not available in the 
United States at this time. Recommendation #5 recognizes this need by 
stating ``A key step in fulfilling this recommendation is to establish 
a capability for studying and testing the components, assemblies, and 
systems under realistic fire and load conditions.''
    As the Federal Government's principal fire research laboratory, 
NIST maintains some of the country's best and most extensive fire 
testing facilities. More than 400 fire experiments are performed each 
year in the specially equipped, 27m (90 ft.) x 37m (120 ft.), Large 
Fire Research Facility. However, this facility is not capable of 
conducting fire tests under load conditions currently.
    NIST has held discussions with the major fire testing laboratories 
and the academic community to help define the requirements for such a 
fire testing capability in the United States. In addition, NIST is 
considering how its Large Fire Research Facility could be modified to 
meet this national need.

Q8.  Some critics argue that, since most fires that result in 
fatalities occur in residential buildings, particularly homes, the 
focus on skyscraper safety is a distraction from more common threats to 
life and property. How do you respond to this criticism?

A8. We do not believe the focus of the NIST investigation into the 
collapse of the buildings at the World Trade Center is a distraction 
from the impact of or need to address the losses from residential 
fires. NIST has an assigned responsibility to enable better fire safety 
for people, products, and facilities; and to enhance fire fighter 
effectiveness and continue to place a high priority on programs and 
activities that impact the threats from residential fires. The U.S. 
annual losses attributable to fire are nearly 3600 lives, 22,000 
serious injuries, $10 billion in direct property loss, and $128 billion 
total cost. NIST's fire research programs work to: enable safer and 
more effective fire service operations through new technology, 
measurement standards, and training tools; develop effective strategies 
for cost-effectively reducing the Nation's fire losses (both human and 
financial) by limiting fire growth and spread in and to residences; 
provide the fundamental knowledge, algorithms, and measurement 
techniques necessary for advancing engineered fire safety for people, 
products, facilities, and first responders; and provide the 
infrastructure necessary to facilitate the transfer of NIST-developed 
technology into practice through participation with codes and standards 
organizations, maintenance of the premier international research 
bibliography and electronic data for the fire community, and the 
development of laboratory facilities with a premium on accurate, 
innovative and safe large-scale fire experiments.

Q9.  Testimony submitted to the Science Committee by the Building 
Owners and Managers Association (BOMA) calls for the development of 
cost-benefit analyses on the implementation of NIST's recommendations. 
Do believe this is a good idea? Why or why not? If so, what would NIST 
do to develop these analyses?

A9. The NIST recommendations do not prescribe specific systems, 
materials, or technologies. Instead, NIST encourages competition among 
alternatives that can meet performance requirements. The 
recommendations also do not prescribe specific threshold levels; NIST 
believes that this responsibility properly falls within the purview of 
the public policy setting process, in which the standards and codes 
development process plays a key role. Cost-to-benefit would be an 
inherent part of this process.
    Only a few of the recommendations call for new requirements in 
standards and codes. Most of the recommendations deal with improving an 
existing standard or code requirement, establishing a standard for an 
existing practice without one, establishing the technical basis for an 
existing requirement, making a current requirement risk-consistent, 
adopting or enforcing a current requirement, or establishing a 
performance-based alternative to a current prescriptive requirement.

Q10.  Attached is testimony submitted to the Committee from the 
Building Owners and Managers Association (BOMA). Please review this 
testimony and provide the Committee with comments on the issues that 
BOMA raises on the recommendations.

A10. The review of the WTC recommendations contained in BOMA's 
testimony was received and reviewed by NIST during the public comment 
period for the draft WTC reports. Based on the comments, it appears 
BOMA concurs with or is in general agreement with 11 of the 30 
recommendations, did not have a comment on seven recommendations, was 
concerned with six of the recommendations (e.g., due to cost or risk 
justification), considered two recommendations to be vague, and 
requested clarification or did not adequately understand four of the 
recommendations.
    In a few cases, BOMA cited a lack of history to suggest that tall 
buildings face increased risk. First, the excellent safety record of 
tall buildings that is cited by critics is based mostly on data from 
roughly the past 30 years. Such historical statistics, however, do not 
adequately capture rare design events due to a lack of data at the 
tails of probability distributions. For example, buildings which have 
useful lives of as much as 100 years are often designed for a 500-year 
hurricane or a 2,500-year earthquake. Statistical data over, for 
example, a 30- to 50-year period would not be able to adequately 
capture the rare events that should be considered in design. Second, 
the aim of design is to anticipate rare design events in a rational 
manner. Unanticipated events have surprised the design community in the 
past, most notably after the 1994 Northridge earthquake when safety 
concerns were identified in a widely used type of steel building and 
the industry had to improve building codes and standards for such 
buildings. Third, for a given threat, the risks increase with building 
height since the consequences of the threat become more severe with 
height.
    Some of the WTC recommendations were considered by BOMA not to be 
adequately specific. The NIST recommendations do not prescribe specific 
systems, materials, or technologies. Instead, NIST encourages 
competition among alternatives that can meet performance requirements. 
The recommendations also do not prescribe specific threshold levels; 
NIST believes that this responsibility properly falls within the 
purview of the public policy setting process, in which the standards 
and codes development process plays a key role. The issue of 
specificity will be resolved as part of NIST's ongoing efforts with 
NIBS in support of model code changes (one of the NIBS building code 
experts is a BOMA representative) and with standards organizations.
    The basis for some of the WTC recommendations was not adequately 
understood by BOMA. NIST is working actively with the standards, codes, 
and industry organizations, including BOMA, to develop a shared 
understanding of the basis for the recommendations and to provide 
needed clarification and justification. The private sector inputs will 
lead to requirements that are appropriate for adoption in standards and 
codes.
    In a few instances, BOMA suggests an incremental approach to 
adopting the recommendations. NIST believes that strong industry 
commitment to working such issues will lead to early implementation of 
acceptable solutions.
    Please see the answer to Question 9 that address cost concerns with 
a few of the recommendations.

Questions submitted by the Minority

Q1.  Dr. Jeffrey, what interactions and information has NIST shared 
with the General Services Administration (GSA) about the findings of 
its World Trade Center investigation. Could this information be useful 
for the development of standards for federal buildings at risk such as 
embassies?

A1. NIST has had several interactions with GSA on its WTC response 
plan, including the WTC investigation. Most recently, six members of 
the GSA staff attended the WTC Technical Conference held at NIST 
September 13-15, 2005. GSA also is co-funding a multi-year research and 
development project at NIST on emergency use of elevators. NIST has an 
agreement with GSA to implement a demonstration project in a federal 
building where protected occupant evacuation and fire service elevators 
will be installed, meeting all of the proposed standards and code 
requirements based on the WTC investigation. In addition, NIST is 
working with GSA to collect occupant behavior data during evacuation 
drills within GSA buildings. NIST has working relationships with GSA 
and State Department staff on its research and development program to 
prevent progressive collapse in buildings. Staff from these agencies 
have participated in NIST workshops and provided reviews of draft 
guidance documents.

Q2.  Dr. Jeffrey, NIST believes that its recommendations are achievable 
within a reasonable period of time. In your view, what is the shortest 
time period that the NIST recommendations could be implemented?

A2. NIST is committed, working through the various building code 
organizations, to meeting the March deadline of the next code 
development cycle of the International Code Council with as many of the 
recommendations as possible. I have assigned top priority for NIST 
staff to work vigorously with the building and fire safety communities 
to assure that there is a complete understanding of the recommendations 
and to provide needed technical assistance in getting them implemented. 
We have identified specific codes, standards, and practices affected by 
each of the recommendations in its summary report for the WTC towers 
and already begun to reach out to the responsible organizations to pave 
the way for a timely, expedited consideration of the recommendations. 
We have also has awarded a contract to the National Institute of 
Building Sciences (NIBS) to convene a panel of building code experts to 
turn appropriate recommendations into code language suitable for 
submission of code change proposals to the two national model code 
developers.
    The timeline for achieving the recommendations is governed by the 
established development cycle for each of the impacted national 
standards, codes, practice guidelines or regulations. For example, the 
model codes follow a three-year development cycle with the next edition 
due in 2009. The IBC also will issue a supplement in 2007 based on code 
change proposals submitted by March 2006. The next edition of ASCE 7, a 
key standard, is due in 2010. Many other standards have an ad hoc 
development cycle.
    Working in partnership with NIBS, NIST will target the IBC's 2007 
supplement as well as the 2009 editions of the model codes. In 
addition, NIST will work with ASCE and the other standards developers 
to target their appropriate next edition.
    In carrying out this work, NIST recognizes that not all of the 
recommendations will have an impact on model building codes. Many will 
impact standards that are referenced in model codes. Others will impact 
stand alone standards used in practice but not referenced in model 
codes. A few will impact practices, including education and training, 
that don't have any impact on codes and standards. In many cases, a 
standard will need to be developed before the recommendation can be 
implemented in the model codes.
    In addition, we will implement a web-based system so that the 
public can track progress on implementing the recommendations. The web 
site, which is already operational, will list each of the 
recommendations, the specific organization or organizations (e.g., 
standards and code developers, professional groups, state and local 
authorities) responsible for its implementation, the status of its 
implementation by organization, and the plans or work in progress to 
implement the recommendations. The web site is available at http://
wtc.nist.gov/recommendations/ and includes detailed information on the 
work with NIBS. The web site will be updated with information on plans 
and status by the end of January 2006.

Q3.  What specific plans does NIST have to inform local officials about 
the safety implications of it recommendations?

A3. NIST has been and is reaching out to all communities involved in 
building and fire safety. We have strongly urged that immediate and 
serious consideration be given to these recommendations by the building 
and fire safety communities in order to achieve appropriate 
improvements in the way buildings are designed, constructed, 
maintained, and used and in evacuation and emergency response 
procedures--with the goal of making buildings, occupants, and first 
responders safer in future emergencies.
    We are also strongly urging building owners and public officials to 
(1) evaluate the safety implications of these recommendations to their 
existing inventory of buildings and (2) take the steps necessary to 
mitigate any unwarranted risks without waiting for changes to occur in 
codes, standards, and practices. We are urging State and local agencies 
to rigorously enforce building codes and standards since such 
enforcement is critical to ensure the expected level of safety. Unless 
they are complied with, the best codes and standards cannot protect 
occupants, emergency responders, or buildings.
    NIST experts have been meeting with state and local officials over 
the past year providing them with information on NIST's investigation. 
In September, NIST held a conference attended by over 200 experts from 
standards developing organization, state and local officials, fire 
fighting organizations and builders. Throughout the course of our 
investigation, NIST's work has received major media coverage--including 
by media outlets followed closely by building, fire, and other 
emergency preparedness and response officials.

Q4.  Dr. Jeffrey, what will be the impediments to translating the NIST 
recommendations to improvements to building codes and emergency 
response and evacuation procedures?

A4. There are a number of features intrinsic to the building and fire 
safety regulatory system in the United States that affect the speed and 
outcome of the change process for codes, standards, and practices.

        <bullet>  First, building and fire safety regulations, 
        promulgated and enforced by State and local jurisdictions, are 
        based on national model codes developed by private sector 
        organizations.

        <bullet>  Second, the model codes adopt by reference standards 
        that are developed by a large number of private sector 
        standards development organizations.

        <bullet>  Third, the process and schedule for consideration of 
        changes differ for each code or standard.

        <bullet>  Fourth, changes to codes and standards are based on 
        the review and consensus approval of committees comprising a 
        spectrum of interests and perspectives.

    The above process accommodates the inputs and concerns of a wide 
range of groups--including architects, engineers, developers, owners, 
operators, users, emergency responders, State and local regulatory 
officials, policy-makers, and concerned citizens. Incorporating these 
inputs into regulations is complex, but the system has evolved into one 
that balances the sometimes contradictory desires of the various groups 
while providing for public safety and welfare.
    NIST has identified 37 specific national model codes, standards, 
practice guidelines, or regulations impacted by its recommendations. We 
have called on the various organizations for a timely consideration of 
these recommendations. We have hosted a conference where every major 
standards and code developer was represented, we have hired NIBS to 
assist in converting the appropriate recommendations into draft code 
language, and we are working with organizations representing local and 
State authorities to assist in their adoption and enforcement.

Q5.  Dr. Jeffrey, how much funding will NIST require to carry out its 
follow-on duties in the area of research during the next three years?

A5. The President's Fiscal Year 2006 budget requested $2M for NIST to 
carry out research to enable development and adoption of cost-effective 
technical solutions to enhance safety and avoid major disasters through 
improved first responder equipment, better evacuation and emergency 
response procedures, and risk-sensitive national practices for building 
safety. The FY 2006 Commerce, Justice, State and Science Appropriations 
Act does not contain funding for this request.

Q6.  Dr. Jeffrey, for two years the National Construction Safety Team 
Advisory Committee has reiterated that successful implementation of the 
National Construction Safety Team (NCST) Act is dependent upon the 
creation of a NCST office funded at $2 million and the establishment of 
a $2 million reserve fund. Why hasn't NIST acted upon these 
recommendations in its budget request?

A6. NIST believes that it has responded appropriately to all 
significant disaster events worthy of investigation. The President's 
Fiscal Year 2006 budget requested $2M for NIST to carry out research to 
enable development and adoption of cost-effective technical solutions 
to enhance safety and avoid major disasters through improved first 
responder equipment, better evacuation and emergency response 
procedures, and risk-sensitive national practices for building safety. 
The FY 2006 Commerce, Justice, State and Science Appropriations Act 
does not contain funding for this request.

Q7.  Dr. Jeffrey, the National Construction Safety Team (NCST) Advisory 
Committee has recommended that the Act be invoked after any natural 
disaster such as earthquakes, hurricanes and other windstorms, floods 
and wildfires. Why didn't you invoke the Act after Hurricanes Katrina, 
Rita and now Wilma? In their reports to Congress the Advisory Committee 
has generally been critical that NIST has not invoked the Act more 
often. Why do you disagree with the recommendations of the Advisory 
Committee?

A7. NIST authorities are ``tools'' by which we can conduct an 
investigation. We will always pick the best tool to get the job done. 
In response to Hurricane Katrina, NIST is using authorities that are 
broader than under the NCST Act and better fit the specific situation.
    In addition to major buildings and residential structures, the 
current effort involves key infrastructure facilities (electric power, 
water and wastewater, oil and gas, and communication) and 
transportation (ports, pipelines, bridges, roads, and airports) which 
are not covered by the NCST Act.
    Moreover, NIST is interested in assessing the performance not only 
of facilities that ``failed'' but also those that sustained 
``damage''--and hence not covered by the NCST.
    In addition, NIST is assessing the damage not only to structures 
but also other building systems (e.g., the roofing system, fire safety, 
and HVAC) which are not specified in the Act.

Q8.  Dr. Jeffrey, some of Ms. Regenhard's and Dr. Corbett's criticisms 
of NIST's reluctance to use the full authority of the National 
Construction Safety Team (NCST) Act are echoed by the NCST Advisory 
Board. What is your response?

A8. NIST believes that it has used appropriately the authority of the 
National Construction Safety Team Act. NIST has obtained all available 
documents and evidence essential to carrying out a thorough and 
credible technical investigation. NIST believes the findings from its 
investigation are well justified on the basis of those documents and 
evidence.
    A large number of individuals and organizations provided materials 
and documents, including the Port Authority of New York and New Jersey, 
Silverstein Properties, the City of New York and its departments, the 
manufacturers and fabricators of the building components, the companies 
that insured the WTC towers, the building tenants, the aircraft 
manufacturers, the airlines, the public (including survivors and family 
members), and the media. NIST officials reviewed tens of thousands of 
pages of documents, conducted interviews with over a thousand people; 
and analyzed 236 pieces of steel that were obtained from the wreckage. 
At no time was NIST reluctant to use the full authority of the NCST.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   Answers to Post-Hearing Questions

Responses by Nancy McNabb, Director, Government Affairs, National Fire 
        Protection Association

Questions submitted by the Majority

Q1.  In your testimony, you said that NIST takes some positions on 
``controversial and sometimes unpopular subjects.'' What do you have in 
mind? What should NIST do to make sure that controversy doesn't block 
progress?

A1. I would point to subjects such as progressive collapse design, wind 
tunnel testing and the recommendation to include fire protection 
engineers on the design team. NIST has set an agenda for codes and 
standards organizations and the private sector to determine how best to 
manage change (if any) in all 30 areas. NIST can best serve as an 
advisor to those groups and when necessary, fund research in the 
private sector to establish additional information and possible 
solutions.

Q2.  In your testimony you stated that ``the need to conduct more 
research in numerous areas is clear.'' What are the top three priority 
areas where additional research and data are needed? Which specific 
entities should be doing this research? Which recommendations are most 
hampered by lack of data?

A2. Elevator Use: These criteria are very close to being finalized. The 
reality is that elevator use is the only practical way to ensure timely 
building evacuation in very tall (40-story) buildings. Additional 
research may also benefit disabled occupants by providing equal access 
to self evacuation capability in many types of multi-story buildings. 
The current ASME/NIST research project, in which NFPA has been a 
significant participant, has been underway since 2003.

Coordinated communication capabilities: This is an Achilles heel in 
most major events including many high rise fires. Major natural 
disasters also present communication challenges between the various 
responding entities. Research groups: NFPA and IEEE.

Fire test procedures/materials: Reliability of the test procedures, 
materials and field applications are all interrelated. Innovative 
materials have potential use, but progress on all of these issues may 
be stymied absent additional data demonstrating clear cost effective 
advantages associated with such new materials or deficiencies with the 
current materials and test methods. Research groups: FPRF/ASTM/UL

Q3.  Building trade associations have raised concerns that the 
implementation of some of the recommendations will be expensive. Which 
of the recommendations do you believe will be most costly? Would these 
costs be justified in terms of their expected outcomes?

A3. Building trade associations and building associations such as BOMA 
are likely concerned that any change to building safety requirements 
will increase cost. Short-term costs associated with building safety 
should not be the prime concern. BOMA's tenants and the public at large 
are a good barometer of how safe our buildings need to be and they do 
not generally object to initial costs for providing long-term building 
and life safety.

Q4.  In written testimony submitted to the Committee, the American 
Institute of Architects points to the lack of a fire test facility in 
United States--a facility large enough to test components of a tall 
building--as a major shortcoming in the Nation's ability to improve 
skyscraper safety. Is the maintenance and operation of large-scale fire 
testing capability a NIST responsibility, or does it lie elsewhere in 
the Federal Government or the private sector? How do you respond to the 
AIA's comments?

A4. The private sector should retain control and operation of the 
largest fire test facilities. NIST may best work in a private/public 
sector partnership role to assist with funding of expanded test 
facilities at Underwriters Laboratories (UL) or Factory Mutual (FM) or 
preferably both.

Q5.  Testimony submitted to the Science Committee by the Building 
Owners and Managers Association (BOMA) calls for cost-benefit analyses 
to be developed on the implementation of NIST's recommendations. Do you 
believe this is a good idea? Why or why not? If so, who should develop 
these analyses?

A5. Cost-benefit forecasts for safety related issues are a no win 
approach to changing codes, standards and protocols. As repeatedly 
expressed by BOMA at federal, State and local hearings, their primary 
concern seems to be initial construction costs rather than long tern 
sustainability or safety of their tenants. Cost-benefit can almost 
always be used to argue a change in any direction. It is NFPA's view 
that cost benefit analyses should not be a primary consideration in the 
debate for implementation of these potential changes.

Q6.  Which recommendations do you think most require action by the 
Federal Government, particularly with respect to research, and which 
agencies should be responsible?

A6. At this point, it is NFPA's view that the private sector, with 
funding from federal agencies (including NIST) are in the best position 
to pursue the level of detail needed to move towards change. 
Competition to develop better materials, methods and designs can be 
driven by code-related change and social awareness; no one entity 
should have a sole source advantage for building research.

Questions submitted by Democratic Members

Q1.  Ms. McNabb, your organization has moved forward on a number of the 
NIST recommendations. How have the NFPA code changes been greeted by 
the user community--for example, states and localities and the building 
industry?

A1. NFPA code changes have been met with mixed reaction by various 
interest groups. For example, various groups, including the U.S. 
General Services Administration (GSA) filed appeals against some of the 
new changes such as the provisions to increase the stair width for 
certain buildings. NFPA's Building Code has been met with resistance by 
a number of jurisdictions and trade associations representing the 
economic building owner interests. Many of these groups are designated 
as ``Code Partners'' of the ICC thus they align themselves with 
technical provisions that are more traditional and in many cases, 
several years behind what the NFPA codes require. First responders and 
tenant representatives have embraced NFPA code provisions as they 
reflect the state of the art. The NFPA code development process ensures 
broad representation for all of the construction community stakeholders 
including first responders, tenant representatives and those designated 
as ``code partners.''

Q2.  Ms. McNabb, you mention that ``it is likely, that after a through 
and detailed analysis of the final recommendations, there may not be 
sufficient data, detail or compelling evidence to promulgate a change 
to a particular safety code or standard.'' What is the timeframe for 
this analysis? Also, which of the NIST recommendations do you think 
most likely to fail this analysis?

A2. Some of the analyses will be complex such as Recommendation 1 
concerning progressive collapse criteria. We believe that work will 
take several years because it requires the development of a design 
approach (supported by analytical tools and practical guidance) to 
determine how much of a building's structural support system will be 
lost and an expectation of how long the structure must remain standing.
    The recommendations concerning fire test protocols will require 
approximately two years of review. At present, the main concern seems 
to be that ``the test procedures have been used for 90 years,'' the 
implication being that we should be doing something different. There is 
no obvious reason to change the fire test protocols; after thorough 
study and review, we may determine that the status quo is acceptable.

Q3.  Ms. McNabb, could you give us an idea of the follow-on work 
required before we can arrive at an appropriate ``best practices'' for 
the built environment?

A3. Best practices are always moving forward. In the last few years, 
changes to the NFPA codes such as increases to hourly fire resistance 
ratings for structural systems in high rise buildings, wider stairs and 
provisions that have been in our codes for a longer time such as 
requirements for automatic sprinkler retrofits in high rise buildings, 
are all examples of best practices for the built environment that were 
initially determined by NFPA technical committees.
    Code changes such as greater use of elevators for building 
evacuations by occupants and first responders will likely be ready for 
consideration in the code change cycle within the next year. One issue 
that must be addressed is that of liability. After decades of 
indoctrinating building occupants that use of the elevator in a fire 
emergency is prohibited, there will naturally be concerns about 
reversing that message. Likewise, concerns related to elevator 
equipment malfunction during emergency conditions must be overcome.
    Mass notification systems discussed in Recommendations 22 and 23 
will be a reality in 2006 when the technical provisions for these 
systems have been proposed to be incorporated in the next edition of 
NFPA 72, National Fire Alarm Code.
    The largest obstacle to establishing best practices will be the 
extent, if any, to which such code changes will affect the existing 
building stock. Such implementations are often initially expensive or 
technically infeasible. The U.S. General Services Administration (GSA) 
could provide an example for the commercial building industry by 
embracing this opportunity to include new building safety enhancements 
in their construction plans and leasing agreements.

                   Answers to Post-Hearing Questions
Responses by James R. Harris, President, J.R. Harris and Company; 
        Member, American Society of Civil Engineers

    Please note that these responses are, in general, confined to the 
subject of structural engineering. Some of the recommendations made by 
NIST concern subjects outside the expertise of civil and structural 
engineers.

Questions submitted by the Majority

Q1.  In her testimony, Ms. McNabb said that the recommendation related 
to elevators may be one of the most important. Do you agree? How 
difficult would that be to codify and implement? Can you give the 
Committee a sense of what specific next steps you would take to 
evaluate that recommendation and what additional information you would 
need and from whom?

A1. Most of the issues surrounding this recommendation do not concern 
structural engineering. The primary structural issue here is the 
provision of strong shaft walls, and that is not particularly 
difficult. Ms. McNabb may have been referring to protection of the 
elevator and its controls from fire where it would be intended to use 
the elevator to pass through stories with uncontrolled fire. This is a 
phenomenon that should be tested to verify potential solutions before 
any code requirement is implemented, but it is not, fundamentally, a 
structural issue.

Q2.  In your testimony, you suggested that codes are not necessarily 
the best way to promote changes in practice. What is the problem with 
using codes? What are the alternatives? What NIST recommendations 
should be implemented through means other than codes?

A2. Codes are a useful and effective mechanism to assure a minimum 
level of protection where proven technologies exist. However, they are 
not particularly effective where the issue requires development of new 
technology. I will use performance-based design for fire resistance as 
an example. Here the codes can be used as an incentive, by allowing the 
possibility for performance-based design, but the method will not be an 
effective tool until several things happen: an extension of present 
knowledge through targeted research, a critical mass of the profession 
becomes properly educated and trained to implement the methods, and a 
change in the legal climate to remove disincentives to this expansion 
of professional practice. This will require changes in the basic 
curriculum to educate engineers of the future as well as a broad 
continuing education program to train practicing professionals.
    The interaction of professional practice and tort law is a matter 
of public policy that requires careful consideration before the 
potential benefits of performance based fire design can be realized. 
Prescriptive codes effectively shield structural engineers and 
architects from tort, and the prescriptive codes for fire resistance do 
deliver buildings with successful fire resistance in the vast majority 
of cases. There is no incentive for engineers to become responsible for 
fire safety and there is a major disincentive in the form of potential 
liability for fire damage and injury in a building designed to a 
performance standard. These obstacles need to be removed.

Q3.  You testified that data and research are needed to implement some 
of NIST's recommendations. What are the top three priority areas where 
additional research and data are needed? Which specific entities should 
be doing this research? Which recommendations are most hampered by lack 
of data?

A3. From the structural engineering point of view three areas do stand 
out: improving the general structural integrity of building (improve 
the resistance to progressive collapse), improving the design of 
structures to resist wind loads, and performance-based design for 
structural response to fire. The research in the first area is likely 
to be a long-term effort before tools are developed that will be usable 
in routine design practice, but it is highly likely to bear fruit. 
Structural connection details that are faster, better, cheaper can 
readily be developed in a program of academic research, large scale 
testing, and support of the creation of technical provisions in codes 
and standards. The steel connection details for improved seismic 
resistance that emerged from FEMA's SAC project are an example of what 
can be done for a relatively small outlay (overall, this research 
program will likely be larger, owing to the many different types of 
construction that must be considered). Progressive collapse resistance 
also needs a component of social science research in order to better 
define the needs and our objectives. The second area will be enhanced 
if funds are appropriated for the already authorized National Windstorm 
Mitigation Program. Wind effects on buildings are a complex topic that 
has long been shorted in the federal research budget. NIST's findings 
and the hurricanes of the past two years should persuade the Federal 
Government to be proactive in supporting wind research. The third area 
requires close coordination between specialists in fire and structural 
engineering in order to assure that the two professions are 
communicating meaningfully, and the disincentives described in the 
answer to Question 2 should be addressed before large research programs 
here are funded.

Q4.  You expressed a concern about the ``unreasonable acceleration'' of 
the codes process. What's your concern? Do you see any indication of 
that happening?

A4. The concern is that premature attempts to change building codes 
without thorough vetting in the voluntary standards communities and 
without compelling substantiation could create somewhat of a backlash 
or stigma around these recommendations, which could ultimately delay 
widespread implementation. Realize that the model building codes, and 
the standards upon which they rely, are not developed by elected 
governmental bodies operating on a simple majority vote. They are 
developed in voluntary bodies that operate with a formal consensus 
building procedure, which is necessary to generate the support in 
industry for successful implementation of change, and significant 
change requires significant time. In my opinion the objectives of the 
NIBS panel should be to coordinate efforts among the many standards 
developing organizations and to provide a forum for discussion of 
issues across technical disciplines. For most of the issues of concern 
in the structural engineering community it is premature to prepare 
changes to model building codes.

Q5.  Building trade associations have raised concerns that the 
implementation of some of the recommendations will be expensive. Which 
of the recommendations do you believe will be most costly? Would these 
costs be justified in terms of their expected outcomes?

A5. In the long run those costs associated with construction, 
maintenance, and economic use of facilities will far overrun the 
initial costs of educating and training engineers, architects, and 
building officials, although in the short run the latter costs will be 
significant and will likely slow implementation. Reasonable resistance 
to progressive collapse will not cost much for some structural systems, 
while in others it will be very costly, which will change the relative 
market share among competing products and systems for those structures 
for which resistance to progressive collapse is deemed necessary. Such 
changes are usually slow to come to fruition. The imposition of a limit 
on lateral drift under wind (Recommendation Number 3) will increase the 
cost of structural framing. Changes that affect the economic use of 
space, such as the provision of larger egress paths (stairwells) can 
impose very real costs. Some changes hold the potential for cost 
savings, such as improved understanding of wind effects on buildings 
and the use of a performance approach for design for fire resistance. 
It is likely that the impact on construction cost for those items that 
do increase the cost will be limited to a few percent of construction 
cost. Where these kinds of change are applied equally to all competing 
products in a market, the change may not be as slow.

Q6.  In written testimony submitted to the Committee, the American 
Institute of Architects points to the lack of a fire test facility in 
United States--a facility large enough to test components of a tall 
building--as a major shortcoming in the Nation's ability to improve 
skyscraper safety. Is the maintenance and operation of large-scale fire 
testing capability a NIST responsibility, or does it lie elsewhere in 
the Federal Government or the private sector? How do you respond to the 
AIA's comments?

A6. The lack of a facility large enough to test structural components 
of practical size is not limited to tall buildings. Common components 
of low-rise buildings suffer the same problem. Some private sector 
furnaces in this country have closed due to a lack of economic demand. 
Canada and Japan are examples of countries with larger facilities, and 
those facilities are government facilities. That does not mean that a 
government test facility is the only possible solution here, but at the 
very least there will be a need for government support and incentives. 
International cooperation should be explored.

Q7.  Testimony submitted to the Science Committee by the Building 
Owners and Managers Association (BOMA) calls for cost-benefit analyses 
to be developed on the implementation of NIST's recommendations. Do you 
believe this is a good idea? Why or why not? If so, who should develop 
these analyses?

A7. Some aspects of limited cost analysis is commonly necessary to 
persuade members of standards bodies to implement changes, however, 
such analyses are rarely a rigorous economic study, especially on the 
benefit side. It is not easy to assess the true cost of new technology 
before implementation. Benefits are particularly difficult to predict. 
The normal approach is to rely on the judgment of informed 
professionals developed in a consensus building process. FEMA funded 
one moderately large cost study in the early 1980's as the Nation was 
considering the adoption of a new generation of provisions for seismic 
safety in construction. A cost-benefit analysis on the same topic has 
recently been completed at the request of the Congress. Requiring 
formal cost-benefit analysis for every change is not typical in the 
field of building codes and design standards, and it would probably 
unduly slow implementation.

Q8.  Which recommendations do you think most require action by the 
Federal Government, particularly with respect to research, and which 
agencies should be responsible?

A8. The bulk of the research described in the answer to Question 3 will 
require federal funding. Among the agencies that I would expect to fund 
such research are NSF, NIST, and FEMA. NIST has historically not been 
able to fund significant external research in the building sciences 
area, and FEMA's future role is not well defined as it adapts to its 
incorporation inside DHS. Perhaps most importantly, the funding for 
structural engineering research in the CMS (Civil and Mechanical 
Systems) area of NSF is projected to be reduced by a mere pittance 
compared to past levels. This situation must be reversed to see real 
progress in developing the improvements recommended by NIST.

Q9.  In your testimony regarding Recommendation #1 on progressive 
collapse, you said that the recommendation needed further study of its 
application and its effects upon the profession because of the various 
design thresholds involved. Please explain what you mean by this, what 
the major points of the study would be, and who should carry out this 
work.

A9. NIST has tentatively proposed a definition of high-rise buildings 
at 420 feet, which is apparently related to common limitations on 
pumping water for fire suppression. There has been discussion of using 
this same threshold for application of a requirement for resistance to 
progressive collapse. It is not clear why the two topics need to be 
correlated. There are many lower buildings that should probably have 
such resistance. The General Services Administration has been requiring 
a measure of resistance to terrorism attack and progressive collapse 
for most federal courthouses built in the past several years, and the 
Department of State has been doing the same for most of our new 
overseas embassies, yet none of these buildings would be more than 420 
feet tall. Considerations beyond occupancy and size, including 
location, will likely be involved. A careful, and probably long, public 
discussion is needed to achieve a comprehensive classification of 
buildings for which this resistance is going to be required by law (as 
opposed to being implemented by option of the owner). This discussion 
should be supported by research in the social science, economic policy, 
and insurance areas. Congress should lead at least some of this public 
discussion, because the Federal Government is obviously spending 
heavily in response to the September 11 attack, and improving our 
resistance to other terrorist attacks should be guided in part by 
intelligent approaches to limiting such outlays in the future.

Questions submitted by Democratic Members

Q1.  Dr. Harris, what is the timeframe for your organization to act 
upon the NIST recommendations? How long will it take for any ASCE code 
revisions to occur?

A1. These recommendations will be a focus of our activities for several 
years to come. We are in the process of collecting public comment on 
our new standard for the use of wind tunnel testing in determining 
design wind loads on buildings, which is responsive in part to a NIST 
recommendation. In that process we have formed an ad hoc committee to 
give specific consideration to making our new standard even more 
responsive to that recommendation. We expect the standard to be 
formally issued in 2006. We have just issued the 2005 edition of our 
standard Minimum Design Loads for Buildings and Other Structures. This 
standard defines basic wind loads, among other actions on structures, 
and contains guidance for resistance to progressive collapse. The 
committee will be reformed in 2006 as we prepare to issue anew edition 
in 2010, and plans are already underway to focus specific task groups 
on the NIST recommendations. Should specific items gather the necessary 
consensus in time, we will be prepared to issue a supplement to our 
2005 edition. While it is reasonable to predict that the 2010 edition 
will have changes stimulated by the NIST recommendations, it is also 
true that there will probably be continuing advancements in knowledge 
and therefore in our standards for many years after that. We will also 
plan to update our standard Structural Design for Fire Conditions as 
more information about performance-based design is developed. We also 
have a large number of technical committees that operate to advance the 
state of knowledge in a many areas of interest to structural engineers, 
and we will be encouraging such committees with a focus on structural 
integrity and on wind loads to carefully review the research needs 
implicit in the NIST recommendations.

Q2.  Dr. Harris, ASCE believes that some of the NIST recommendations 
need further clarification and discussion. What interaction did your 
organization have with NIST during the course of its investigation and 
while it was drafting this report? For example, did ASCE participate in 
the public sessions that NIST held in the course of its investigations? 
Since the report has been made public have you had any follow-up 
conversation with NIST? Do you feel that NIST has been un-responsive to 
your concerns?

A2. Recall that our World Trade Center Building Performance Study 
issued in September 2002 as FEMA report 403 identified many issues 
needing further study and served as a starting point for the NIST 
study. Key members of our team behind FEMA 403 provided input as the 
NIST program was being defined, and many ASCE/SEI members have been 
involved with review of the NIST work at many stages. During this year 
a select group from our Board of Governors had a day-long briefing from 
the NIST leadership team in the spring, then an electronic update 
shortly before the draft was issued as the conclusions were firmed. We 
submitted comments on the draft during the summer, and we have had one 
additional briefing as NIST has prepared strawman proposals for changes 
to the International Building Code. It is worth repeating that we 
believe NIST's study is well done and provides much to advance the 
cause of public safety. NIST actively solicited our comments and has 
listened carefully and respectfully.

Q3.  Dr. Harris, one of the recommendations that ASCE strongly endorses 
is continuing education. This seems an important recommendation as 
structural materials and techniques have changed so dramatically over 
the past twenty years. Currently, what type of courses does ASCE 
sponsor for the continuing education of its members? I also noticed 
from your biography that you are a certified Professional Engineer, 
what does the National Society of Professional Engineers do in the area 
of continuing education for its members? What sort of continuing 
education courses do you think are needed?

A3. ASCE has an active continuing education program. Among the popular 
courses for structural engineers currently being offered are:

        <bullet>  Analysis and Preservation of Historic Bridges

        <bullet>  Bridge Inspection

        <bullet>  Bridge Rehabilitation

        <bullet>  Cable-Stayed Bridges: Key Design, Construction, and 
        Management Issues

        <bullet>  Connection Design for Steel Structures

        <bullet>  Dam Safety and Rehabilitation

        <bullet>  Design and Renovation of Wood Structures

        <bullet>  Design and Strengthening of Shallow Foundations for 
        Conventional and Pre-Engineered Buildings

        <bullet>  Design of Foundations for Dynamic Loads

        <bullet>  Design of Metal Buildings: Avoid Pitfalls in 
        Specifying and Procuring

        <bullet>  Design, Construction, and Renovation of Masonry 
        Structures

        <bullet>  Designing Aluminum Structures

        <bullet>  Earth Retaining Structures Selection, Design, 
        Construction and Inspection

        <bullet>  Earthquake Induced Ground Motions

        <bullet>  Fundamentals of Earthquake Engineering

        <bullet>  Highway Bridge Design, Evaluation and Strengthening 
        Using LRFD

        <bullet>  Joints, Bearings and Devices (JBDs)

        <bullet>  Post Tensioning Construction and Design

        <bullet>  Probabilistic Design

        <bullet>  Progressive Collapse Mitigation: Practical Analysis 
        Methods & Proven Solutions

        <bullet>  Security Risk Management Procedures: Countering 
        Terrorism and Other Threats

        <bullet>  Seismic Design and Performance of Building Structures

        <bullet>  Seismic Design of Highway Bridges

        <bullet>  Structural Condition Assessment of Existing 
        Structures

        <bullet>  Structural Design of Buildings and Industrial 
        Facilities for Bomb Blast Loads and Accidental Explosions

        <bullet>  Structural Design of Industrial Facilities

        <bullet>  Structural Design of Residential Buildings Using the 
        2003 International Residential Code

        <bullet>  Structural Renovation of Buildings

        <bullet>  Structural Vibration Analysis, Design and 
        Troubleshooting

        <bullet>  Wind Loads for Buildings and Other Structures

    We also have several popular Webinars, and we are planning a new 
series of courses illustrating the new edition of ASCE 7 that we plan 
to take to a large number of cities. I am not as familiar with the 
continuing education program of NSPE, but it is my impression that 
their continuing education can be divided into two general categories: 
technical information for young engineers who are preparing for 
licensing exams and less technical information for licensed 
professionals, where the emphasis tends to be on ethics, professional 
practice, and similar topics. I would be happy to forward a request for 
information to NSPE so that you get more accurate information about 
their programs, if you desire. With respect to changes in continuing 
education for the future as influenced by the NIST recommendations, I 
believe that analytical prediction of structural performance under fire 
conditions is a subject that will be in great demand. More detail about 
this subject is in our answer to the general questions for the record.
    I would also like to point out that I am registered, not certified, 
as a professional engineer by the State of Colorado, among others, and 
registered as a structural engineer by the State of California. Our 
profession encourages State governments to recognize that structural 
engineering is a profession essential to protecting public safety, that 
it requires highly trained specialists with substantial experience for 
success in the endeavor to protect the public, and that these facts 
justify separate licensure of structural engineers.
                   Answers to Post-Hearing Questions
Responses by Glenn Corbett, Assistant Professor of Fire Science, John 
        Jay College of Criminal Justice; Member, NIST National 
        Construction Safety Team Advisory Board

Questions submitted by the Majority

Q1.  In her testimony, Ms. McNabb said that the recommendation related 
to elevators may be one of the most important. Do you agree? How 
difficult would that be to codify and implement? Can you give the 
Committee a sense of what specific next steps you would take to 
evaluate that recommendation and what additional information you would 
need and from whom?

A1. Yes, I agree that the use of elevators for egress in very tall 
high-rise buildings is an important recommendation. Several industry 
meetings have been held and research has already been conducted on this 
topic (some of it prior to September 11th, 2001). 1 would suggest that 
NIST convene a summit to establish what, if any, ``research holes'' 
still exist and quickly fill them. I believe we could swiftly move 
forward with a model code recommendation if NIST takes this proactive 
stance.

Q2.  If NIST had taken more of a ``detective'' approach to its work, 
how might that have affected its recommendations?

A2. If NIST had taken a more ``detective'' approach, we may have 
obtained more facts that are critical for gaining support for the code 
recommendations. In addition, other code-related issues may have 
surfaced.

Q3.  In terms of how a building safety investigation should be 
conducted, what are the three most important lessons derived from 
NIST's experience with World Trade Center buildings?

A3. The NCST lessons of the WTC investigation (and the Station 
Nightclub) are: quickly get to the scene of the incident, quickly 
secure evidence (critical steel was lost at the WTC prior to enactment 
of the NCST), swiftly establish an investigation plan, utilize a ``can-
do'' legal staff that aggressively gains access to information and 
physical evidence, and move forward to the ultimate goal of the 
investigation: specific recommendations to changes in codes and 
practices.

Q4.  The WTC report concludes that some recommendations require more 
data and research to be implemented. What are the top three priority 
areas where additional research and data are needed? Which specific 
entities should be doing this research? Which recommendations are most 
hampered by lack of data?

A4. In my opinion, the three priority areas are: 1). the development of 
a new fire resistance protocol to replace the ASTM E-119 test standard, 
2) the development of more robust fire-resistive coatings for steel 
members, 3) the development of a reliable radio communications system 
for emergency responders in high-rise and other ``problem'' locations. 
While NIST could be a coordinator for such research, there are other 
governmental and private sector organizations that should be involved. 
In my opinion, the first two priority areas that I have identified 
(fire resistance testing and fire resistive coatings) are the 
recommendations most hampered by lack of data.

Q5.  Building trade associations have raised concerns that the 
implementation of some of the recommendations will be expensive. Which 
of the recommendations do you believe will be most costly? Would these 
costs be justified in terms of their expected outcomes?

A5. More often than not, new code provisions have a cost associated 
with implementation. Some of the recommendations will likely be 
expensive. Although I am not a structural engineer, it is my 
understanding that the ``progressive collapse'' recommendation is one 
of the most costly. Although that may be the case, the loss in terms of 
lives of another progressive collapse like the WTC disaster or the 
recent Madrid high-rise fire is totally unacceptable.

Q6.  In written testimony submitted to the Committee, the American 
Institute of Architects points to the lack of a fire test facility in 
United States-a facility large enough to test components of a tall 
building--as a major shortcoming in the Nation's ability to improve 
skyscraper safety. Is the maintenance and operation of large-scale fire 
testing capability a NIST responsibility, or does it lie elsewhere in 
the Federal Government or the private sector? How do you respond to the 
AIA's comments?

A6. I agree that a test facility that tests all components as a group 
(similar to a facility in Great Britain) is desperately needed. Then 
current ASTM E-119 test standard is not realistic and needs to be 
replaced. Unfortunately, there is no incentive for the private sector 
to develop such an expensive facility. Despite the fact that building 
safety is a local government function, it would be inappropriate and 
fiscally impossible for cities and states to fund such a facility. It 
is only logical that the Federal Government assume such a 
responsibility and locate the facility within NIST.

Q7.  Testimony submitted to the Science Committee by the Building 
Owners and Managers Association (BOMA) calls for cost-benefit analyses 
to be developed on the implementation of NIST's recommendations. Do you 
believe this is a good idea? Why or why not? If so, who should develop 
these analyses?

A7. The use of a cost-benefit analysis is not currently utilized (to 
any great extent) when preparing the hundreds of codes and standards 
developed by the NFPA, ICC, and other groups. While I agree that such a 
process could be desirable for all codes and standards, I do not 
believe we should start with the WTC investigation. The use of a cost-
benefit analysis must first be debated on a national level, ensuring 
that the public (typically left out of the current code development 
process) has input into the decision of what is ``too costly.''

Q8.  Which recommendations do you think most require action by the 
Federal Government, particularly with respect to research, and which 
agencies should be responsible?

A8. I believe that my response to Question 4 above answers this 
question. I would add, however, that the radio communications issue is 
one of great importance to emergency responders and crosses over 
several lines of jurisdiction within the Federal Government. An serious 
attempt must be made to take control of this issue and move it forward 
to resolution.

Questions submitted by Democratic Members

Q1.  What is your assessment of how well NIST has carried out its 
duties under the National Construction Safety Team (NCST) Act? Do you 
feel that NIST should invoke the ACT more often, for example should 
NIST have invokes the Act to investigate Hurricane Katrina-related 
infrastructure failures? Does NIST have clear criteria for when it 
should invoke the National Construction Safety Team (NCST) Act? When 
reading the comments of the NCST Advisory Committee I have the 
impression that they are frustrated that NIST is not doing enough under 
the authorities provided by the Act.

A1. I feel that NIST has not made a substantial effort to implement the 
NCST and have shown little interest in it. While NIST has worked to 
develop response criteria to establish when teams will be organized, 
they have done little else. For example, they have not established an 
NCST office within NIST and have not developed a detailed investigation 
protocol manual for actual investigations. To my knowledge, they have 
not published a list of actual potential team members (including 
individuals from the private sector).
    NIST should have responded to the Chicago E2 nightclub disaster of 
2003, the Florida hurricanes and California wildfires of 2004, and most 
certainly hurricane Katrina in 2005. These were all substantial 
incidents where the NCST should have been deployed. All of them fall 
within their own ``when to respond'' criteria.
    It is critical that NIST respond to such disasters, and they use 
the NCST to do it. The NCST provides two critical elements not 
contained under other NIST authorities: the ability to investigate 
without having to have local officials ask NIST to do it and requires 
NIST to prepare code recommendations.

Q2.  Mr. Corbett, you feel that NIST took to long to complete its 
investigation. What do you think would have been a more reasonable 
timeframe? Why do you think it took so long to complete the 
investigation?

A2. NIST frequently moved their target completion dates further and 
further back (the World Trade Center building 7 investigation is still 
not complete). While this is somewhat understandable because of the 
complexity of the investigation, a completion target of two and a half 
years would have been more reasonable. From my perspective, it seems 
that it took too long to get out of the starting gate, too long to get 
to the actual investigation initiated. It also seems to be due to legal 
problems as well. For example, some of the delay in the evacuation 
investigation was due to problems in obtaining Institutional Review 
Board (IRB) approval for the oral interviews.

Q3.  Mr. Corbett, you are critical of the NIST recommendations for 
being too vague. Would you give us some examples of where you see 
problems? What should have been done differently?

A3. NIST should have begun developing code recommendations months ago. 
The fact that they are now only hiring the National Institute of 
Building Sciences to prepare them is inexcusable. I consistently 
advocated for development of recommendations in ``tight'' code language 
well over a year ago. For example, NIST should have easily been able to 
come up with specific language for increasing minimum high-rise 
stairwell widths and providing secondary water supplies for sprinkler/
standpipe systems in acceptable code text.

Q4.  Mr. Corbett, you believe that NIST was not assertive enough in its 
investigation and you lay the blame at NIST staff attorneys. How should 
have NIST been more assertive? What leads you to believe it was bad 
counsel by staff attorneys?

A4. NIST legal staff should have exhibited a more ``can-do'' attitude 
to the WTC and Station Nightclub investigations. Instead of spending 
time identifying all the roadblocks to getting information, NIST legal 
staff should have spent more time establishing ways of legally getting 
the information NIST needed. In addition, NIST should have used its 
subpoena power, especially in the case of the Station Nightclub. NIST 
relied almost exclusively on newspaper accounts of club survivors for 
its ``investigation'' rather than actual interviews--totally 
unacceptable.

Q5.  Mr. Corbett, the NIST recommendations are just the first step in 
the process. They have to be implemented by building code organizations 
and adopted by states and localities. How do you see the process moving 
forward? I understand that New York City is currently revising its 
building codes, are they using the NIST report and recommendations in 
this process?

A5. The process will move forward ever so slowly. The model code groups 
and local jurisdictions (like NYC) need tight code language for 
consideration, not material that they have to further refine. The model 
code development process itself takes a long time as does the adoption 
process by local governments. The fact NIST took so long to complete 
the investigation (and continues to in the case of WTC 7) only extends 
this timeline. The National Air Disaster Alliance has said: ``safety 
delayed is safety denied.'' I think this statement is appropriate in 
the case of the NCST WTC investigation.
                   Answers to Post-Hearing Questions
Responses by Henry L. Green, President, International Code Council

Questions submitted by the Majority

Q1.  When is your committee that is prioritizing the NIST 
recommendations going to complete its work? Will that committee then be 
putting any of the recommendations into play for the upcoming ICC 
review process? How is it determining priorities?

A1. The ICC has two committees at work on NIST/WTC related issues, the 
ad-hoc committee on Terror Resistant Buildings (TRB) and the permanent 
Code Technology Committee (CTC). These committees met together in early 
December to continue coordination of activities in advance of the March 
24, 2006 deadline for submission of code change proposals for the 2007 
supplements to the 2006 editions of the I-Codes. Each of the two 
committees will continue the process of preparing independent proposals 
based on each committee's unique charter and in review of the NIST/WTC 
recommendations. In early February the CTC will meet to formally 
receive the recommendations of the TRB, and has scheduled to issue a 
report on the consolidated work of the two committees in advance of the 
March 24 deadline. As is addressed more fully in responses to questions 
below, some of the NIST/WTC recommendations require preparation of 
additional technological and economic assessments. In immediate 
prioritization the committees are focused on those measures for which 
documented supporting evidence is available by the March 24, 2006 
deadline for the next code cycle.

Q2.  In her testimony, Ms. McNabb said that the recommendation related 
to elevators may be one of the most important. Do you agree? How 
difficult would that be to codify and implement? Can you give the 
Committee a sense of what specific next steps you would take to 
evaluate that recommendation and what additional information you would 
need and from whom?

A2. Full exploration of the technological feasibility and costs and 
benefits of this recommendation are a priority. At this time, however, 
it should be observed that it appears unlikely that cost/benefit 
findings based on this recommendation will be available in advance of 
the deadline for the next code development cycle. At present the CTC 
awaits reporting from the American Society of Mechanical Engineers 
(ASME) regarding the technological and economic issues associated with 
this recommendation. Upon availability of findings from ASME, ICC's CTC 
will be able to issue advice regarding the potential timing of a code 
change proposal related to the use of elevators in occupant evacuation 
and emergency response access.

Q3.  In your testimony, you suggested that codes are not necessarily 
the best way to promote changes in practice. What is the problem with 
using codes? What are the alternatives? What NIST recommendations 
should be implemented through means other than codes?

A3. My view in this respect is this, that the quality and value of 
building codes is meaningless unless the enactment of these codes is 
followed up by local and State code officials with the proper training, 
equipment and action by these officials. Building codes, as uniformly 
enforced, both ensure the public of an adequate minimum standard of 
safety in any building they or their family may visit, and also provide 
a level economic playing field for the construction and maintenance of 
our personal and public facilities.
    As I closed my testimony before the Committee, I share the emphasis 
of the NIST/WTC report on recommendations on building regulations:

         Rigorous enforcement of building codes and standards by State 
        and local agencies, well trained and managed, is critical in 
        order for standards and codes to ensure the expected level of 
        safety. Unless they are complied with, the best codes and 
        standards cannot protect occupants, emergency responders, or 
        buildings. NIST NCSTAR 1, Section 9.1, p. 202

Q4.  How did the ICC determine that a three-hour fire rating was 
appropriate in light of the NIST recommendations?

A4. The increase of the fire rating on structural systems for buildings 
greater than 420 feet in height was adopted in final form by ICC's 
membership at its final code action hearings held in September 2003, 
and first became a requirement in the 2004 Supplement to the 2003 
International Building Code. This action was taken in the early stages 
of the NIST/WTC review, well before issuance of recommendations. This 
significant change in the fire rating of structural systems of high-
rise structures was made with the understanding that it will impose 
considerable additional expenses to the construction of new high-rise 
buildings. In my view this change is not a product of new scientific 
understanding; it is a result of our society's profound new realization 
of the attractiveness of such structures to terrorist attack.

Q5.  You say that recommendations related to specific products will 
have trouble getting through. Have any been made?

A5. That observation I shared from generalized experience with ICC's 
code process, but I am not aware of any WTC event inspired code change 
proposals related to specific products. It should be noted that because 
the NIST/WTC final report was issued well after the August 2004 
deadline for code change proposals in the cycle just completed, we have 
not yet received or acted upon code change proposals based on the 
issuance of the final NIST/WTC report.

Q6.  You testified that we need more data and research to implement 
some of NIST's recommendations. What are the top three priority areas 
where additional research and data are needed? Which specific entities 
should be doing this research? Which recommendations are most hampered 
by lack of data?

A6. In my view the top three areas of need for scientific research 
relative to code regulations in conjunction with the recommendations of 
the NIST report are:

        1)  A comprehensive scientific analysis of egress, fire ratings 
        and fire proofing for high-rise structures.

        2)  Specific technical and cost/benefit analysis, in 
        conjunction with ASTM International, of the serviceability of 
        elevator systems for fire event occupant egress and fire 
        services access for high-rise buildings.

        3)  Specific scientific investigation, in conjunction with the 
        American Society of Civil Engineers, of the cost and benefit of 
        enhanced structural provisions necessary to address structural 
        stability and progressive collapse.

    Those questions most hampered by lack of data relate to fire event 
egress; especially the technological potential and the cost/benefit 
calculations of developing elevator systems designed to operate during 
fire evacuation and fire suppression events.

Q7.  Building trade associations have raised concerns that the 
implementation of some of the recommendations will be expensive. Which 
of the recommendations do you believe will be most costly? Would these 
costs be justified in terms of their expected outcomes?

A7. It is clear that implementation of many of the recommendations 
would significantly increase the cost of construction and operation of 
new buildings, as well as reduce the percentage of leasable space in 
new construction. It seems that the most expensive of the 
recommendations relate to enhanced egress measures, especially 
provisions for refuge floors and the construction and operation of 
elevator systems that could be relied upon for occupant egress and fire 
services access during fire events. Considerable additional 
construction costs would also come with providing secondary water 
systems for fire suppression and the additional complexity of 
constructing enhanced structural systems to mitigate potential for 
progressive collapse. Without new data presenting technical feasibility 
and cost/benefit analysis, it is not possible to suggest the likely 
outcome of a code change recommendation based on any of these measures.

Q8.  In written testimony submitted to the Committee, the American 
Institute of Architects points to the lack of a fire test facility in 
the United States--a facility large enough to test components of a tall 
building--as a major shortcoming in the Nation's ability to improve 
skyscraper safety. Is the maintenance and operation of large-scale fire 
testing capability a NIST responsibility, or does it lie elsewhere in 
the Federal Government or the private sector? How do you respond to the 
AIA's comments?

A8. It is important to observe, in context of this question, that the 
NIST report conveys a clear understanding that the structural failures 
of Tower 1 and Tower 2 were a result of the profoundly unique and 
unprecedented conditions associated with terrorist attacks of September 
11, 2001. In this respect the NIST report (page xli) summarizes:

         The tragic consequences of the September 11, 2001 attacks were 
        directly attributable to the fact that terrorists flew large 
        jet-fuel laden commercial airliners into the WTC towers. 
        Buildings for use by the general population are not designed to 
        withstand attacks of such severity; building regulations do not 
        require building designs to consider aircraft impact. In our 
        cities, there has been no experience with a disaster of such 
        magnitude, nor has there been any in which the total collapse 
        of a high-rise building occurred so rapidly and with little 
        warning.

    The AIA states in its testimony that:

         The NIST report and recommendations raise powerful issues 
        about how best to achieve building safety and security. The AIA 
        encourages NIST to further investigate areas such as actual 
        building occupant loads and develop data on actual building 
        performance through additional testing of full-sized 
        components. NIST provides an ideal platform to investigate and 
        report fairly these issues. However, it will be necessary to 
        gather much more data to verify any change in the direction of 
        model building codes. The AIA continues to believe that the 
        best way to ensure that building codes protect the public is to 
        ensure that model codes are developed through an open consensus 
        based process. (AIA testimony, page 7)

    The ICC concurs with the AIA that any NIST recommendation that 
leads to a code change proposal should be considered through a 
voluntary consensus based code and standards process and be accompanied 
with data from a thorough scientific evaluation of the change in 
materials, technology, building design or fire-resistance testing and 
rating processes that are proposed. In assessing questions regarding 
the responsibility for and the value of increased scaling of fire-
testing, as well as the capacity of present public and private sector 
testing facilities to do such, it is imperative to frame the NIST 
recommendations as specific proposals for change to present codes and 
standards. At this writing the ICC is in receipt of a concept, or 
``Strawman'' proposal prepared by NIST which suggests additional 
consideration of scaling on fire resistance standards when test 
specimens are less than 1/2 actual scale. In conducting real fire 
testing for the WTC examination NIST found that the largest facility in 
North America provided testing up to 30 feet; one-half of the size that 
would have been necessary for full-scale testing. NIST has observed 
that, worldwide, there may be only one or two facilities with furnaces 
capable of testing connected structural elements, at designed load, 
with up to 60 foot spans. Given our present understanding of the unique 
character of the conditions under which such full-scale testing would 
enhance the safety of high-rise buildings it may, as the AIA suggests, 
be incumbent on the Federal Government to undertake to construct and 
operate such a unique facility.

Q9.  Testimony submitted to the Science Committee by the Building 
Owners and Managers Association (BOMA) calls for cost-benefit analyses 
to be developed on the implementation of NIST's recommendations. Do you 
believe this is a good idea? Why or why not? If so, who should develop 
these analyses?

A9. As a first measure the public safety benefit of any recommendation 
must be clearly evidenced and supported, and the ICC welcomes the 
results of the NIST/WTC report as significant science in the 
consideration of improving the defensibility of our public structures. 
At the same time it is necessary, in putting forward building code 
changes based on those recommendations, to clearly understand the 
economic consequences of each specific proposal. It is ICC's view that 
NIST, along with all federal agencies with responsibilities impacting 
the built environment, should be active participants in offering 
building code amendment proposals, whether based on the NIST/WTC 
report, or through the general course of involvement in operating in or 
regulating the built environment. As with any code change participant 
or advocate, this includes participation in the development of both the 
scientific evidence supporting a change, and analyses of the economic 
cost and public policy justification for the change.

Q10.  Which recommendations do you think most require action by the 
Federal Government, particularly with respect to research, and which 
agencies should be responsible?

A10. As suggested in my testimony to the Committee, and my observations 
regarding other follow-up questions, the ICC believes that federal 
agency involvement in ICC's Governmental Consensus process is critical 
in providing a full range of interests in the proposal of code change 
recommendations, and in providing scientific and economic evidence that 
allows for a fully considered debate on those recommendations. In this 
manner the federal agency representatives participate, consistent with 
federal policy guidance in OMB A-119 and the NTTAA, as colleagues in 
the voluntary sector model code development and amendment process. This 
participation should reach as well to all standards developing 
organizations (SDOs) that maintain standards which have been identified 
by NIST as addressed by the NIST/WTC report. These developers include 
the American Concrete Institute, the American Institute of Architects, 
the American Institute of Steel Construction, the American Society of 
Civil Engineers, the American Society of Mechanical Engineers, The 
Association of the Wall and Ceiling Industry, ASTM International, the 
International Organization for Standardization, the National Fire 
Protection Association, and Underwriters Laboratories. The work of each 
of these SDOs is, as well, referenced in the International Codes. This 
being said, recommendations 22, 23 and 24 of group 6 ``Improved 
Emergency Response'' have direct and unique impact on the regulatory 
responsibilities of the Department of Homeland Security and the Federal 
Communications Commission, and would require consideration in federal 
rule-making processes.

Questions submitted by Democratic Members

Q1.  Mr. Green, the ICC recommends closer collaboration between 
Federal, State and local governments on building code issues. What 
needs to be improved?

A1. Consistent with the spirit and purpose of OMB Circular A-119 and 
the National Technology and Transfer Act of 1995, U.S. federal agencies 
need not only to look to the private sector for standards to utilize in 
governmental application, but also to participate in these standards 
development processes. Federal Government agencies do have a history of 
participation in the Governmental Consensus Process utilized by ICC. 
That participation should continue to grow along with the agencies' 
growing reliance on ICC's model building codes both to guide federal 
agency construction, as well as in facilitation of federal rule-
makings. Together with expanded participation in proposing and 
advocating independent amendments to the model codes, the agencies 
should actively coordinate the federal perspective on code changes that 
will be considered in ICC's code development process, regardless of the 
source of the proposal.

Q2.  The ICC agrees with NIST's recommendations for continuing 
education for building industry professionals. Currently what 
professional development activities does ICC sponsor? What new 
activities do you envision being developed in cooperation with NIST and 
other federal agencies?

A2. Below is ICC's published training schedule for the coming year. 
These programs are routinely attended by local, State and federal 
officials with responsibilities in facilities construction or in 
regulating the building environment.
    Beyond putting forward these professional training programs 
conducted by ICC's training professionals, and assistance to agencies 
directly utilizing I-Codes in facilities construction, ICC's on-going 
work with NIST and other federal agencies includes policy development 
coordination with ICC's Federal Government relations staff.
    A short list of ICC's collaborative work includes initiatives with 
the Departments of Justice and Housing and Urban Development in 
addressing elimination of barriers to building access and egress, and 
providing HUD's Partnership for Advancing Technology in Housing (PATH) 
with technical support on building regulations. ICC initiatives with 
the Department of Commerce include work with the International Trade 
Administration in hosting foreign delegations researching U.S. 
standards, and similarly with NIST's Office of Standards Services. ICC 
is working with the U.S. Chemical Safety Board in dissemination of 
results from investigations of dust explosions, and in presentation of 
CBC findings to codes and standards amendment processes. Collaboration 
with the Department of Health and Human Services includes work with the 
Centers for Disease Control on a program related to CDC's objective of 
elimination of residential fire deaths by 2020.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Q3.  Mr. Green, I understand that your organization just included a 
general meeting. What were the general reactions to the NIST report by 
your membership?

A3. It should be noted that the main focus of ICC's meeting in Detroit 
in September, 2005 was the final action hearings on code change 
proposals that were submitted in August 2004--well before the release 
of either the draft or final NIST reports. As such no review of the 
report was undertaken by the body at-large. I would observe, however, 
that the membership welcomes the NIST/WTC report and recognizes that 
some of its most significant recommendations, such as those addressed 
in my responses to the other questions from the committee, will require 
additional review, evaluation and findings from standards developers in 
order to have complete information on technological feasibility and in 
order to fully evaluate the cost/benefit balance of specific proposals. 
As I discussed in my testimony, affirmative action was taken by the 
Board of Directors in directing the ICC Code Technology Committee to 
work with NIST and parties in order to prioritize the recommendations 
and prepare specific code change proposals in advance of the March 24, 
2006 deadline for submission to our next 18 month code change cycle.

Q4.  Mr. Green, why do you feel that without NIST involvement and 
leadership that either nothing will be done to implement their 
recommendations or that they may be misinterpreted?

A4. It is my view that NIST has and continues to carry forward its 
responsibilities effectively. NIST will have a critical role in 
elaborating the intent and substantiation of its WTC recommendations 
during discussion of code change proposals stimulated by the WTC 
report. NIST's role will be crucial in ensuring that ICC's technical 
committees and the membership at-large receive a full and accurate 
interpretation and basis for the NIST recommendations. With the public 
circulation of the NIST/WTC report, we do expect that a number of 
additional interested and affected parties will use the report as the 
foundation for specific code changes proposals. To further stimulate 
this process NIST has already demonstrated leadership through the 
issuance, in late November, of a set of ``Strawman'' model building 
code change proposals which present the NIST/WTC recommendations in a 
manner consistent with submissions for actual code change proposals. 
The Strawman document is already being evaluated by ICC's TRB and CTC 
committees in preparation of their report on the development of code 
change proposals based on the NIST/WTC report.


                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


           Statement of The American Institute of Architects

    The American Institute of Architects is pleased to provide written 
testimony for the House Science Committee's hearing on ``NIST's 
Investigation of the World Trade Center Collapse.''
    The AIA represents more than 76,000 licensed architects, emerging 
professionals, and allied partners who are fully committed to the 
highest professional standards in the design of the Nation's built 
environment. As the AIA's public policies state, ``Architecture 
profoundly affects people. The work of architects is essential to human 
well being, and architects must embrace their ethical obligation to 
uphold this public trust.''
    This testimony is based on the AIA's public comments on NIST's 
Final Report of the National Construction Safety Team on the Collapses 
of the World Trade Center Towers. When NIST released its report last 
June, the AIA invited its members to provide input to the Institute 
about the draft report and recommendations. These comments reflect the 
views expressed by the AIA's members.
    The AIA cannot overstate the accomplishments of the NIST 
investigating team and the substantial body of information they 
gathered and organized in response to one of the worst catastrophes in 
American history. The results are a definitive historical record of the 
largest and most devastating building disaster ever. The AIA was 
honored to participate in this process by having one of its members 
serve on the National Construction Safety Team Advisory Committee.
    Recognizing the superior design and performance of the twin towers 
during an unprecedented terrorist attack, the data that the 
investigating team compiled should not only help identify deficiencies 
but also serve as a testament to the buildings' ability to stand long 
enough after the attack to allow thousands of occupants to evacuate.
    We owe it to the victims of the September 11 attacks, and to the 
millions of Americans who use buildings every day, to ensure that our 
built environment is safe, and that any changes to how we design and 
construct buildings come about as the result of an open, deliberative 
and rational building code and regulation development process.

The Investigation: Demonstrating the Robustness of the Towers

    On September 11, 2001, the World Trade Center towers were subjected 
to an almost unimaginable attack from hijacked, fuel-laden 767s flying 
at such high speeds that one of the jets nearly broke apart in mid-air. 
Following its Congressional authorization to investigate the 
circumstances that contributed to the towers' collapse, NIST lauds the 
success of the design, construction and materials for their exceptional 
performance. The report finds that the buildings would have survived 
the catastrophic event were it not for the fact that the aircraft 
caused extensive damage to the buildings and their fire protective 
systems (both passive and active), and ignited extensive fires that 
were limited only by the amount of combustible material they could 
reach.
    The report presents, in its Executive Summary, the following 
findings regarding the design, construction and materials of the 
towers:

 1.  . . .the towers withstood the impacts and would have remained 
standing were it not for the dislodged insulation (fireproofing) and 
the subsequent multi-floor fires. The robustness of the perimeter 
frame-tube system and the large size of the buildings helped the towers 
withstand the impact. The structural system redistributed loads without 
collapsing in places of aircraft impact, avoiding larger scale damage 
upon impact.

 2.  The WTC towers likely would not have collapsed under the combined 
effects of aircraft impact damage and the extensive, multi-floor fires 
if the thermal insulation had not been widely dislodged or had been 
only minimally dislodged by aircraft impact.

 3.  Since the flow of people from the building had slowed considerably 
20 min. [sic] before the tower [WTC 1] collapsed, the stairwell 
capacity was adequate to evacuate the occupants on that morning.

 4.  As in WTC 1, shortly before collapse, the flow of people from the 
building [WTC 2] had slowed considerably, indicating that the stairwell 
capacity was adequate that morning.

 5.  The fire safety systems (sprinklers, smoke purge, and fire 
alarms,) were designed to meet or exceed current practice.

 6.  For the approximately 1,000 emergency responders on the scene, 
this was the largest disaster they had even seen. Despite attempts by 
the responding agencies to work together and perform their own tasks, 
the extent of the incident was well beyond their capabilities.

 7.  . . .the actual design and approval process produced two buildings 
that generally were consistent with nearly all of the provisions of the 
New York City Building Code and other building codes of the time. The 
loads for which the buildings were designed exceeded the code 
requirements. The quality of the structural steels was consistent with 
the building specifications. The departures from the building codes and 
standards did not have a significant effect on the outcome of September 
11.

 8.  On September 11, 2001, the minimum specified thickness of the 
insulation was adequate to delay heating of the trusses; the amount of 
insulation dislodged by the aircraft impact, however, was sufficient to 
cause the structural steel to be heated to critical levels.

 9.  . . .in all cases [during NIST's testing of fire rated 
assemblies], the floors continued to support the full design load 
without collapse for over two hours.

10.  The wind loads used for the WTC towers, which governed the 
structural design of the external columns and provided the baseline 
capacity of the structures to withstand abnormal events such as major 
fires or impact damage, significantly exceeded the requirements of the 
New York City Building Code and selected other building codes of the 
day.

The North Tower. The first account of the performance of World Trade 
Center 1 (the north tower) is found in Chapter 2 of NIST's final 
report. Following a detailed description of the extent of damage, the 
report states, ``Even with all this damage, the building still stood.'' 
Ignition of the building contents by the explosion of 10,000 gallons of 
jet fuel is addressed in the account of WTC 1, which finds that the 
ignition of the contents of the building and airplane caused a fuel-
controlled fire, creating an exposure that is not typical of any 
condition that is considered when designing buildings.
    The report finds that the aircraft impact virtually destroyed the 
fire protection systems. The report states that the system was designed 
to supply water to about eight sprinkler heads at one time, enough to 
control the flames from as much as 1,500 square feet of burning 
material. The water supply was likely sufficient to control fires up to 
triple that size. However, the fires caused by the aircraft impact were 
far larger than those envisioned by any imaginable fire protection 
system.

The South Tower. World Trade Center 2 (the south tower) was subjected 
to a similar event, but faced a number of factors that were distinct 
from WTC 1. Those factors resulted in a larger overall fraction of the 
occupants surviving, despite the fact that WTC 2 collapsed in a shorter 
period of time. According to the report, within five minutes of the 
impact on WTC 1, half of the occupants of WTC 2 had left their floors, 
and the number of evacuees subsequently increased rapidly. Based on 
their perception of events occurring in WTC 1, approximately 3,000 
people in WTC 2 escaped in the 16 minutes between the aircraft impact 
on WTC 1 and the impact on WTC 2.
    The report goes on to state that WTC 2 ``swayed more than one foot 
back and forth in each direction on the impact floors, about one-third 
the sway under the high winds for which the building was designed.'' 
Nonetheless, just like WTC 1, WTC 2 absorbed the aircraft strike and 
remained standing for nearly an hour. Similar to the circumstances of 
WTC 1, jet fuel played a critical role in providing an extraordinary 
ignition source to the fuel load in WTC 2, contributing to the ultimate 
failure of the structural system.
    The World Trade Center collapse provided the design and 
construction industry with an opportunity to evaluate and reexamine its 
processes and practices. Based upon the outstanding success of these 
buildings under extraordinary circumstances, it is clear that the 
design community can be trusted to create redundancies for typical 
building emergency situations, that codes are developed in a manner 
that provides sufficient input from all quarters to ensure adequate 
life safety for typical emergency situations, and that no upgrading of 
code requirements is warranted given the performance of these 
buildings.

The Recommendations: Missed Opportunities

    Although the report provides significant information regarding the 
performance of the buildings, their occupants and the extraordinary 
efforts of the responding emergency personnel, the AIA believes that a 
number of the recommendations in the report are not supported by the 
findings of the investigation. Other recommendations suggest reforms 
that have already been addressed by the design and construction 
industry or the model code organizations. The Appendix to this 
testimony provides a detailed analysis of NIST's recommendations and 
the AIA's responses.
    At the same time, the AIA believes that the report misses 
opportunities to make recommendations that would improve the 
understanding of how buildings perform in extreme events. Developing 
that understanding in order to protect building occupants must be a 
fundamental mission of all organizations that work to create a better 
built environment.
    One such area is fire testing. NIST developed advanced fire 
modeling techniques to evaluate the complex circumstances at the World 
Trade Center, examining the spread of fire and its impact on structural 
members. This may become an important tool for designing safer 
buildings, although their ability to integrate known conditions into 
the modeling currently used in the marketplace was a major problem even 
for NIST when it evaluated the 2003 fire at the Station nightclub in 
Rhode Island.
    The AIA believes that improved fire testing is a vital need, and 
opportunity, that must not be ignored. The Institute is therefore 
troubled by the fact that there are no test facilities in the United 
States that can accommodate the larger lengths or sizes of elements 
such as those found in the twin towers. If the Federal Government is 
truly committed to understanding the effects of such fire hazards on 
the built environment, it is critical that it provide for adequate 
testing facilities at home.
    The AIA strongly encourages this committee to consider authorizing 
funding to construct new testing facilities or retrofit existing 
facilities that can address the full range of building conditions 
present in the United States.
    In addition, NIST should be encouraged to take advantage of its 
position as the preeminent research facility in the United States to 
examine innovative materials and processes and assure that they meet 
the most rigorous of standards appropriate for their use. Performance 
codes, which the AIA believes are the future direction for building 
codes and regulations, are sorely in need of supporting information on 
the actual performance of buildings and building systems. Without this 
data, designers are left to make assumptions based on limited 
resources.
    Furthermore, the AIA believes that NIST should facilitate 
opportunities to develop ``smart'' building systems that would better 
advise first responders of actual building conditions and situations. 
The current efforts to improve the use of elevators in an emergency are 
an example of the dramatic changes that will take place to the guidance 
provided to building occupants.

Building Codes: An Accountable and Comprehensive System

    The major finding of the NIST report is that the design and 
construction materials of the World Trade Center did not contribute to 
the disaster; they performed exceptionally well. Despite this fact, the 
report offers several recommendations that are not supported by the 
investigation, nor are they backed by substantive research. In fact, 
the premises of some of the statements appear to be in error.
    For example, in section 9.1 (``Building Standards and Codes: Who is 
in Charge?''), the report states, ``Very few members of the general 
public and building occupants participate in [the code development] 
process.'' Although this is true of most standards development groups, 
including NFPA and IAPMO, it is not true for the International Code 
Council's family of codes. State and local code enforcement officials 
(building, fire, plumbing, electrical, etc.) are a driving force behind 
code changes and have the controlling votes on all changes to ICC's 
codes. These officials are public officials who represent their states, 
counties and cities, and do not fall within any of the categories that 
NIST lists as ``influencing the practices used in the design, 
construction, operation, and maintenance of buildings in the United 
States.''
    The code enforcement community has been extraordinarily aggressive 
in pursuing education and certification for their members. Many states 
and local jurisdictions have worked diligently to assure the 
credibility of their enforcement programs by requiring certification of 
training obtained by their code enforcement officials.
    The question of ``who is in charge'' regarding the development and 
application of codes and standards is well established and recognized 
by 45 states as the code official using the International Building 
Code, and in 36 states as the code official using the International 
Fire Code.
    The AIA believes that State and local governments must retain the 
authority to determine appropriate building regulations. The AIA does 
not agree that the Federal Government is in a position to supplant the 
voice or the rights of local and state jurisdictions by presuming to 
speak for the public that is given the constitutional authority through 
police powers to determine what is appropriate for building regulation 
in their communities.
    The fundamental challenge regarding codes and life safety today is 
the lack of an understanding or an appreciation by users of the safety 
features designed and built into modern buildings. This includes 
building owners, managers, tenants and service providers who often 
unintentionally subvert life safety features out of ignorance about how 
they work. This was most evident in the Rhode Island nightclub tragedy, 
where modifications that were made to the interior of the building and 
the use of pyrophoric materials in the facility were both major 
violations of the applicable codes. Had the owner or the user of the 
space been more knowledgeable about the potential hazards associated 
with such actions, that disaster would likely have been averted.

Conclusion

    NIST has undertaken an extraordinary effort to investigate and 
understand the consequences of the most devastating terrorist attack in 
our nation's history. It should be reassuring to the public that the 
report concludes that the World Trade Center towers were well within 
the contemporary norms of design and construction, and that the 
buildings were able to stand long enough to allow thousands of people 
to escape.
    But the terrible loss of life that day demands that we study the 
results of this investigation closely to learn what the design and 
construction professions have done right, and where improvements can be 
made to better protect people in buildings.
    The recommendations in the NIST report are useful guidelines 
towards that end. However, the AIA believes that at times the 
recommendations overlook measures and technologies that are already in 
practice, or go in directions that are not supported by either the 
investigation or scientific research.
    The need to protect the health, safety and welfare of people who 
use buildings is not a subject of debate. This is why the AIA requires 
its members to adhere to the highest professional standards and take at 
least eight hours of health, safety and welfare continuing education 
classes each and every year throughout their careers in order to remain 
members in good standing.
    The NIST report and recommendations raise powerful issues about how 
best to achieve building safety and security. The AIA encourages NIST 
to further investigate areas such as actual building occupant loads and 
develop data on actual building performance through additional testing 
of full-sized components. NIST provides an ideal platform to 
investigate and report fairly these issues. However, it will be 
necessary to gather much more data to verify any change in the 
direction of model building codes. The AIA continues to believe that 
the best way to ensure that building codes protect the public is to 
ensure that model codes are developed through an open, consensus based 
process.
    The AIA commends NIST for making education a focus of its efforts. 
The AIA encourages the design and construction industry, and everyone 
who uses buildings, to take advantage of opportunities to gain a 
greater understanding of how buildings affect our lives and our 
communities.

                Appendix: Recommendations and Responses

    The report states that NIST's recommendations (Section 9.2) are 
based on:

1.  Findings related to building performance, evacuation and emergency 
response, and to procedures and practices used in the design, 
construction, operation, and maintenance of the buildings;

2.  Whether these findings relate to the unique circumstances 
surrounding the terrorist attacks of September 11, 2001, or to normal 
building and fire safety considerations (including evacuation and 
emergency response);

3.  Technical solutions that are needed to address potential risks to 
buildings, occupants, and emergency responders, considering both 
identifiable hazards and the consequences of those hazards; and

4.  Whether the risks apply to all buildings or are limited to certain 
building types (e.g., buildings that exceed a certain height and floor 
area or that employ a specific type of structural system), buildings 
that contain specific design features, iconic/signature buildings, or 
buildings that house critical functions.

    NIST's recommendations are broken down into eight groups. The AIA's 
comments follow each recommendation.

Group 1: Increased Structural Integrity

    Group 1 (Increased Structural Integrity) calls for improved 
standards to enhance structural integrity for estimating load effects 
of progressive collapse and wind.

Recommendation 1. NIST recommends that: (1) progressive collapse should 
be prevented in buildings through the development and nationwide 
adoption of consensus standards and code provisions, along with the 
tools and guidelines needed for their use in practice; and (2) a 
standard methodology should be developed--supported by analytical 
design tools and practical design guidance--to reliably predict the 
potential for complex failures in structural systems subjected to 
multiple hazards.

Recommendation 2. NIST recommends that nationally accepted performance 
standards be developed for: (1) conducting wind tunnel testing of 
prototype structures based on sound technical methods that result in 
repeatable and reproducible results among testing laboratories; and (2) 
estimating wind loads and their effects on tall buildings for use in 
design, based on wind tunnel testing data and directional wind speed 
data.

Recommendation 3. NIST recommends that an appropriate criterion should 
be developed and implemented to enhance the performance of tall 
buildings by limiting how much they sway under lateral load design 
conditions (e.g., winds and earthquakes).

AIA Response

    It should be noted that nothing in the NIST report criticizes nor 
questions the structural integrity of the World Trade Center towers and 
their design. In fact, the report finds that the buildings were more 
robust than would have been required by any code in force at the time 
they were designed and constructed. NIST's report focuses on the 
varying results they received when different consultants examined the 
buildings' wind design. It is the lack of a consensus method for 
evaluating buildings that NIST's recommendations address, not providing 
additional requirements for the design of structures.
    A recent article by Jesse Beitel and Nestor Iwankiw, Ph.D., P.E., 
from Hughes Associates, Inc., in SFPE's Fire Protection Engineering 
(Summer 2005) documents a ``Historical Survey of Multistory Building 
Collapses Due to Fire.'' The data in the article was taken from a NIST 
survey performed in 2002 that focused on buildings four or more stories 
tall. The survey covered the time period between 1970 and 2002 and 
discovered a total of 22 buildings that had either full or partial 
collapse. The article states, ``While the number of fire events may 
appear low (average of one per year), these fire events are high-
consequence occurrences with respect to loss of life, injuries, and 
economic costs.'' When examining those statistics, five of the fire 
events were the result of the September 11 attacks, and 13 of the 
buildings were four to eight stories tall. There were only three 
``high-rise'' buildings that involved any collapse scenario.
    The Beitel/Iwankiw article states:

         Almost 60 percent (13/22) of the cases are in the 4-8 stories 
        range, with the remainder affecting much taller buildings. Six 
        collapses occurred in buildings over 20 stories, and three of 
        these were the WTC steel-framed buildings (1, 2, and 7). At 
        least four of these fire collapses had occurred during 
        construction or renovations of some kind, when the usual 
        expected architectural, structural and fire protection 
        functions were still incomplete or temporarily disrupted.

    It is common knowledge that a construction site is an unsafe and 
dangerous environment. Additionally, the research for this study does 
not include any information determining whether the buildings conformed 
to any code or standard. Based on NIST's own study, it appears that the 
recommendation to increase structural integrity is due to fire events 
in a total of four collapsed structures four stories or taller over a 
32-year period. Assuming that one of the collapses is the Murrah 
Federal Building in Oklahoma City, Oklahoma, in which the collapse was 
the result of a vehicle-borne explosive, this leaves a total of three 
such fire events worldwide that resulted in collapse or partial 
collapse of a high-rise building.

Group 2: Enhanced Fire Resistance of Structures

    Group 2 (Enhanced Fire Resistance of Structures) recommends that 
the procedures and practices used to ensure that the basis for 
classification of fire resistance in buildings should be enhanced.

Recommendation 4. NIST recommends evaluating, and where needed 
improving, the technical basis for determining appropriate construction 
classification and fire rating requirements (especially for tall 
buildings greater than 20 stories in height)--and making related code 
changes now as much as possible--by explicitly considering factors 
including:

        <bullet>  timely access by emergency responders and full 
        evacuation of occupants, or the time required for burnout 
        without local collapse;

        <bullet>  the extent to which redundancy in active fire 
        protection (sprinkler and standpipe, fire alarm, and smoke 
        management) systems should be credited for occupant life 
        safety;

        <bullet>  the need for redundancy in fire protection systems 
        that are critical to structural integrity;

        <bullet>  the ability of the structure and local floor systems 
        to withstand a maximum credible fire scenario without collapse, 
        recognizing that sprinklers could be compromised, not 
        operational, or non-existent;

        <bullet>  compartmentation requirements (e.g., 12,000 ft2) to 
        protect the structure, including fire rated doors and automatic 
        enclosures, and limiting air supply (e.g., thermally resistant 
        window assemblies) to retard fire spread in buildings with 
        large, open floor plans;

        <bullet>  the impact of spaces containing unusually large fuel 
        concentrations for the expected occupancy of the building; and

        <bullet>  the extent to which fire control systems, including 
        suppression by automatic or manual means, should be credited as 
        part of the prevention of fire spread.

Recommendation 5. NIST recommends that the technical basis for the 
century-old standard for fire resistance testing of components, 
assemblies, and systems should be improved through a national effort. 
Necessary guidance also should be developed for extrapolating the 
results of tested assemblies to prototypical building systems.

Recommendation 6. NIST recommends the development of criteria, test 
methods, and standards: (1) for the in-service performance of spray-
applied fire resistive materials (SFRM, also commonly referred to as 
fireproofing or insulation) used to protect structural components; and 
(2) to ensure that these materials, as-installed, conform to conditions 
in tests used to establish the fire resistance rating of components, 
assemblies, and systems.

Recommendation 7. NIST recommends the nationwide adoption and use of 
the ``structural frame'' approach to fire resistance ratings.

AIA Response

    Enhanced fire resistance was not an issue in the World Trade Center 
collapse, as the buildings would have survived even the massive fires 
caused by the aircraft had the planes not dislodged fire proofing 
materials.
    Recommendation 4 implies that structures should be designed for an 
aircraft impact, which does not comport with NIST's findings. In fact, 
the lead investigator for NIST has stated that it is far easier to 
ensure that airplanes are not used as weapons against buildings than to 
design for such an event. As noted earlier, the instances of structural 
failure due to fire are extremely rare and, in a fully sprinklered 
building, even rarer. These facts do not indicate a need for enhanced 
levels of fire resistance in building design.
    One of the concerns expressed with regard to construction methods 
involves the application of spray-on fireproofing. This debate is not 
new and has been well documented. It is of concern that, with such a 
large focus in the report on the fire resistance of materials used in 
the buildings, there is no mention of the appropriateness of test 
standards such as ASTM E605-00 (Test Method for Thickness and Density 
of Sprayed Fire-resistive Material (SFRM) Applied to Structural 
Members) and ASTM E736 (Cohesion/Adhesion of Sprayed Fire-Resistive 
Materials Applied to Structural Members), both of which are referenced 
in the International Building Code, and thus presumably ``required by 
code'' and enforced.
    Similarly lacking is reference to, or a measure of the 
appropriateness of, ASTM E759 (Effect of Deflection on Sprayed Fire-
Resistive Materials Applied to Structural Members), ASTM E760 (Effect 
of Impact on Bonding of Sprayed Fire-Resistive Materials Applied to 
Structural Members), ASTM E761 (Compressive Strength of Sprayed Fire-
Resistive Materials Applied to Structural Members), ASTM E859 (Air 
Erosion of Sprayed Fire-Resistive Materials Applied to Structural 
Members), or ASTM E937 (Corrosion of Steel by Sprayed Fire-Resistive 
Materials Applied to Structural Members).
    In recommendation 5, NIST suggests reevaluation of the ASTM E119 
procedure. The AIA believes that a better approach would be to take the 
research performed by NIST using recognized testing procedures to 
explore how the large-scale testing compares with results obtained 
using small-scale tests. The fact that the unrestrained assembly 
outperformed the restrained assembly is still unexplained. It appears 
that design is still taking place under the assumption that a 
restrained assembly will outperform an unrestrained assembly.
    NIST specifically refers to the AIA in recommendation 6, suggesting 
that it is important ``to develop criteria, test methods and standards 
for the `in-service' performance of spray-applied fire resistive 
materials.'' NIST suggests that MasterSpec is the appropriate forum for 
such activity. Architects in general, and MasterSpec in particular, do 
not have that sole responsibility establishing such standards. Other 
agencies or organizations develop standards, which are then included in 
MasterSpec where appropriate as requirements for the construction of 
buildings. Architects and specifiers often participate in the 
development of standards, which is appropriate to assure the 
applicability of the resulting standards. But it is the collaborative 
development of standards that should be encouraged. With the lack of 
specific direction on the use of the standards that even now are found 
in building codes, it is unclear what NIST is recommending be done.
    Lastly, recommendation 6 suggests adoption of a structural frame 
approach to design throughout the United States. However, the 
requirement for design of a structural frame has already been 
accomplished by the adoption of the International Building Code in 45 
states.

Group 3: New Methods for Fire Resistance Design of Structures

    Group 3 (New Methods for Fire Resistance Design of Structures) 
recommends that procedures used to design the fire resistance should be 
enhanced by considering uncontrolled fires to burnout. This 
recommendation suggests that new coatings and technology for evaluating 
them be developed to enhance conventional and high-performance 
structural materials.

Recommendation 8. NIST recommends that the fire resistance of 
structures should be enhanced by requiring a performance objective that 
uncontrolled building fires result in burnout without local or global 
collapse.

Recommendation 9. NIST recommends the development of: (1) performance-
based standards and code provisions, as an alternative to current 
prescriptive design methods, to enable the design and retrofit of 
structures to resist real building fire conditions, including their 
ability to achieve the performance objective of burnout without 
structural or local floor collapse: and (2) the tools, guidelines, and 
test methods necessary to evaluate the fire performance of the 
structure as a whole system.

Recommendation 10. NIST recommends the development and evaluation of 
new fire resistive coating materials, systems, and technologies with 
significantly enhanced performance and durability to provide protection 
following major events.

Recommendation 11. NIST recommends that the performance and suitability 
of advanced structural steel, reinforced and pre-stressed concrete, and 
other high-performance material systems should be evaluated for use 
under conditions expected in building fires.

AIA Response

    Recommendation 8 suggests consideration of designing to allow 
``uncontrolled fires to burnout.'' Such circumstances may be a 
consideration, but are not appropriate in most circumstances. Even 
where there have been uncontrolled fires that caused a ``burnout,'' 
there is no evidence that current procedures are inadequate. In the 
article by Beitel and Iwankiw, which uses NIST data, the rationale is 
not present to warrant such a major change in building code 
requirements.
    Recommendation 9 reflects actions taken by both the ICC and the 
NFPA in the development of performance code criteria. What is currently 
lacking are the tools and background information on responses of 
buildings and the performance of the elements within them for any given 
event. The AIA believes that NIST could provide a significant resource 
to the industry by examining actual fire scenarios more closely and 
developing guidelines for understanding such events. With that kind of 
data available, designers would be able to utilize a performance 
approach to building safety that is informed by real world evidence.
    The AIA questions the logic behind recommendations 10 and 11. The 
report frequently expresses doubt about ``innovative'' design materials 
and methods in its evaluation of the floor truss systems in the World 
Trade Center. Yet those innovative floor framing systems performed as 
anticipated and were proven to be adequate based on the tests that NIST 
performed. Industry will continuously develop innovative materials and 
systems, and the AIA believes that NIST can and should play a vital 
role in encouraging them by facilitating more realistic testing that 
would replicate actual construction.

Group 4: Improved Active Fire Protection

    Group 4 (Improved Active Fire Protection) calls for enhancements to 
sprinklers, standpipes, hoses, fire alarms and smoke management 
systems, including redundancy.

Recommendation 12. NIST recommends that the performance and redundancy 
of active fire protection systems (sprinklers, standpipes/hoses, fire 
alarms, and smoke management systems) in buildings should be enhanced 
to accommodate the greater risks associated with increasing building 
height and population, increased use of open spaces, available 
compartmentation, high-risk building activities, fire department 
response limits, transient fuel loads, and higher threat profile.

Recommendation 13. NIST recommends that fire alarm and communications 
systems in buildings should be developed to provide continuous, 
reliable, and accurate information on the status of life safety 
conditions at a level of detail sufficient to manage the evacuation 
process in building fire emergencies, and that standards for their 
performance be developed.

Recommendation 14. NIST recommends that control panels at fire/
emergency command stations in buildings should be adapted to accept and 
interpret a larger quantity of more reliable information from the 
active fire protection systems that provide tactical decision aids to 
fireground commanders, including water flow rates from pressure and 
flow measurement devices, and that standards for their performance be 
developed.

Recommendation 15. NIST recommends that systems should be developed and 
implemented for: (1) real-time off-site secure transmission of valuable 
information from fire alarm and other monitored building systems for 
use by emergency responders, at any location, to enhance situational 
awareness and response decisions and maintain safe and efficient 
operations; and (2) preservation of that information either off-site or 
in a black box that will survive a fire or other building failure for 
purposes of subsequent investigations and analysis. Standards for the 
performance of such systems should be developed, and their use should 
be required.

AIA Response

    NIST's concerns about the redundancy of active and passive fire 
protective systems are valid in circumstances where all such systems 
may be rendered ineffective or inoperative. However, such circumstances 
are extremely rare, as was the case in the unprecedented aircraft 
attack on the World Trade Center. The ICC Performance Code for 
Buildings and Facilities, NFPA's 101 Life Safety Code and 5000 Building 
Code already include this approach to fire protection design in their 
performance guidelines. Although the World Trade Center was not 
designed for such complex circumstances, it nevertheless performed 
remarkably well.
    Recommendations 13, 14, and 15 include opportunities for 
significant improvement in the performance of fire protection systems 
by installing smart building devices. Where there is a reasonable risk 
of natural or manmade hazards to a particular structure, every effort 
should be taken to ensure the security of the facilities and protection 
of the occupants.

Group 5: Improved Building Evacuation

    Group 5 (Improved Building Evacuation) addresses communications 
systems and the design of means of egress.

Recommendation 16. NIST recommends that public agencies, non-profit 
organizations concerned with building and fire safety, and building 
owners and managers should develop and carry out public education 
campaigns, jointly and on a nationwide scale, to improve building 
occupants' preparedness for evacuation in case of building emergencies.

Recommendation 17. NIST recommends that tall buildings should be 
designed to accommodate timely full building evacuation of occupants 
due to building-specific or large-scale emergencies such as widespread 
power outages, major earthquakes, tornadoes, hurricanes without 
sufficient advanced warning, fires, accidental explosions, and 
terrorist attack. Building size, population, function, and iconic 
status should be taken into account in designing the egress system. 
Stairwell and exit capacity should be adequate to accommodate 
counterflow due to emergency access by responders.

Recommendation 18. NIST recommends that egress systems should be 
designed: (1) to maximize remoteness of egress components (i.e., 
stairs, elevators, exits) without negatively impacting the average 
travel distance; (2) to maintain their functional integrity and 
survivability under foreseeable building-specific or large-scale 
emergencies; and (3) with consistent layouts, standard signage, and 
guidance so that systems become intuitive and obvious to building 
occupants during evacuations.

Recommendation 19. NIST recommends that building owners, managers, and 
emergency responders develop a joint plan and take steps to ensure that 
accurate emergency information is communicated in a timely manner to 
enhance the situational awareness of building occupants and emergency 
responders affected by an event. This should be accomplished through 
better coordination of information among different emergency responder 
groups, efficient sharing of that information among building occupants 
and emergency responders, more robust design of emergency public 
address systems, improved emergency responder communication systems, 
and use of the Emergency Broadcast System (now known as the Integrated 
Public Alert and Warning System) and Community Emergency Alert 
Networks.

Recommendation 20. NIST recommends that the full range of current and 
next generation evacuation technologies should be evaluated for future 
use, including protected/hardened elevators, exterior escape devices, 
and stairwell navigation devices, which may allow all occupants an 
equal opportunity for evacuation and facilitate emergency response 
access.

AIA Response

    Recommendation 16, though well intentioned, misses a key element of 
building safety. While ensuring proper egress during an emergency is 
important, too many building owners, managers and occupiers fail to 
prepare for emergencies before the fact. Examples of malfunctioning or 
failed systems (such as burned out exit sign lights or fire doors that 
are blocked by furniture or boxes) are routine, leaving occupants in 
jeopardy. It is therefore just as important to educate users about 
maintaining the many life safety elements in a building so that they 
are functioning as designed when an emergency happens.
    Recommendation 17 suggests wider stairwells and greater exit 
capacity to accommodate regarding counter-flow from first responders. 
This raises a concern about orderly and controlled egress. No research 
is cited regarding the effect wider stairs may have, or the possibility 
that evacuating occupants will simply fill the larger stairwell. 
Faster-moving individuals will tend to pass slower people descending 
the stairs, potentially leading to conflict and disruption of an 
orderly egress process.
    Regarding the distribution of exits, the current model codes 
address the minimum remoteness issue. Had the stairs been more remote 
from each other at the World Trade Center there is no guarantee that 
even hardened stair enclosures would not have been totally 
incapacitated had the aircraft impacted the buildings at or near the 
more remote stair. Placing stairs further outside the core of buildings 
reduces their level of hardening and leaves them more vulnerable to 
abuse by the occupants of the building.
    Recommendation 20 calls for hardening of elevators and stairway 
enclosures as well as additional devices that aid egress. 
Unfortunately, the hardening issue can be a catch-22. Although 
hardening may help in maintaining an element's viability in certain 
emergency situations, the hardened features may be difficult for 
occupants to manage if they are damaged. Reports have emerged about 
individuals caught inside elevators at the twin towers who used various 
devices to escape by cutting their way through the drywall shaft. Would 
that have been possible in a hardened shaft? Furthermore, the occupants 
who discovered the single stair that remained partially open to the 
upper floors in WTC 2 would not have been able to remove ``hardened'' 
debris and egress those stairs.
    Technology for aids to egress are encouraged. However the most 
promising development to assist egress in a tall building is a 
functioning elevator system, as proven in WTC 2.

Group 6: Improved Emergency Response

    Group 6 (Improved Emergency Response) recommends technical and 
procedural changes to gain access to buildings and maintain effective 
communications and command and control in large-scale emergencies

Recommendation 21. NIST recommends the installation of fire-protected 
and structurally hardened elevators to improve emergency response 
activities in tall buildings by providing timely emergency access to 
responders and allowing evacuation of mobility-impaired building 
occupants. Such elevators should be installed for exclusive use by 
emergency responders during emergencies. In tall buildings, 
consideration also should be given to installing such elevators for use 
by all occupants.

Recommendation 22. NIST recommends the installation, inspection, and 
testing of emergency communications systems, radio communications, and 
associated operating protocols to ensure that the systems and 
protocols: (1) are effective for large-scale emergencies in buildings 
with challenging radio frequency propagation environments; and (2) can 
be used to identify, locate, and track emergency responders within 
indoor building environments and in the field.

Recommendation 23. NIST recommends the establishment and implementation 
of detailed procedures and methods for gathering, processing, and 
delivering critical information through integration of relevant voice, 
video, graphical, and written data to enhance the situational awareness 
of all emergency responders. An information intelligence sector should 
be established to coordinate the effort for each incident.

Recommendation 24. NIST recommends the establishment and implementation 
of codes and protocols for ensuring effective and uninterrupted 
operation of the command and control system for large-scale building 
emergencies.

AIA Response

    Recommendation 21 largely duplicates recommendation 20. Existing 
elevator technology recalls all elevators for emergency use. Whether 
hardening is appropriate is a serious question; it has not been proven 
to be appropriate or even desirable in those locations where it has 
been attempted.

Group 7: Improved Procedures and Practices

    Group 7 (Improved Procedures and Practices) addresses code 
compliance by nongovernmental agencies, adoption of egress and 
sprinkler requirements in codes for existing buildings and maintenance 
of building documents over the life of the structure.

Recommendation 25. Non-governmental and quasi-governmental entities 
that own or lease buildings and are not subject to building and fire 
safety code requirements of any governmental jurisdiction are 
nevertheless concerned about the safety of the building occupants and 
the responding emergency personnel. NIST recommends that such entities 
should be encouraged to provide a level of safety that equals or 
exceeds the level of safety that would be provided by strict compliance 
with the code requirements of an appropriate governmental jurisdiction. 
To gain broad public confidence in the safety of such buildings, NIST 
further recommends that it is important that as-designed and as-built 
safety be certified by a qualified third party, independent of the 
building owner(s). The process should not use self-approval for code 
enforcement in areas including interpretation of code provisions, 
design approval, product acceptance, certification of the final 
construction, and post-occupancy inspections over the life of the 
buildings.

Recommendation 26. NIST recommends that state and local jurisdictions 
should adopt and aggressively enforce available provisions in building 
codes to ensure that egress and sprinkler requirements are met by 
existing buildings. Further, occupancy requirements should be modified 
where needed (such as when there are assembly use spaces within an 
office building) to meet the requirements in model building codes.

Recommendation 27. NIST recommends that building codes should 
incorporate a provision that requires building owners to retain 
documents, including supporting calculations and test data, related to 
building design, construction, maintenance and modifications over the 
entire life of the building. Means should be developed for offsite 
storage and maintenance of the documents. In addition, NIST recommends 
that relevant building information should be made available in suitably 
designed hard copy or electronic format for use by emergency 
responders. Such information should be easily accessible by responders 
during emergencies.

Recommendation 28. NIST recommend that the role of the ``Design 
Professional in Responsible Charge'' should be clarified to ensure 
that: (1) all appropriate design professionals (including, e.g., the 
fire protection engineer) are part of the design team providing the 
standard of care when designing buildings employing innovative or 
unusual fire safety systems, and (2) all appropriate design 
professionals (including, e.g., the structural engineer and the fire 
protection engineer) are part of the design team providing the standard 
of care when designing the structure to resist fires, in buildings that 
employ innovative or unusual structural and fire safety systems.

AIA Response

    Recommendations 25 and 26 call for the adoption and use of codes. 
The AIA has long advocated that every jurisdiction in the Nation, at 
all levels of government, to use a modern building code that is 
comprehensive, coordinated and contemporary. The AIA believes that the 
ICC family of codes, in conjunction with the NFPA electrical code, 
provide the ``bookshelf'' of codes that should be endorsed by all 
legislative and quasi-legislative agencies for application on all 
projects. Adoption of a single ``bookshelf'' of codes utilized by all 
designers, builders and operators of buildings across the Nation has 
been a long sought goal of the AIA to avoid confusion in the creation 
of the built environment.
    Recommendation 28 calls for the ``design professional in 
responsible charge'' to assure that the appropriate professionals are 
included on each design team. This is, and has been for a long time, 
standard practice in this country and is demanded by the licensing 
criteria in all states. There appears to be a presumption that fire 
protection engineers and structural engineers are somehow excluded from 
``innovative or unusual fire safety systems.'' It is most likely that 
these designers are the ones who are proposing innovative solutions to 
innovative designs. It would be unethical and unprofessional to fail to 
include a fire protection engineer or structural engineer in such 
projects.

Group 8: Education and Training

    Group 8 (Education and Training) calls for the skills of building 
and fire professionals to be upgraded through education and training of 
fire protection engineers, structural engineers, and architects.

Recommendation 29. NIST recommends that continuing education curricula 
should be developed and programs should be implemented for training 
fire protection engineers and architects in structural engineering 
principles and design, and training structural engineers, architects, 
and fire protection engineers in modern fire protection principles and 
technologies, including fire-resistance design of structures.

Recommendation 30. NIST recommends that academic, professional short-
course, and web-based training materials in the use of computational 
fire dynamics and thermostructural analysis tools should be developed 
and delivered to strengthen the base of available technical 
capabilities and human resources.

AIA Response

    Recommendations 29 and 30 call for education of members of the 
design and construction industry. As the only professional organization 
in the industry that holds its members to a standard of education 
(accredited degrees) and continuing education (18 hours of continuing 
education per year, of which at least eight must be related to health, 
safety and welfare), the AIA applauds NIST's call to others in the 
field to gain additional education.
    However, education is only valuable if the information is readily 
understood and can be incorporated into every-day practice. While 
computational fire dynamics and thermostructural analysis tools may be 
helpful in certain circumstances, they must be of use to those that 
will make the decisions associated with fire resistance and fire 
protection and design.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Statement by James G. Quintiere
          Professor, Department of Fire Protection Engineering
                         University of Maryland

    In my opinion, the WTC investigation by NIST falls short of 
expectations by not definitively finding cause, by not sufficiently 
linking recommendations of specificity to cause, by not fully invoking 
all of their authority to seek facts in the investigation, and by the 
guidance of government lawyers to deter rather than develop fact 
finding.
    I have over 35 years of fire research in my experience. I worked in 
the fire program at NIST for 19 years, leaving as a division chief. I 
have been at the University of Maryland since. I am a founding member 
and past-Chair of the International Association for Fire Safety 
Science--the principal world forum for fire research. I have followed 
the investigation from onset of the incident, as I was about to teach 
fire investigators at the ATF Academy (FLETC) in Georgia on the morning 
of 9/11. I joined the SSC team of Sally and Monica after we mutually 
discovered each other by speaking our concerns on the WTC collapse. I 
have published in the area of the WTC incident, our students built a 
scale-model of the fire on a floor of the North Tower, and I have 
followed the NIST activities from before their special funding. I 
assisted NIST early in 2002 in viewing photographs and video held by 
the NY Times. I had wished for clear and complete analyses and evidence 
to determine the full cause of the factors behind and the reasons for 
the collapse of the WTC buildings, as they bear on the fire safety 
design of current and future buildings. I am also concerned about the 
lack of sufficient government support for fire research and its 
implementation in fire safety design, codes and standards.

Concerns about the NIST Investigation

    Scientists at NIST should be commended for their individual efforts 
in rising to the occasion of the WTC investigation. NIST should be 
commended for organizing an activity of this scale for the first time. 
However, there are some issues of concern that I will summarize. All of 
these have been submitted to NIST, but never acknowledged or answered. 
I will list some of these.

        1.  Why is not the design process of assigning fire protection 
        to the WTC towers fully called out for fault? The insulation 
        thickness of the truss members varied from 0.5 inches at its 
        construction, changed to a specification of 1.5 inches in 1995, 
        and was taken on its face as 2.5 inches for the North tower 
        fire floors based on a PA report. This extraordinary range of 
        thicknesses bears an in depth investigation. Why were no 
        hearings held or witness testimonies heard on this critical 
        design process?

        2.  Why were not alternative collapse hypotheses investigated 
        and discussed as NIST had stated repeatedly that they would do? 
        Their current explanation for the collapse of the towers is 
        critically based on an assumption that the insulation was 
        removed from the steel in the path of the aircraft, 
        particularly the core columns. NIST does not show calculations 
        or experiments to satisfactorily confirm that the insulation 
        was removed in the core. As some large aircraft components went 
        directly through the buildings, and NIST indicates the others 
        were splintered on impact, can they explain why these small 
        splinters could still denude the steel?

        3.  Spoliation of a fire scene is a basis for destroying a 
        legal case in an investigation. Most of the steel was 
        discarded, although the key elements of the core steel were 
        demographically labeled. A careful reading of the NIST report 
        shows that they have no evidence that the temperatures they 
        predict as necessary for failure are corroborated by findings 
        of the little steel debris they have. Why hasn't NIST declared 
        that this spoliation of the steel was a gross error?

        4.  NIST used computer models that they said have never been 
        used in such an application before and are the state of the 
        art. For this they should be commended for their skill. But the 
        validation of these modeling results is in question. Others 
        have computed aspects with different conclusions on the cause 
        mechanism of the collapse. Moreover, it is common in fire 
        investigation to compute a time-line and compare it to known 
        events. NIST has not done that.

        5.  Testing by NIST has been inconclusive. Although they have 
        done fire tests of the scale of several work stations, a 
        replicate test of at least 1/4 of a WTC floor would have been 
        of considerable value. Why was this not done? Especially, as we 
        have pointed out to NIST that they may have underestimated the 
        weight of the furnishings in the North Tower by a factor of 3. 
        As fire effects on structure depend on temperature and time, 
        this likely longer burning time is significant in the NIST 
        analyses. Other tests of the trusses in the UL furnaces show 
        that the steel attains critical temperatures in short times, 
        and these temperatures correspond to NIST's own computation of 
        truss failure for a single truss. Why have these findings 
        seemingly been ignored in the NIST analyses?

        6.  The critical collapse of WTC 7 is relegated to a secondary 
        role, as its findings will not be complete for yet another 
        year. It was clear at the last NIST Advisory Panel meeting in 
        September that this date may not be realistic, as NIST has not 
        demonstrated progress here. Why has NIST dragged on this 
        important investigation?

On the Recommendations

    The eight group-headings of the NIST recommendations are not 
specific, as they cannot connect directly to their findings. Instead 
they speak to developing, improving or advancing technology for safety 
from fire. Hence, they really cry out for more research, technology 
adaptation, and education with respect to fire. This is understandable 
as the NIST role has been to be a leader in research, and a source of 
new knowledge for codes and standards. The Science Committee and the 
Congress should take note of the needs underlying the nature of these 
recommendations. They are more a need for research to assist standards.
    NFPA testified at the Hearing that the implementation of new 
performance-based codes requires tools that have not yet been developed 
and nor are there sufficient people to understand how to use them. 
Congressman Boehlert pointed out to Sally Regenhard many are ``do-
gooders'' that serve on the standard committees, but few come to the 
table with technical information that is needed for a full discussion. 
This transfer of technical information for standards in fire safety is 
only a role that government can effectively support. The Science 
Committee should thoughtfully consider how that support could be 
implemented.
    I point out some alarming facts. The fire program at NIST received 
a boost in the 1970's under the confluence of several forces: NSF 
advancing $2 million per year for fire research, consumer product 
safety legislation (CPSC), and the funding advanced by industry and 
government agencies for fire research (about $ 2-3 million per year). 
This funding has considerably dropped in real dollars. The NIST fire 
program continues to survive by taking contracts from government and 
the private sector that could otherwise support academic or private 
industry. The extramural research program of NIST, inherited from NSF, 
has shrunk from effectively $2 million to about $500k in 1970 dollars. 
The NSF has defaulted a fire program to NIST so investigators in 
academia have no program to turn to at NSF. The NASA microgravity 
program had taken up the slack in fire research beginning about 1985, 
but its current fire research budget has been decimated in a shift from 
space station needed research to a Mars human flight program. The 
Science Committee has oversight over NSF, NASA, and NIST. It should 
investigate how it can best support the needed fire research.
    NIST speaks to the need for education. I left NIST to contribute to 
that goal. The U.S. produces about 50 fire protection engineers per 
year when about 500 are really needed. If the fire service would 
incorporate fire engineers this number would double. There is a big 
lack of knowledge here, and it contributes to an infrastructure of fire 
safety that is currently fraught with good intentions, special 
interests, and ignorance. The Science Committee should recognize this 
deficiency.

James G. Quintiere
The John L. Bryan Professor
Fire Protection Engineering
University of Maryland

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Fireproofing Blown Off Twin Towers

                  Report Details 9/11 Collapse in N.Y.
                           By Michelle Garcia
                     Special to The Washington Post
                   Wednesday, April 6, 2005; Page A03

    NEW YORK, April 5--The hijacked airplanes that struck the World 
Trade Center hit with such force that the resulting explosions blew the 
fireproofing off the steel columns, accelerating heat buildup and 
weakening the structural core--contributing to the towers' eventual 
collapse, according to a report issued Tuesday.
    The process was hastened by fires outside that consumed the 
buildings' face and caused the exterior columns to bow in, according to 
the report.
    Still, the study by the National Institute of Standards and 
Technology concluded that no amount of fireproofing could have saved 
the buildings.
    Poor evacuation procedures, lack of communication and weak 
staircases cost the lives of civilians and emergency workers at the 
towers, as workers waited for directions and were slow to leave after 
the Sept. 11, 2001, attack, the report said.
    Only two of the 198 elevators in the towers survived the initial 
explosions--forcing most survivors to escape down emergency stairwells, 
which had suffered extensive damage. The report found that building 
codes lacked requirements sufficient to protect the structure of 
emergency stairwells.
    Had such codes been in place, said S. Shyam Sunder, the lead 
investigator of the Institute, ``there would have been greater 
opportunity for people to evacuate.''
    Another federal report issued Tuesday found that the economic 
impact of the attacks was less than New York officials had originally 
estimated. After the attacks, State and city officials said the loss of 
tax revenue could approach $5.8 billion.
    But the Government Accountability Office said the loss attributable 
to the attacks was closer to $2.9 billion and cited the city's 
recession, which had begun to take a toll before Sept. 11, for the rest 
of the loss.
    The institute's report on the building collapse was long awaited by 
city officials. The institute based its analysis on extensive 
interviews with about 1,000 survivors, computer modeling, recovered 
steel and communications records.
    The Institute will use the findings in the 3,000-page report to 
formulate recommendations--expected for release in September--for 
changes in national building codes for office towers. A spokesman at 
the Port Authority of New York & New Jersey, which owned the World 
Trade Center, said local and State officials will review the 
recommendations and use them to guide reconstruction at Ground Zero.
    ``Whatever recommendations are adopted we will follow,'' said 
authority spokesman Steve Coleman. ``Our engineering department has 
oversight over the buildings [and] will ensure the codes are 
followed.''
    In the past, city safety codes for office buildings often were a 
sort of informal compromise between safety and commercial imperatives. 
In 1968, New York City officials drastically reduced the number of 
required stairwells in skyscrapers, at the request of the real estate 
industry, to increase the amount of available rental space.
    New York was, in fact, fortunate that the attacks took place in the 
morning, when most people had not yet reached their offices. If the 
building had been fully occupied, the report found, a full evacuation 
would have taken four hours and cost 14,000 lives.
    The agency interviewed survivors and found that, although most had 
participated in a fire drill, nearly one-half had never used the 
stairwells in the buildings before the attacks. In fact, New York City 
prevents the use of stairwells during fire drills.
    ``I've never heard of another jurisdiction having such a 
prohibition,'' Sunder said.

                 Staircases in Twin Towers Are Faulted

                              By Jim Dwyer
                           The New York Times
                             April 6, 2005

    The staircases in the twin towers--their number, location, and the 
weak walls around them--emerged as critical factors in the deaths of 
many of those killed in the Sept. 11 terrorist attack on the World 
Trade Center, according to a federal safety report released yesterday. 
The findings will be used to shape federal recommendations for 
building-code changes across the country.
    And after more than two years of intensive research, investigators 
uncovered what they said was an elementary shortcoming in the trade 
center towers: neither building had enough staircases to meet any of 
the major building codes in the country, including New York City's.
    For nearly every man and woman on the upper floors of the towers, 
the lack of intact staircases meant that they could not get out after 
the planes struck. Clustered in the centers of the buildings, those 
staircases were encased in lightweight drywall that was immediately 
destroyed. Sturdier walls around staircases that were remote from each 
other ``might have provided greater opportunities for escape,'' said 
the lead investigator, Shyam Sunder.
    In a sobering lesson drawn from one of the day's great successes--
the escape of nearly everyone below the points of impact, about 14,000 
people--the report said that it had taken about twice as long to go 
down a single flight of stairs as had been projected by the current 
engineering standards for tall buildings. The buildings were only half 
full, investigators said, and if the attack had come at a time when 
they were filled to occupancy, the evacuation would not have been 
successful. Thousands more people were likely to have been trapped on 
the stairs, Mr. Sunder said.
    The report, issued by the National Institute of Standards and 
Technology, also formally confirmed what had long been identified as a 
significant failure on that day: the leaders of New York's Police and 
Fire Departments did not coordinate their efforts that morning. The 
investigation suggested that many of the rescuers died because they 
simply did not know what was happening around them.
    ``A preponderance of evidence indicates that a lack of timely 
information sharing and inadequate communications capabilities likely 
contributed to the loss of emergency responder lives,'' the report 
stated. It cited an interview with an unnamed firefighter who told the 
investigators, ``If communications were better, more firefighters would 
have lived.''
    The findings were included in a draft final report from the 
institute, a branch of the United States Commerce Department that was 
given authority by Congress in 2002 to investigate the towers' 
collapse, the evacuation and the emergency response.
    The findings total some 10,000 pages, of which 3,400 were made 
public yesterday. The remainder will be released later in the spring, 
according to Mr. Sunder. The institute will make recommendations on 
improvements in the areas it studied.
    Building-code changes are decided by local governments, generally 
using model codes developed by technical experts who work with the 
insurance and real estate industries.
    In a presentation yesterday at a Times Square hotel, Mr. Sunder 
outlined the techniques used to project the sequence of events that led 
to the collapse of each tower. Although each building was hit by 
virtually identical planes, the south tower collapsed in 56 minutes and 
the north tower in 102 minutes.
    A combination of common factors shaped the course of events, he 
said. The planes plunged through the exterior curtain of each building 
and fragmented as they passed through the building, with parts emerging 
on the other side. The impacts killed hundreds of people instantly. In 
the north tower, American Airlines Flight 11, moving at 443 miles per 
hour, took .685 seconds to pass through the building; in the south 
tower, United Airlines 175, hitting at 542 miles per hour, passed 
through in .58 seconds.
    The impact changed tower structures in two critical ways, Mr. 
Sunder said. First, of the 47 columns in the core of each building, 
nine were either severed or badly damaged in the north tower, and 11 in 
the south tower. Second, the impact dislodged the fireproofing that was 
sprayed on the floors and the columns. As the fires ignited by the jet 
fuel burned, the floors were weakened.
    The floors played an important role in the structures, because they 
connected the exterior supports--the pinstripe columns that gave the 
towers their distinctive appearance--to the columns hidden in the cores 
of the buildings. As the unprotected floors were weakened by fire, the 
exterior columns bowed inwards, the investigators reported. In the 
north tower, a photograph showed they had moved 55 inches off center a 
few minutes before the collapse; in the south tower, they were 20 
inches off center. As those columns became unstable, the building load 
shifted, but the instability was too great and the cascade of collapse 
began.
    Much of the jet fuel burned outside the buildings in a fireball, 
but enough remained inside to ignite the office furnishings and 
building contents.
    In its early phases, the investigation by the institute raised 
serious questions about the adequacy of the original fireproofing 
applied to the steel in the towers, and Mr. Sunder said those concerns 
remained. But, he said, in the areas where the fires were most severe, 
the amount of fireproofing that originally had been applied was 
``moot'' because whatever had been there was knocked off by the planes.
    Hundreds of people were trapped above the impact, on floors where 
there was no immediate damage. This made escape routes an important 
part of the agency's study.
    During the design of the trade center, the Port Authority of New 
York and New Jersey had decided to use a new version of the city 
building code that did not require as many staircases as the earlier 
edition. Instead of six staircases, including a specially reinforced 
fire escape, the trade center had three stairs in each tower. The 
investigators determined, though, that even the liberalized code 
required a fourth staircase, to accommodate the more than 1,000 people 
expected in the restaurant at the top of the north tower and at the 
observation deck atop the south tower.
    As an interstate agency, the Port Authority is not bound by local 
building codes, but it had publicly pledged to ``meet or exceed'' the 
city code in building the trade center. However, the institute 
investigators determined that the Port Authority had not supplied 
enough staircases.
    ``Once you go over 1,000 people on a floor, you need to have a 
fourth stairway,'' said Richard W. Bukowski, a senior engineer with the 
institute. A spokesman for the Port Authority said its engineers 
believe that the findings are mistaken. New York City building 
officials who reviewed the trade center plans, both in the 1960's and 
after the 1993 terrorist bombing, had not raised any questions about 
the missing staircase.
    Glenn Corbett, a professor at John Jay College of Criminal Justice 
and an adviser to the institute investigation, said he had asked about 
the exits for the restaurant and the observation deck. ``Imagine what a 
staircase in the right spot might have done for people that day,'' Mr. 
Corbett said.
    One of the documents included in yesterday's report showed that the 
Port Authority was eager to cut down on the amount of space devoted to 
stairs.
    ``The tower core should be redesigned to eliminate the fire towers 
and to take advantage of the more lenient provisions regarding exit 
stairs,'' wrote Malcolm P. Levy, the Port Authority's chief planning 
engineer, who is now deceased.
    In the impact area of the north tower, the three staircases were 
about 70 feet apart and were destroyed immediately.
    In the south tower, the plane hit on floors where the three 
staircases were about 200 feet apart, and one of them survived at least 
partially intact.

       3-Year Federal Study of 9/11 Urges Rules for Safer Towers

                      By Jim Dwyer and Eric Lipton
                           The New York Times
                             June 22, 2005

    After an exhaustive, three-year study of the collapse of the World 
Trade Center, a federal panel will call for major changes in the 
planning, construction and operation of skyscrapers to help people 
survive not only terrorist attacks but also accidental or natural 
calamities, according to officials and draft documents.
    The recommendations, to be made public tomorrow, include a call for 
a fundamental change in evacuation strategies for tall buildings: that 
everyone should have a way out in an emergency, replacing the current 
standard of providing evacuation capacity for a few floors near a fire 
or emergency. The panel also called for sturdier elevators and 
stairways, and found that current standards for testing fireproofing of 
steel for tall buildings are flawed.
    Taken together, the recommendations, by the National Institute of 
Standards and Technology, are likely to open an intense national debate 
over the costs of such changes and whether lessons for other 
skyscrapers can reasonably be drawn from the extraordinary events of 
Sept. 11.
    The agency's proposals are not binding, but are meant to influence 
the policies of cities and states across the country. Many of them have 
become public in draft form during the three-year inquiry and have 
prompted fierce lobbying or objections from prominent engineers, 
building industry professionals, and the Port Authority of New York and 
New Jersey, which built the trade center. While the agency has revised 
certain aspects of its findings on what precisely happened at the trade 
center, the package of recommendations makes it clear that the agency 
has essentially held firm on its emphatic and demanding safety agenda 
for the next generation of tall buildings in America.
    S. Shyam Sunder, the engineer who oversaw the inquiry for the 
agency, said the investigators worked to identify issues of ``safety 
for the vast majority of buildings'' in fires, earthquakes, power 
losses and sudden hurricanes. The costs of the changes are unknown, but 
structural engineers suggested they would add two to five percent to 
development costs of ordinary buildings.
    The study disclosed that critical design benchmarks and code 
standards used in the construction of the trade center--the time it 
takes to walk down stairs, the distance separating stairways, and the 
fire-resistance tests--turned out to have little relationship to the 
experiences or needs of people inside the towers. These findings, Dr. 
Sunder said, have broad application to buildings everywhere.
    The investigation also found that most building codes do not 
recognize that people on high floors are isolated and easily cut off 
from help during an emergency.
    The inquiry, conducted by more than 200 technical experts and 
contractors working for the agency, amounts to a 10,000-page autopsy of 
the trade center collapse. The report includes 25 pages of 
recommendations, which will be released for the first time as a full 
set in New York tomorrow.
    ``The whole purpose of the investigation was to make building 
occupants and first responders safer in future disasters and to learn 
whatever we could from what happened on 9/11,'' Dr. Sunder said. ``The 
recommendations will be reasonable and achievable.''
    In the United States, building codes are generally adopted by local 
and State governments that use models developed by private groups like 
the National Fire Protection Association, established by the insurance 
industry, and the International Building Code Council, an organization 
of government construction regulators. Those two groups have set up 
committees to evaluate the recommendations.
    ``Will all the recommendations be accommodated verbatim in building 
codes? I think the answer is no,'' said Mohammed M. Ettouney, a 
principal at Weidlinger Associates, a New York-based structural 
engineering firm that is doing the security-related design work on the 
Freedom Tower planned for ground zero. ``But it will act as a lightning 
rod for a debate that will now really get under way.''
    The trade center towers, where 2,749 people died in the Sept. 11 
attack, were only one-third occupied that morning. If the buildings had 
been full, it is likely that 12,000 more people would have died because 
of limited evacuation capacity, the investigation found.
    Already, a proposal for wider exits--making it possible for people 
to leave faster but reducing the amount of rentable space--has been 
rejected by one major code-writing organization.
    Others have suggested that it is folly to think different rules 
might have forestalled the collapses.
    ``They are leading the public down the wrong path,'' said Jon 
Magnusson, whose Seattle-based structural engineering firm, Magnusson 
Klemencic Associates, is the descendant of the company that designed 
the twin towers. ``They are saying we are going to fix the codes in 
order to deal with Sept. 11th. The physics say that you can't do 
that.''
    Dr. Sunder says that is a mistaken reading of the investigation. 
The agency, he said, does not suggest that buildings should be able to 
stand up to airplane impacts. ``It is more cost effective to keep 
terrorists away from airplanes, and airplanes away from buildings,'' he 
said.
    The trade center was built by the Port Authority, which is not 
subject to any building codes. Despite promises by the Port Authority 
to ``meet or exceed'' the New York City code, the federal investigation 
found that the trade center had fewer exit staircases than required and 
that the Port Authority never tested the fire resistance of the floors. 
It also found no evidence that a rigorous engineering study supported 
the authority's repeated public assertion that the towers could stand 
up to the impact of a fully loaded commercial airliner.
    In recent presentations, Dr. Sunder suggested that agencies that 
are exempt from building codes, such as the Port Authority, should have 
an independent party certify their compliance with codes, rather than 
simply deciding for themselves.
    The three-year, $16 million federal investigation was broken into 
two primary parts. Using computers to reconstruct the attack, engineers 
found that when the towers were struck, they redistributed load to 
surviving columns. Once the fire weakened those remaining, extremely 
stressed columns, whose fireproofing had been knocked off by the 
planes, the structures collapsed, the report says.
    That research found no flaw in the design of the towers that was a 
critical factor in the collapse, Dr. Sunder said.
    As the computer reconstruction of the towers proceeded, others 
worked on a second inquiry: identifying weaknesses in building codes.
    For example, investigators determined that if the towers had been 
fully occupied, it would have taken about four hours for survivors to 
exit, more than twice the time either tower stood and twice as long as 
planners had estimated. That led to the call for changes in evacuation 
planning.
    At least some elevators in tall buildings should be built with more 
robust shaft walls and with electrical systems that will not fail if 
exposed to water, the report says, so that they can be used to evacuate 
people who cannot descend long distances and to take firefighters to 
high floors.
    The investigation also raised hard questions about the usefulness 
of a century-old furnace test that measures the fire resistance of 
structural components. Last summer, the National Institute of Standards 
and Technology arranged a furnace test of a 17-foot piece of steel and 
concrete floor, the standard requirement at the time that the towers 
were erected. The floor passed the test. However, the tower floors were 
built not with 17-foot lengths of floor, but with 35- and 60-foot 
lengths. When a 35-foot length was tested in the furnace, the floor 
failed the fire-rating requirement.
    The recommendations also say that tall buildings should be designed 
to prevent ``progressive collapse,'' avoiding a cascade of failures 
that can bring down a tower in seconds.
    The study found that sprinklers, which can replace or reduce other 
fire-protection systems, should have a redundant water supply or power 
backups, to avoid being knocked out with one blow. Requirements for how 
well spray-on fireproofing should adhere to the steel columns also must 
be clarified, Dr. Sunder said.
    The debate over integrating the proposals into building codes and 
practices will undoubtedly be intense. Mr. Magnusson serves on the 
special eight-member committee set up by the National Fire Protection 
Association, along with Sally Regenhard, Chairwoman of the Skyscraper 
Safety Campaign, who is one of the Nation's most vocal advocates for 
tougher building codes. She and Monica Gabrielle, a co-founder of the 
skyscraper campaign, lobbied Congress to finance the agency's 
investigation and have demanded that the institute not dilute its 
findings.
    ``We have to restore the public's perception of safety in 
skyscrapers,'' said Ms. Regenhard, whose son, a probationary 
firefighter, was killed in the attack.
    The International Building Code Council moved last year to require 
that towers taller than about 40 stories have three hours' worth of 
fireproofing on structural elements, instead of two hours, but rejected 
proposals that would require wider stairwells and reinforced concrete 
or masonry walls in buildings over 25 stories.
    The National Fire Protection Association, meanwhile, is expected to 
act in August to require stairwells that serve 2,000 or more people to 
be a foot wider than currently mandated, an official at the 
organization said.

    CORRECTION: A front-page article on Wednesday about a federal study 
calling for major changes in skyscraper construction for safety in 
light of the destruction of the World Trade Center misstated the name 
of an organization of construction regulators. It is the International 
Code Council, not the International Building Code Council.

           9/11 Firefighters Told of Isolation Amid Disaster

                  By Jim Dwyer and Michelle O'Donnell
                           The New York Times
                           September 9, 2005

    The firefighters had 29 minutes to get out of the World Trade 
Center or die. Inside the north tower, though, almost none of them 
realized how urgent it had become to leave.
    They had no idea that less than 200 feet away, the south tower had 
already collapsed in a life-crushing, earth-shaking heap. Nor did the 
firefighters know that their commanders on the street, and police 
helicopter pilots in the sky, were warning that the north tower was on 
the edge of the same fate.
    Until last month, the extent of their isolation from critical 
information in the final 29 minutes had officially been a secret. For 
three and a half years, Mayor Michael R. Bloomberg refused to release 
the Fire Department's oral histories of Sept. 11, 2001. Under court 
order, however, 12,000 pages were made public in August.
    On close review, those accounts give a bleaker version of events 
than either Mayor Bloomberg or former Mayor Rudolph W. Giuliani 
presented to the 9/11 Commission. Both had said that many of the 
firefighters who perished in the north tower realized the terrible 
danger of the moment but chose to stay in the building to rescue 
civilians.
    They made no mention of what one oral history after another starkly 
relates: that firefighters in the building said they were ``clueless'' 
and knew ``absolutely nothing'' about the reality of the gathering 
crisis.
    In stairwells or resting on floors, they could not see what had 
happened or hear clearly stated warnings. Even after the south tower 
fell, when few civilians remained in the lower floors of the north 
tower, throngs of firefighters lingered in the lobby and near the 19th 
floor as time ran down, the survivors said.
    ``That's the hard thing about it, knowing that there were so many 
other people still left in that lobby that could have got out,'' 
Firefighter Hugh Mettham of Ladder Company 18 said.
    Although no official summary specifies where the 343 firefighters 
died in the rescue effort, a review by The New York Times of eyewitness 
accounts, dispatch records and federal reports suggests that about 200 
perished in the north tower or at its foot.
    Of 58 firefighters who escaped the building and gave oral 
histories, only four said they knew the south tower had already fallen. 
Just three said they had heard radio warnings that the north tower was 
also in danger of collapse. And some who had heard orders to evacuate 
debated whether they were meant for civilians or firefighters.

`Not in My Wildest Dream'

    ``Not in my wildest dream did I think those towers were coming 
down,'' said David Sandvik of Ladder 110.
    The point made by both Mr. Giuliani and Mr. Bloomberg to the 9/11 
Commission--that firefighters died because they delayed their own 
departures while trying to save the lives of civilians and other 
firefighters--is, in one sense, fully corroborated by the oral 
histories.
    Even so, measured against the waves of details in those accounts, 
those valiant last-minute efforts explain just a fraction of the 
firefighter deaths in the north tower, a small vivid thread running 
through the broader fabric of the day.
    No one in the Fire Department has tried to use the oral histories 
to reconstruct the events that led to its human losses that day. 
Although more than 500 interviews were conducted, just about 10 percent 
of them involved people who had been inside the north tower. (No 
firefighters in the south tower, which fell first, are known to have 
survived its collapse.) Many who escaped from the north tower did not 
give histories. Few follow-up questions were asked of those who did.
    The ragged character of the records does not yield a clear 
explanation for the isolation of the rescuers within the building, and 
whether it was because of radio failure, a loss of command and control 
or flaws in the Fire Department's management structure. Some 
firefighters described receiving a radio message to evacuate; others 
used strong language to characterize the communications gear as 
useless.
    Despite their spottiness, the oral histories fill out incomplete 
chapters in the sprawling chronicle of what happened in New York that 
morning, much of which took place far beyond the sight of television 
cameras and their global audience.
    Firefighters wondered aloud how they could have attacked a fire 
reached at the end of a four-hour climb. They marveled at the decency 
of office workers coming down the stairs, at the bellowing, dust-coated 
chief on the sidewalk who herded the firefighters clear of the collapse 
zone, at the voices of experience that brooked no hesitation.
    The final moments of the department's senior leaders also rise from 
the histories as a struggle to rescue dozens of firefighters trapped in 
the Marriott Hotel after the south tower's collapse. As they worked, 
the north tower crashed down, killing, among others, Chief of 
Department Peter Ganci, First Deputy Commissioner William Feehan, and 
Battalion Chiefs Ray Downey and Lawrence Stack.
    Precisely 29 minutes earlier, at 9:59 a.m., the fall of the south 
tower shook the north tower and stopped the slow, muscular tide of 
rescuers. By then, the north tower firefighters had been on the move 
for more than an hour. Each carrying about 100 pounds of gear, only a 
few had climbed much higher than the 30th floor. Some recalled hearing 
radio messages from individual firefighters who had made it as far as 
the 40's.
    The calamity next door--the collapse of one of the biggest 
buildings in the world--was heard but not seen; felt but not 
understood. The staircases had no windows. Radio communication was 
erratic. Few firefighters even knew a second plane had struck the other 
building.
    From the street, Chief Ganci twice ordered firefighters to evacuate 
the north tower, according to Chief Albert Turi, but it was not clear 
who inside, if anyone, heard him. Even Chief Turi, standing a few feet 
away, said it had not come over his radio.
    Still, many decided to leave after hearing a rumor of a partial 
collapse some floors above them, or because they assumed another plane 
had hit.
    On the 37th floor, Daniel Sterling, of Engine Company 24, had 
stopped with firefighters from Ladder 5 and Engine 33--who did not 
survive--when the building rattled. A moment later, Firefighter 
Sterling said, Chief John Paolillo appeared.
    ``He thought there was a partial collapse of the 65th floor of our 
building and that we should drop everything and leave,'' Firefighter 
Sterling said.

`Get Up and Go, Go, Go'

    A few floors below, around the 30th or 31st floor, Chief Paolillo 
was spotted again. ``He was yelling, `Leave your equipment and just get 
up and go, go, go,' like that,'' Lt. Brian Becker of Engine 28 said. 
Chief Paolillo died.
    The word to leave was passed to the 27th floor, where many 
firefighters were resting, including Michael Wernick of Ladder 9. ``I 
know that there was no urgency at that point trying to get out of the 
building,'' he said.
    ``Do you think anyone around you was aware that the other building 
collapsed?'' an interviewer asked.
    ``No,'' he replied.
    One exception was Firefighter John Drumm with Engine 39, who said 
that on the 22nd floor, he heard a transmission: ``Imminent collapse of 
the north tower. Immediate evacuation.''
    Then he made a point repeated in nearly every interview: ``From 
what I saw on the way down, very, very few civilians were left.''
    Firefighter Sterling said, ``There was nobody in the staircase on 
the way down.''
    Lieutenant Becker said, ``There were no civilians to speak of in 
our stairway. There were a couple of stragglers being helped by 
somebody or other.''
    Probationary Firefighter Robert Byrne of Engine 24, working his 
first fire, reached the 37th floor. ``I remember going up the stairs 
took us over the hour,'' he said. ``Getting down the stairs took maybe 
10 minutes, not even.''
    Also on 37, Capt. John Fischer of Ladder 20 discovered that two of 
his company had gone up ahead. ``He was screaming at them for them to 
get back down,'' said Lt. Gregg Hansson of Engine 24, who was with 
Captain Fischer. ``Then he went up to get them.'' Captain Fischer and 
his men died in the collapse.
    Firefighter William Green of Engine 6 was one of the few who said 
he knew the other tower had fallen. On the 37th floor, ``someone opened 
the door from the 36th floor and said Two World Trade Center just fell 
down,'' he said. Over the radio, he heard ``Mayday, evacuate.''
    Slowed by firefighters entering the staircase below him, he 
switched sides. ``In hindsight, I think that's what saved my life,'' he 
said.
    He did not dawdle. ``Around the fourth floor, I passed this 
civilian--he might have been 450 pounds,'' Firefighter Green said. ``He 
was taking baby steps like this. I walked right past him like all the 
other firemen. I felt like a heel when I'm walking past him, and I'm 
thinking to myself, what does this guy think of me?''
    Yet other chronicles show that a very heavy man in that location 
was eventually dragged to safety by rescuers who included Firefighter 
Pat Kelly of Rescue 18. Having helped move the man outside, Firefighter 
Kelly was the only member of his squad to survive. He did not give an 
oral history.
    Elsewhere, crowds of firefighters lingered.
    Lt. William Walsh of Ladder 1 said he heard a Mayday to evacuate 
when he was around the 19th floor, but did not know that a plane had 
struck the other building, much less that it had collapsed. As he 
descended, he saw firefighters who were not moving.

No Rush to Get Out

    ``They were hanging out in the stairwell and in the occupancy and 
they were resting,'' Lieutenant Walsh said. ``I told them, `Didn't you 
hear the Mayday? Get out.' They were saying, `Yeah, we'll be right with 
you, Lou.' They just didn't give it a second thought. They just 
continued with their rest.''
    Three court officers reported seeing as many as 100 firefighters 
resting on the 19th floor minutes before the building fell, but they 
were not questioned by the Fire Department.
    Mayor Bloomberg, in a letter to the 9/11 Commission, wrote: ``We 
know for a fact that many firefighters continued their rescue work 
despite hearing Maydays and evacuation orders and knowing the south 
tower had fallen.''
    Asked to reconcile this statement with the oral histories, the city 
Law Department cited the accounts of eight firefighters and said that 
each of them surely had spread the word about the collapse of the other 
tower. In fact, in six of those oral histories, the firefighters 
specifically said they did not know the other building had fallen.
    In the lobby, just yards from safety, survivors said that 
uncertainty doomed many firefighters.
    John Moribito of Ladder 10 said there were maybe ``40 or 50 members 
that were standing fast in the lobby.'' Roy Chelsen of Engine 28 said, 
``There were probably 20 or 30 guys down in the lobby mulling around.'' 
The interviewer asked, ``They weren't trying to get out?''
    ``They were just--no, no,'' Firefighter Chelsen recalled.
    His officer, Lieutenant Becker said, ``There was chaos in the 
lobby. It was random people running around. There was no structure. 
There were no crowds. There was no--no operation of any kind going on, 
nothing. There was no evacuation.''
    Firefighters with Ladder 11 and Engine 4 came down together to the 
lobby, but not all made it out. ``Everyone is standing there, waiting 
to hear what's going to happen next, what's going on,'' Frank Campagna 
of Ladder 11 said.
    His company left, and a moment later, ``it came down on top of 
us,'' Firefighter Campagna said. ``Four Engine obviously didn't make it 
out. They were with us the whole time, so I'm assuming they were still 
in the lobby at that time.''
    The firefighters of Ladder 9 lingered briefly, and most were clear 
of the building for less than a minute when it fell. Firefighter 
Wernick remembered seeing two members of his company in the lobby, 
Jeffrey Walz and Gerard Baptiste. They did not escape. The funeral for 
Firefighter Baptiste, whose remains were identified this year, was held 
on Wednesday.

A Figure Coated in Dust

    Over and over, firefighters who had left the building in those 
final minutes, bewildered by the sudden retreat, the ruined lobby, the 
near-empty street, mentioned a chief covered in the dust of the first 
collapse, standing just outside the north tower on West Street.
    Some knew his name: Deputy Assistant Chief Albert Turi.
    ``He was screaming, `Just keep moving. Don't stop,' '' Firefighter 
Thomas Orlando of Engine 65 recalled, adding, ``I still didn't know the 
south tower collapsed.'' Chief Turi, he said, ``saved an awful lot of 
people.'' The chief has since retired.
    In blunt speech, free of the mythic glaze that varnished much 9/11 
discourse, some firefighters wondered why an endless line of rescuers 
had been sent to an unquenchable fire that raged 1,000 feet up.
    ``I think if this building had collapsed an hour later, we would 
have had a thousand firemen in there,'' said Firefighter Timothy 
Marmion of Engine 16, who carried a woman on a stretcher from the 
staircase to an ambulance.
    ``If it would have collapsed three hours later,'' he said, ``we 
would have had 10,000 firemen in those buildings.''
    Had the buildings not fallen, the gear-laden firefighters would 
have needed about four hours--almost as long as it takes to fly across 
the country--to reach workers trapped on the high floors.
    ``We were just as much victims as everybody that was in the 
building,'' Firefighter Derek Brogan of Engine 5 said.
    ``We didn't have a chance to do anything,'' he added. ``We didn't 
have a chance to put the fire out, which was really all we were trying 
to do.''
    Aron Pilhofer provided computer analysis for this article.

    BUILDING SAFETY: Directing the Herd: Crowds and the Science of 
                               Evacuation

                            By John Bohannon
                 Science, Vol. 310, Issue 5746, 219-221
                            October 14, 2005

    No skyscrapers are designed to be able to disgorge all their 
occupants in a dire emergency like the attack on the World Trade Center 
towers. Can they be made safer?

    VIENNA, AUSTRIA--In the hour and 42 minutes that elapsed between 
the first airplane strike on the World Trade Center (WTC) on 11 
September 2001 and the collapse of both towers, more than 2000 people 
failed to escape. Roughly 500 occupants are believed to have died 
immediately upon impact, and more than 1500 trapped in upper floors 
died in the aftermath. The toll might have been far worse, according to 
studies presented here at the International Conference on Pedestrian 
and Evacuation Dynamics on 28 to 30 September. Had the same attack come 
when the towers were at their full capacity of 20,000 people each, says 
Jason Averill, a fire safety engineer at the National Institute of 
Standards and Technology (NIST) in Gaithersburg, Maryland, the 
staircases would have quickly grid-locked, resulting in some 14,000 
deaths.
    No tall building is designed to be fully evacuated. Instead, 
regulations typically require that a few floors be emptied, assuming 
nothing worse than a localized fire. ``This has to change,'' says Shyam 
Sunder, Deputy Director of NIST's Building and Fire Research 
Laboratory, ``because in the lifetime of a building, there will be 
situations where you've got to get everyone out.''
    But getting everyone out of harm's way will require a deeper 
understanding of the collective behavior of crowds, says Jake Pauls, a 
veteran building safety consultant now based in Silver Spring, 
Maryland. Researchers are ``just scratching the surface,'' says 
Averill, although they have made leaps and bounds over the past few 
years. Studies presented at the meeting offered a glimpse of how 
evacuations could be conducted more safely.

Modeling mobs

    Until recently, there was little science in emergency planning, 
says Ed Galea, a fire safety engineer at the University of Greenwich, 
U.K. That is changing as scientists try to capture the behavior of 
crowds using computer simulations. A diverse effort is under way to 
refine these models with real-world data. For example, a team led by 
Jean Berrou, a computer scientist at the Maia Institute in Monaco, has 
been secretly filming pedestrians in 10 different cities around the 
world, analyzing nearly 1000 hours of video to measure different 
cultural patterns of walking. For example, he says, ``pedestrians in 
London are faster than those in New York.''
    The goal is to find rules that individual pedestrians unconsciously 
follow to navigate crowded spaces. ``What's amazing is that people 
don't collide with each other more often on a typical city sidewalk,'' 
says Jon Kerridge, a computer scientist at Napier University in 
Edinburgh, U.K. On a scale of microseconds, people negotiate priority 
with cues transmitted through body language. ``If we can understand how 
that works,'' he says, we might learn why certain geometries of 
corridors and portals work better than others.
    The next step is to understand how an emergency changes everything. 
Researchers use a parameter called drive to define the level of 
motivation people have to go from A to B. ``This is where things get 
very difficult to model,'' says Kerridge, ``because we're talking about 
innate, personal factors.''
    Strange things happen when fear is added to the mix. Take the 
paradox that the more urgently people want to leave a crowded room with 
a narrow exit, the longer it takes to get out. That occurs in part 
because of a breakdown in normal communications. Daniel Parisi and 
Claudio Dorso, computer scientists at the University of Buenos Aires, 
Argentina, have found that the optimum exit speed is a fast walk of 
about 1.38 meters per second.
    Such studies reveal that ``the fundamental unit of a crowd is not 
the individual but the cluster,'' says Kerridge. This is because ``the 
first thing we do in an emergency situation is look to each other for 
support and information.'' But that response slows movement 
dramatically. On a larger scale, people form groups similar to animal 
herds in which individuals let the crowd do the navigating, often 
passing right by exits within clear view.
    Learning to predict and control these behaviors may save lives--and 
not just in big buildings. The main killer when people mass is not 
trampling, as is commonly thought, but ``crowd crush.'' When two large 
groups merge or file into a dead end, the density makes it impossible 
to fall down, says Pauls. But the accumulated pushing creates forces 
that can bend steel barriers. ``The situation is horrible,'' he says: 
``Suddenly everything goes quiet as peoples' lungs are compressed. No 
one realizes what's happening as people die silently.'' Dangers like 
these make designing architecture and procedures for evacuation like a 
tightrope walk, says Pauls: ``You have to get people out fast, but 
safely.''

Revisiting 9/11

    Armed with these insights, two separate groups have been trying to 
model the WTC evacuation to see what lessons can be learned. In 2002, 
the U.S. Congress ordered NIST to investigate the WTC safety and 
emergency response, and the U.K. government commissioned a team led by 
Galea, which has paved the way for a larger study called HEED. ``This 
was one of the largest full-scale evacuations of people in modern 
times,'' says Galea.
    To build a minute-by-minute chronology of the event, the NIST team 
has conducted more than 1000 interviews with survivors by telephone, 
and Galea's team is set to do up to 2000 face-to-face interviews next 
year. One of the most surprising discoveries, says Galea, is the long 
lag time between the first attack and the start of evacuation. Galea's 
team found that although 77 percent of survivors began the egress 
within five minutes of the impact, it took another hour for the next 19 
percent to get going, and four percent stayed in their offices for over 
an hour. ``In some cases people were more worried about saving their 
computers,'' he says.
    Both teams have incorporated these data into a model called EXODUS, 
designed by Galea. When the NIST team used the model to play out the 
WTC disaster with full occupancy, it estimated roughly 14,000 deaths, 
most among those stuck on the stairs. This didn't surprise Pauls.
    ``Those stairs were not designed to handle a full evacuation,'' he 
says. ``In fact, no tall building is prepared for it.'' Sunder says 
NIST is pushing to include full evacuation for many tall buildings in 
the next review of U.S. building codes in 2008. ``There is a lot of 
resistance'' to requiring full evacuation capability even after the WTC 
attacks because people ``believe that was a one-time-only event,'' he 
says. But he notes that a building's typical lifetime is a century; 
designers should be preparing for other ``extreme events'' like multi-
floor fires, earthquakes, and hurricanes.
    Until the existing tall buildings are replaced with a new 
generation, experts say, improvements will have to come through better 
emergency procedures and retrofitting. For one, elevators should be 
made usable during emergencies, says Sunder. WTC tower number 2 emptied 
far more efficiently than tower 1 because its elevators were available 
before it was hit by the second plane, the studies found. New elevator 
systems that include independent power supplies and computers that 
prevent them from opening on a burning floor will be available within a 
few years, says Averill. Galea suggests another possible innovation: 
adding sky bridges to create new escape routes linked to other 
buildings. His simulation of a WTC evacuation with the towers linked by 
a bridge was far more efficient.
    Evacuation experts say they are continuing to look at all kinds of 
evacuation backups, even far-out ones. For example, a pole system that 
can be attached to the outside of buildings is being tested. By 
strapping into a vest attached to the pole, people could slide down 
safely using electromagnetic brakes. Another option: People could jump 
into fabric tubes and bounce their way down to the bottom--although 
this would likely cause friction burns. Even parachutes have been 
proposed as a last chance resource.
    ``But really, the best thing we can do to make these buildings 
safer,'' says Pauls, ``is to focus on the basics.'' That means better 
stairs, elevators, and fire drills.

</pre></body></html>
